<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                    DEPARTMENT OF TRANSPORTATION AND

                    RELATED AGENCIES APPROPRIATIONS

                                FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________
 SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                             APPROPRIATIONS
                    HAROLD ROGERS, Kentucky, Chairman
 FRANK R. WOLF, Virginia             MARTIN OLAV SABO, Minnesota
 TOM DeLAY, Texas                    JOHN W. OLVER, Massachusetts
 SONNY CALLAHAN, Alabama             ED PASTOR, Arizona
 TODD TIAHRT, Kansas                 CAROLYN C. KILPATRICK, Michigan
 ROBERT B. ADERHOLT, Alabama         JOSE E. SERRANO, New York
 KAY GRANGER, Texas                  JAMES E. CLYBURN, South Carolina
 JO ANN EMERSON, Missouri
 JOHN E. SWEENEY, New York          
                         
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Richard E. Efford, Stephanie K. Gupta, Cheryle R. Tucker, and Linda J. 
                        Muir, Subcommittee Staff
                                ________
                                 PART 7

                    TESTIMONY OF MEMBERS OF CONGRESS

                          AND PUBLIC WITNESSES

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 75-459                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


 
 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2002

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                         Wednesday, March 14, 2001.

            KENTUCKY HIGHWAY, TRANSIT, AND AVIATION PROJECTS

                               WITNESSES

HON. RON LEWIS, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF 
    KENTUCKY
HON. KEN LUCAS, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF 
    KENTUCKY
HON. ED WHITFIELD, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF KENTUCKY

                            OPENING REMARKS

    Mr. Rogers. The Committee will be in order. We are 
delighted to welcome as our lead-off panel this morning some of 
the most important people in the Congress. They represent some 
of the greatest people in America. We are delighted to have the 
panel from Kentucky join us as our first witnesses this 
morning. Ron Lewis, Ken Lucas and Ed Whitfield, Second, Fourth 
and First Districts respectively, if you could join us at the 
table, we would be delighted to hear from you. And Mr. Lewis, I 
think you are the senior member of the group. Welcome.
    Mr. Lewis. Thank you, Mr. Chairman. Chairman Rogers, thank 
you for giving me the opportunity to share with the 
subcommittee some of the transportation needs for Kentucky's 
Second District.
    I represent west central Kentucky. While still mostly a 
rural district, it has seen substantial growth in recent years. 
This expansion brings exciting new opportunities to many 
communities. However, without the necessary preparations, the 
development will put a strain on the infrastructure.
    I would like to begin by updating the subcommittee on a 
project that has received Federal assistance in the past. As 
the Chairman is aware, I-65 near Bowling Green is now one of 
the busiest roadways in the State and in recent years has 
become one of the most dangerous. From January 1998 to July 
2000, 15 fatal wrecks occurred on this stretch of interstate. 
As a result it has unfortunately been nicknamed ``Death 
Valley.''
    I am pleased to report this morning that construction 
started in October that expands this section of I-65. The 
project will widen the interstate from four lanes to six from 
Elizabethtown, through Bowling Green, and on to the Tennessee 
border.
    Under highway projects for fiscal year 2002 I will be 
requesting funds for the reconstruction of Highway 61 between 
Greensburg and Columbia. The project will provide better 
highway access from Green County to the Louie B. Nunn Parkway, 
which ties into the interstate highway system. I will forward 
the subcommittee a detailed request on this project in the next 
couple of weeks.
    I recently participated in a planning meeting in 
Campbellsville to discuss a proposal that I believe also 
warrants Federal support. The plan calls for a 60-mile four-
lane corridor that will connect the Bluegrass Parkway with the 
Louie B. Nunn Parkway at Columbia. This project is still in the 
early planning stages, but I believe the community has formed a 
very capable work group and I look forward to helping with 
Federal assistance in the future.
    I would also like to express my strong support for the 
chairman's efforts to expand I-66. I know you have been working 
on that for a while. As we have discussed in the past, this 
project is vital to many counties in my district.
    Under aviation projects, I have several issues I would like 
to bring to the subcommittee's attention. First, STATCARE, an 
air ambulance service in Glasgow, is in need of $450,000 in 
fiscal year 2002. The funding will be used to construct a 
helicopter pad and hanger at Glasgow's Moore Field. STATCARE 
has become an important part of health care delivery in my 
district. STATCARE is also needed to provide life-flight 
transportation for my constituents to trauma centers in Lowell.
    In addition, I have two funding requests for an instrument 
landing system and runway extension at Elizabethtown Airport 
and Addington Field. Both of the requests meet the needs of 
these expanding airports.
    One of the most exciting transportation and aviation 
proposals in my district is the Kentucky Trimodal Transpark. 
The Kentucky Trimodal Transpark is named for a high tech 
commerce and business park in Warren County. The project 
started in 1998, when local community leaders began to look at 
ways to attract business to the area. The first step was the 
establishment of the Intermodal Transportation Authority. As 
the subcommittee is fully aware, the primary goal for the ITA 
is for the airport to be included on the Federal Aviation 
Administration's national planning list. This will allow the 
ITA to receive Federal funding under the Airport 
ImprovementProgram. The ITA is currently working with the FAA's field 
office to reach that goal. I hope you will work with me to encourage 
the Department of Transportation to give full and fair consideration to 
the ITA's proposal.
    I do not have an appropriations request for Owensboro-
Daviess County Regional Airport at this time; however, I would 
like to take this opportunity to let you know that I have 
contacted the Department of Transportation to request that they 
continue to work with the airlines to find a contract to allow 
service to continue at this airport. After Northwest Airlines 
decided to terminate service at the airport last year, 
Corporate Airlines came forward with a proposal to provide 
regular flight service to the region. The plan has been well 
received by the airport management and the community.
    Before the airline can begin business, an agreement must be 
reached under the guidelines of the Essential Air Service 
Program. While I am confident that an agreement will eventually 
be reached, I just hope it will be in the very near future.
    I would also like to bring the subcommittee's attention to 
several modest requests for funding for buses and vans. The 
subcommittee's past support for my request has benefited many 
communities in my district. A list of these projects is 
included in my written statement.
    The Transportation and Community and System Preservation 
Program has also been helpful to many enhancements projects. 
For fiscal year 2002 I am requesting $2 million to continue the 
Bowling Green riverfront development project and $1 million for 
the Elizabethtown Nature Park.
    In closing, thank you again for giving me the opportunity 
to share with the subcommittee some of the transportation needs 
for Kentucky's Second District. I request that my full written 
statement be submitted for the records.
    Mr. Rogers. It shall be.
    Mr. Lewis. Thank you, Mr. Chairman.
    [The prepared statement of Hon. Ron Lewis of Kentucky 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Thank you. Mr. Lucas.
    Mr. Lucas. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify here today. I submitted some written 
testimony and I would request that it be in for the record. I 
would appreciate that.
    One of the main projects we have is the Morehead-Rowan 
County Airport. The Commonwealth of Kentucky and the City of 
Morehead in the County of Rowan have put about $2 million into 
acquiring a new site for that airport, and we are requesting $8 
million from the FAA for engineering design and construction of 
that airport. Congressman, I think you are aware of the needs 
there in Morehead, and Judge Clyde Thomas has worked 
particularly hard on this.
    As you know, Morehead is a vibrant center of that part of 
Kentucky in industry and commerce. Morehead State University is 
there, and this is something that they need quite desperately. 
They have an older airport there with about 2,500 feet of 
runway, and that is just not sufficient to get in the corporate 
aircraft that they need to get in there because they have an 
industrial park. So they have acquired a new site as we speak. 
The final completion of that site is going to be in the month 
of March. Like I said, they spent about $2 million between the 
city, county and State in acquiring that, and this is just a 
vital piece of what they need in their infrastructure to 
attract industry. Morehead does not suffer from a lot of 
unemployment, but what they have is a lot of service sector 
jobs with the university there, they have a lot of fast food 
restaurants and those kinds of things, but they need the higher 
paying jobs that in this new day and time with the expansion of 
broadband communications one of the great things that this part 
of the country has are good people with a lot of work ethic, 
and that airport is just vital to developing the kinds of 
infrastructure that they need.
    Mr. Rogers. Why couldn't the existing airport be expanded?
    Mr. Lucas. It is 2,500 feet and the terrain and topography 
there is very dangerous. The pilots complain it is a very 
unsafe airport. I don't know if you have ever seen it, but it 
is just not suitable for expansion for two reasons, because of 
the terrain makes it very unsafe and the fact that it is in a 
residential area and it would be very expensive and they would 
have to dislocate a lot of folks. So they have the new site 
that is ideal. It is within 2\1/2\ miles of their industrial 
park. So I think, you know, they have great community support 
for this thing. The Chamber of Commerce and the city and the 
county and the Commonwealth have looked at this. They have all 
the local support that you would ever hope to get for this 
project.
    As you know, this is an area that would--Cave Run Lake is 
there as well as the tourist attraction. This area also serves 
Menifee, Morgan and Rowan Counties that are in your district, 
and I think it is just a vital link that they need to develop 
their infrastructure. They have, you know, the support of the 
Gateway Area Development District. The Economic Development 
Council is there plus a lot of the private enterprise is there 
that really needs this airport. So that is one of our main 
interests, would be securing $8 million for the Rowan County 
Airport so they can get a 4,500-foot runway.
    Also, it has been added to the National Plan for Integrated 
Airport Systems through the FAA office in Memphis. So I think 
they have done their homework, and this is the next most 
crucial step in getting this done.
    I might mention some other things. You know the Ashland-
Boyd County Airport. As you are aware, Ashland left that area 
and they were the big providers for that airport but they have 
since moved their corporate headquarters to Covington. But that 
airport is in much need of repair, andit is just suffering from 
a lot of neglect. Ashland, when they were there, Ashland, Incorporated 
had put in a landing system there, but it is an old vacuum tube system. 
It is very much out of date. So that is a project that is important, 
$1,300,000.
    And of course we have a lot of needs for vans through the 
rest of our district, which have been listed, plus some other 
highway projects in Henry and Trimble Counties and Shelby 
County, and that is all in my written testimony, and that is 
what I would submit for my report unless you have some 
questions of me.
    [The prepared statement of Hon. Ken Lucas follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Well, you certainly have given us enough to 
work on here.
    Mr. Lucas. We didn't want to you feel like, you know, that 
we didn't give you a lot of things to consider, and we would be 
happy for you to fund all these things, sir.
    Mr. Rogers. Thank you.
    Mr. Whitfield.
    Mr. Whitfield. Mr. Chairman and members of the 
subcommittee, I appreciate very much the opportunity to be 
here. And I want you to know, Mr. Chairman, that I have a long 
list of requests but I don't think that all of them total up to 
$8 million. So they may be long, maybe it is not a lot of 
money.
    But as you know, I represent the First District of Kentucky 
and while we have had a lot of economic expansion in that area 
of the State, we do have one county that has an unemployment 
rate of about 12.4 percent, which is one of the highest in the 
State. And we know that transportation helps with economic 
development, and so the projects for which I am requesting are 
broken down into three categories this morning, airports, 
highways, and public transportation. And I am also requesting 
report language that would provide some needed flexibility in a 
project authorized in the TEA-21 legislation.
    The following airport project requests are from the Federal 
Aviation Administration's Airport Improvement Program 
discretionary account. The first airport I am requesting funded 
for is in Madisonville, Kentucky at the municipal airport. The 
city has experienced tremendous growth with location of plants 
like General Electric, and they are in need of a runway 
extension. The current airport runway is not long enough to 
accommodate some of the corporate jets that need to go into 
that area. Therefore, I am requesting $2 million for the runway 
extension in Madisonville.
    The second airport is the Henderson City Airport. The 
Henderson Airport has a terminal building in existence today 
that is inadequate, was built below grade, has resulted in 
flooding during heavy rains. In addition, the building is not 
handicap accessible and has insufficient heating and cooling 
systems. This project enjoys widespread local support and is 
needed to enhance economic development in the area, and I am 
requesting $900,000 for construction of the new terminal.
    The third airport, the Barkley Regional Airport, is the 
only commercial airport in the district and this primarily is a 
safety request relating to a new taxiway. The taxiway will 
minimize the possibility of collision with other aircraft and 
vastly improve taxiing efficiency, and the cost for that 
project is $1.35 million.
    The final airport is in Caldwell County. The main employer 
in the county is considering basing their U.S. headquarters in 
the county and the runway extension would make it a more 
desirable location, and the local community officials are 
requesting $500,000 for a runway extension in Caldwell County.
    Turning to highway funding needs, I am requesting funds for 
two projects in Henderson County. Due to heavy congestion and 
traffic flow problems near the industrial area, U.S. 60 from 
Kentucky 425 to U.S. 41 in West Henderson, that area needs to 
be reconstructed. I am requesting $1.5 million for right-of-way 
acquisition. Also in Henderson at U.S. 60 from Corydon to 
Kentucky 425 needs to be reconstructed. I am requesting a 
right-of-way acquisition there.
    The third right-of-way project is located in Hopkins 
County. U.S. 41-A from U.S. 41 west to Kingdom Hall Road in 
Madisonville needs to be widened to five lanes and we are 
requesting $100,000 for planning and study.
    And the fourth highway project is in Logan County, from 
U.S. 431 to Epleys Station North to Lewisburg, which needs to 
be reconstructed. I am requesting $850,000 for design work 
there.
    The fifth highway project is in Christian County. This 
major construction project will extend Pennyrile Parkway from 
U.S. 41-A to Interstate 24, and we are requesting $1 million 
for right-of-way acquisition.
    In addition to these projects, the need for public 
transportation is also great and I have three specific capital 
purchases I would like to see funded this year or at least 
would hope that you all would consider it and possibly fund 
them. The Audubon Area Community Services, which serves 
Henderson, Webster, Ohio, Union and McLean Counties, is in need 
of five RV Cutaways at a cost of $200,000.
    And then, Mr. Chairman, counties in the area that you used 
to represent, the Rural Transit Enterprise, which serves 
Monroe, Cumberland, Clinton and Russell Counties, is in need of 
10 to 16 passenger buses and 10 center island vans at a cost of 
$500,000.
    Lake Cumberland Community Services, which serves Adair, 
Clinton and Cumberland Counties, needs two center island vans 
and one van lift at a cost of $800,000. The report language I 
am requesting deals with the Paducah City Lead Rail Crossings 
Project, which was authorized under section 1602 of TEA-21. The 
project is now completed within the boundaries of the City 
Lead.
    There are Federal funds remaining for this project that 
could be used for needed renovations in the City of Paducah and 
McCracken County, but to do that I need a slight change in the 
language and I am requesting report language to amend the 
authorization to read ``construct highway rail gradeseparations 
along The City Lead and other areas in the city of Paducah and 
McCracken County, Kentucky.''.
    I appreciate very much your giving me the opportunity to 
testify, and I hope that maybe next year I can bring more 
projects to be considered. We will try to get these done this 
year. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Whitfield.
    [The prepared statement of Hon. Ed Whitfield follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                       Wednesday, March 14, 2001.  

            INDIANA HIGHWAY, AVIATION, AND TRANSIT PROJECTS


                               WITNESSES

HON. BRIAN KERNS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Rogers. Now we have the Indiana folks. Would the 
Indiana Members take a seat at the table, please? I don't have 
this ranked in order of seniority, but Mr. Visclosky. He looks 
the oldest, anyway.
    Mr. Visclosky. Chairman, thank you very much for the 
opportunity, and first of all, I want to thank you for all of 
the courtesy, consideration and generosity you have shown me as 
chair of the Commerce-State-Justice Committee. I would also 
note for the record that the previous chair, Mr. Wolf, Mr. Sabo 
and the members of the committee and staff have been very kind. 
You have my prepared remarks.
    We have a number of requests, including a request for the 
Gary-Chicago Airport, a highway-rail separation program in East 
Chicago, and a request for a centralized traffic control system 
for the South Shore.
    I would anticipate, Mr. Chairman, as we proceed with the 
process to work with you, Mr. Sabo, Committee Members, and the 
staff and do appreciate any consideration that you can give to 
us. Thank you very much.
    [The prepared statement of Hon. Peter Visclosky follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. That is good testimony. We do have 
your prepared written statement, which obviously will go in the 
record, and we can study and dissect. I am sure we will have 
conversations during the year on your requests, but thank you 
for being brief.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Kerns. Mr. Roemer.
    Mr. Roemer. I am going to let the freshman go first to show 
you how bipartisan we are.
    Mr. Kerns. Thank you, appreciate that. Thank you, Mr. 
Chairman, members of the committee and staff. It is a pleasure 
to be with you this morning. As the only member of the Indiana 
congressional delegation on Transportation, I have been working 
with the delegation, the Governor of Indiana, the Indiana 
Department of Transportation and other officials to ensure that 
Indiana's transportation needs are met.
    As a freshman Member of Congress, it is an honor to be with 
you here today. I thank you for the opportunity to testify and 
highlight some of Indiana's needs. I have submitted written 
testimony, so my testimony will be brief, just to highlight a 
couple projects but there are others.
    As you know, I am a member of the Transportation Committee 
and work with Indiana's Seventh Congressional District and 
their constituents. And I am a former staff and a chief of 
staff to a former Member. So I know firsthand the committee and 
the hard work that you do in working to improve the Nation's 
infrastructure needs, and thank you for all your work.
    My appropriations requests that I will mention today is 
first the North-South Corridor in Hendricks County, which is 
the second fastest growing in the State of Indiana, and this 
corridor would connect the Indianapolis International Airport 
and one of the largest rail yards as well as Interstates 74 and 
70. The western portion in the donut counties around 
Indianapolis are exploding in population and the infrastructure 
needs there are great. It is also near the western portion of 
the Indianapolis Motor Speedway, just to familiarize you with 
the area.
    Secondly, the upgrading in Boone County of Indianapolis 
Road. It is in suburban Boone County near Indianapolis. The 
road is in close proximity to Interstate 65 and used as an 
alternative road for rerouting Interstate 65 traffic where 
there are cases of emergency. So if Interstate 65 would be shut 
down, this would be the emergency route from Indianapolis to 
hospitals for the county.
    And third, upgrading existing tracks throughout Indiana, 
and the Governor has highlighted this to me in his request, in 
order that we be able to move forward with high speed rail in 
the future. Currently some of the tracks are not incondition 
where they could be suitable for high speed rail, and additionally 
there is a need also to upgrade the grade crossings and illumination of 
crossings. And it is very important that we move forward with these 
projects to keep Indiana in preparation for the development of high 
speed rail in the Midwest.
    And then the last project that I will touch base on is with 
regard to the bridges over the Ohio River, so that we can 
ensure that Indiana-Kentucky basketball teams continue to be 
able to commute and play each other.
    Mr. Rogers. We get there by walking across the water.
    Mr. Kerns. I have heard that, but I didn't want to comment 
in testimony.
    But, Mr. Chairman, those continuations to prepare for the 
two new bridges that will be built. As you know, Louisville 
continues to grow and it is a great city. Southern Indiana 
continues to expand. We think it is important not only for the 
economy of southern Indiana and northern Kentucky but also for 
safety because there have been a number of accidents and 
considerable congestion on those bridges.
    With that, Mr. Chairman, I will submit my written 
testimony, which highlights additional projects. But again I 
want to thank you, working with you and the committee. It is an 
honor to be before you today as a member of the 107th Congress. 
With that, I yield back my time to my colleague and good friend 
Mr. Roemer.
    [The prepared statement of Hon. Brian Kerns follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. You have prepared a very thorough 
written statement and your summary is well done. Appreciate 
your being here. Mr. Roemer.
    Mr. Roemer. Thank you, Mr. Chairman. I ask unanimous 
consent to have my entire statement entered into the record.
    Mr. Rogers. Without objection.
    Mr. Roemer. I want to thank you and the Committee, Mr. 
Sabo, Ms. Kilpatrick, Mr. Tiahrt and others on the Committee, 
for your past investments and support for my district and my 
State. You have been extremely wise and prudent in putting in 
money in an intermodal facility in downtown South Bend that has 
helped me get access to transportation, as we have many 
transportation problems in the Midwest, whether it be through 
people having access to one car or difficulty with no working 
cars, and this new transportation facility has been built on 
the southeast side of town to help recapture an area and 
encourage other buildings to be built up there in that area. 
And so your investment has brought other investment in that 
side of South Bend and we very much thank you for the $17.7 
million the Committee has invested in that facility.
    Last year you invested another $3 million in helping us 
modernize an aging bus fleet, and we matched that with $1.875 
million in State and local funds because it is very important 
to us at the local community. I am asking to complete the 
project for $4.5 million to finish modernizing the 
exceptionally old buses that run into harsh winter conditions. 
They also use a lot of fuel. The newer buses would burn cleaner 
diesel fuel and would not break down as often. We appreciate 
very much your investment over the years in this facility and 
this new project, and we hope to close it out this year with 
this final request. We thank you very much.
    [The prepared statement of Hon. Tim Roemer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. Thank you, Indiana Members, for your 
testimony.
                              ----------                              

                                       Wednesday, March 14, 2001.  

         OHIO AND TENNESSEE RAIL, HIGHWAY, AND TRANSIT PROJECTS


                               WITNESSES

HON. STEPHANIE TUBBS JONES, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF OHIO
HON. DENNIS J. KUCINICH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO
HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
HON. BOB CLEMENT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
ERIC BUYER, EXECUTIVE DIRECTOR, NASHVILLE REGIONAL TRANSIT AUTHORITY
    Mr. Rogers. We now have Members of the Ohio and Tennessee 
delegations. Stephanie Tubbs Jones, Dennis Kucinich from Ohio, 
Bart Gordon and Bob Clement from Tennessee. And Tennessee 
gentlemen, would you come forward? Come on around to the table. 
And I don't know the seniority. Who has seniority? Mr. 
Kucinich. You are recognized.
    Mr. Kucinich. Thank you, Mr. Chairman. I want to thank the 
Chair for the opportunity to testify and I will just briefly 
summarize my testimony so that I can facilitate the Chair's 
work here.
    The assistance that we are asking for is in four major 
areas. The first is to facilitate the continuation of an 
agreement, which was a one of a kind nationally, which 
facilitated the merger of CSX and Norfolk Southern acquisition 
of Conrail. In the course of that merger there was a need to be 
able to reroute train traffic out of a heavily populated 
residential area. And with the help of then Governor Voinovich 
and other officials, State, national and local, and the help of 
my partner in this, who is Congressman Steve LaTourette, we 
were able to secure 26 million in Federal funding through the 
railroads and the State of Ohio submitted money. So we need to 
continue the success of this agreement, and I appreciate the 
committee's support on that.
    We are also looking for support for a demonstration project 
for a quiet zone, because while we are able to relieve 
residential concerns about the increase in train traffic 
through heavily populated areas, the train traffic which 
increased through the rerouting through some of the less 
populated areas has brought about an increase in noise, and we 
need the help of the committee in addressing that.
    We have a concern that relates to improving a traffic 
signal station in a densely populated suburban community that I 
appeal to the committee for its support as well as a request 
for improvements in pedestrian safety near Baldwin-Wallace 
College in the City of Berea.
    And finally, the City of Cleveland has a major road that 
runs right through the middle of our city. The Inner Belt 
consists of four interstate highways. It was designed in 1959 
and built from 1959 to 1969. It faces severe deterioration and 
obsolescence, and we are asking the committee to provide money 
to help with the initial studies and preliminary engineering.
    And these are extremely important issues for safety and for 
the economy of our community. I want to thank the Chair again 
for the opportunity to appear, and as always I am grateful for 
the Chair's thoughtful consideration and for the consideration 
of the members. I want to thank all those members who are in 
attendance, Mr. Tiahrt and Mr. Sabo and Ms. Kilpatrick and Mr. 
Serrano. Thank you very much.
    [The prepared statement of Hon. Dennis Kucinich follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. Mrs. Jones.
    Mrs. Jones. Good morning. I represent the 11th 
Congressional District of Ohio. I would like to thank you for 
the opportunity to be heard before this Committee this morning. 
I second the statements of my colleague Mr. Kucinich with 
regard to the Inner Belt, Cleveland Inner Belt project.
    I am speaking with regard to two projects this morning. The 
Cleveland Inner Belt project is a corridor. It is a highway 
that actually is an Inner Belt that connects of four different 
main highways within the City of Cleveland. As has been stated, 
it was built 20, 30 years ago, and so its design is outdated 
for 21st century driving. There is a 35 mile per hour zone, 
which is one of the sharpest turns in any interstate system. In 
fact, it is called Dead Man's Curve and it in fact has been 
just that. A number of people have been put to death as a 
result of their driving practices but also the curve as well 
and not being noticed well enough. So we are here this morning 
requesting a new start funding which represents about 61 
percent of the $220 million project cost, with the remaining 39 
percent coming from the State of Ohio and local contributions 
from the city and regional transit authority.
    I am joined here this morning by Mr. Howard Mayer, who is 
the Executive Director of the Northeast Ohio Area Coordinating 
Association, as well as Mr. Cal Abrese from the Cleveland 
Regional Transit System which I will speak to next. But Mr. Cal 
Abrese has some involvement with the regional knowledge as 
well.
    Let me speak to the second project in light of the fact 
that my colleague Mr. Kucinich spoke poignantly with regard to 
the Inner Belt project. The second project is--this is my 
second term and the second time, actually maybe the third time 
I have come before this committee with regard to the Euclid 
Corridor Project. It consists of a 6.7-mile bus transit line 
operating from Public Square, which is in the center of 
downtown Cleveland to the Stokes-Windemere, Stokes meaning my 
predecessor Louis Stokes, Windemere Rapid Line and the City of 
East Cleveland. It will accomplish a center median busway which 
will connect the central business district and major cultural 
and medical institutions from downtown to the Art Museum out to 
the Symphony, out to University Hospital and the Cleveland 
Clinic. It is in its final stages of this process, identifying 
design modifications to mitigate potential impacts of the 
project to the community.
    In response to some of the concerns raised by the 
community, we incorporated an environmentally friendly hybrid 
electric vehicle. Originally there was plans of putting in the 
old trolley system but as a result of the environmental issues 
raised, the electric vehicle is being proposed and it would be 
perfect for this particular area and, after this plan is in 
place, probably would be great for other areas of the City of 
Cleveland and across the country.
    As has been stated, previously we were funded last year and 
the year before, and this year our request is for $10 million. 
We have given notice to the Federal Transit Administration as 
to this project and it seems that we have great support for it 
as well as to Secretary Mineta.
    I thank the committee, each of you, for the opportunity to 
present to you this morning, and my notes say no questions. So 
I am done and I appreciate the opportunity to present.
    [The prepared statement of Hon. Stephanie Tubbs Jones of 
Ohio follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Thank you, Mrs. Jones.
    Mrs. Jones. I guess I forgot Mr. Cal Abrese from the 
Regional Transit Authority and Cheryl Benford from the Regional 
Transit Authority.
    Mr. Rogers. If any member of the panel has a question at 
any time, just interrupt. Otherwise we will just proceed 
forthwith. Thank you.
    Now to our Tennessee gentlemen.
    Mr. Clement. Members of the committee, it is a great honor 
to have the opportunity to testify before all of you. I have 
the Dean of the Tennessee delegation today, Congressman Bart 
Gordon, and also Eric Buyer, who is the Executive Director of 
the Regional Transportation Authority at home in the Nashville 
area. I want to let all of you know that you all have offered 
consistent support for this project. Year after year you face a 
great challenge as you determine which transportation 
initiatives qualify for a limited pool of Federal dollars. I 
thank you for the support you have given the Nashville Regional 
Commuter Rail in recent years.
    We testify today on behalf of RTA, requesting $17 million 
in fiscal year 2002 Federal funds. These funds will be used to 
complete the first corridor of the rail line, the East 
Corridor. I am proud to report to you that since this time last 
year work on the East Corridor has progressed significantly. In 
the last year the RTA has worked with Federal and State 
agencies, local jurisdictions and business leaders to enter 
into the final design phase, a phase which we expect to begin 
within weeks. The FTA, or Federal Transit Administration, has 
been involved on every level and has identified the Nashville 
Regional Commuter Rail as a worthy project. It is also the 
fastest to go through preliminary engineering and the cheapest 
per mile to construct in Federal dollars. It is slated to go 
from final design to opening in just about 17 months, one of 
the quickest schedules on record.
    These corridors will use track that belongs to the 
Nashville & Eastern Railroad Authority, operated by the 
Nashville & Eastern Railroad. The East Corridor is 32 miles 
long and will operate on a single track. Train operations will 
be accomplished with two trains from Lebanon, Tennessee to 
Nashville Riverfront Stadium and a third train from Mount 
Juliet to Riverfront Stadium in the morning peak hour commuting 
period. For the afternoon commuting period, one train would 
provide service from Nashville Riverfront Stadium to Mount 
Juliet while two trains would operate from Riverfront Stadium 
to Lebanon. Five stations will be constructed along the initial 
32-mile corridor.
    Mr. Chairman, the Nashville Regional Commuter Rail has been 
advanced to help Middle Tennessee deal with massivecongestion 
and traffic gridlock on roads and highways throughout the region, and 
you being a regular to Tennessee, Mr. Chairman, and marrying a 
Tennessee girl, I know you understand our needs.
    In 1999, the Texas Transportation Institute cited Middle 
Tennessee as the 11th most congested area in the United States. 
Just recently USA Today named Nashville the Nation's most 
sprawling city, another contributor to the massive congestion 
plaguing our area. A different USA Today report listed 
Nashville as having five of the 100 most congested arterials in 
the Nation. Road congestion and air pollution are at all-time 
highs, and it is our earnest belief that commuter rail is a 
solution to these problems.
    The Nashville Regional Commuter Rail is the least 
economically harmful means of addressing traffic congestion and 
gridlock in Middle Tennessee. This commuter rail project is 
both viable and economical, and it enjoys extremely high 
community support. The Nashville Regional Commuter Rail is an 
important public transit endeavor, which will improve quality 
of life for Middle Tennesseeans. In addition to the $17 million 
requested to complete the East Corridor, I am also requesting 
$3 million, to be shared equally among the remaining four 
corridors, to move these portions of the project into the 
preliminary engineering phase. Passenger rail service is a 
critical link in providing long-term intermodal solutions to 
traffic congestion, while sustaining the economic growth and 
prosperity in the Middle Tennessee region.
    At this time I would like to introduce my colleague and 
friend, Congressman Bart Gordon.
    [The prepared statement of Hon. Bob Clement follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. The gentleman is recognized.
    Mr. Gordon. Thank you. Let me just briefly add Amen to 
Bob's testimony and a thank you to this Committee for helping 
us get started. Bob didn't mention it, but the Middle 
Tennessee-Nashville area is the largest community in the 
Southeast that does not have any kind of mass transit. As you 
did point out, USA Today just 2 weeks ago said it was the 
number one sprawl area in America. All of the interstates now 
are either expanded to their max or in the process of 
expanding. We really are choking to death there. Mass transit 
is the only answer, and it can be done in a more economical way 
than most places because an existing rail corridor is already 
there. We are trying to take it just simply use existing 
corridors, trying to use Amtraks that you all don't want some 
place else and bring them in here, and we can do it in an 
economical way.
    Thank you.
    [The prepared statement of Hon. Bart Gordon follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Clement. And Eric Buyer if he could just explain this 
map very quickly, Mr. Chairman. He is the Executive Director of 
RTA at home.
    Mr. Buyer. Just briefly, this is the East Corridorthat we 
are speaking of, 32 miles in length, serving the central 
business district. Many of you may or may not know the 
Nashville area and the central business district here is the 
fourth largest in the Southeast. The preliminary engineering 
request would serve four other corridors that circle the city. 
In total, we are looking at a 145-mile system, with initial 
startup of 32 miles, and the fastest new start in FTA history 
would be a total of 32 miles.
    Mr. Rogers. Thank you very much.
    Mr. Gordon. The fast start is because we have existing 
railings.
    Mr. Callahan. You all are talking about the transit 
problem. Is American still operating there?
    Mr. Clement. No, they pulled out. But I will say Southwest 
Airlines and others came into Nashville in a big way and sure 
have been responsible for providing those needs.
    Mr. Callahan. I know there is no service from Nashville to 
Mobile. The point is I wrote a letter to the President of 
American about 3 weeks ago, and I haven't heard back and I was 
just wondering what they needed so I could deny them that need, 
making certain----
    Mr. Clement. Looks like the position they have taken in 
Nashville and many others is they put a lot more emphasis on 
three cities at the expense of the whole country and they put a 
lot more emphasis on international flights at the expense of 
our cities as well. And so it has been very hurtful for a lot 
of places in the United States. And I made it very clear at 
that time to the President, back in those days, that one of 
these days, you know, he is going to need some friends.
    Mr. Callahan.  I just wondered this year if you find 
anything he needs would you let me know.
    Mr. Clement. Yes, sir, I will.
    Mr. Gordon. Lyndon Johnson once said if you keep the barrel 
of your gun straight ahead eventually everybody is going to 
walk in front of you.
    Mr. Rogers. Thank you for testifying. I can personally 
testify, as you testify, to the congestion in and around 
Nashville. I was hoping you wanted to build the line that runs 
north into Kentucky. That would be more helpful to a lot more 
people.
    Mr. Clement. We are working on that, too. We just need to 
work with our Class I railroads very closely. Matter of fact, I 
have some language that will help in that area as well to let 
local transit operators work with the Class I railroads, but 
they will have a place to appeal. Right now you don't have a 
place to appeal for local transit operatorsif they can't get 
any cooperation from the Class I railroads on cost or traffic or 
whatever. We should look at that as well.
    Mr. Rogers. You are speaking on behalf of a very prosperous 
and progressive city. Nashville is a wonderful place. Thank you 
very much.
                                         Wednesday, March 14, 2001.

           MARYLAND AND VIRGINIA TRANSIT AND MAGLEV PROJECTS


                               WITNESSES

HON. BENJAMIN L. CARDIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
HON. ELIJAH E. CUMMINGS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
HON. ROBERT C. (BOBBY) SCOTT, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF VIRGINIA
    Mr. Rogers. Mr. Cummings, Mr. Cardin, and Bobby Scott are 
here. I don't know the seniority, so I will recognize Mr. 
Cardin.
    Mr. Cardin. Thank you, Mr. Chairman.
    Mr. Rogers. He looks the oldest.
    Mr. Cardin. Not only am I the oldest, I do have I guess the 
most seniority, but I thank you very much for the courtesy of 
allowing us to appear here. I have a formal statement and would 
like to supplement that with a lot of technical information 
about all the requests. I really do thank you so much for this 
opportunity to appear before your Committee. I would just like 
to highlight a few of the priorities that we are requesting 
help in regards to the Baltimore Metropolitan Area that Elijah 
and I represent as part of the State of Maryland's request.
    Two of the projects are projects that have been previously 
funded by this Committee. The Baltimore Central Light Rail, 
which is our major commuter rail system in Baltimore. It is 
part of the Smart Growth initiative, for which Maryland has 
received a lot of national attention. It deals with commuters, 
deals with people who have to come into the metropolitan area 
and leave the metropolitan area. This is authorized under TEA-
21. We are asking for some help in regards to the double 
tracking. Currently a significant part of the line is not 
double tracked, which obviously makes for a very difficult use 
of that facility on a reliable basis. So we need help in the 
double tracking and we are asking the Committee for $8.6 
million in that regard.
    The light rail also helps us deal with an issue which this 
Committee has directly funded, dealing with the reverse commute 
of people getting off of welfare to work. I am the ranking 
Democrat on the Human Resources Committee, and one of our 
priorities is dealing with people having a difficult time 
getting off of welfare. In Baltimore we have a high level of 
unemployment. In Howard County and other areas we have 
virtually no unemployment. So we have developed a reverse 
commute. You have helped us finance that in the past and we are 
asking you to continue your partnership with us in financing 
the transportation component of getting people from high 
unemployment areas to where there are employment opportunities.
    Let me also mention one additional project in regards to 
the rail, and that is, as you know, we had two major commuter 
lines between Baltimore and Washington on the MARC service 
which provides for thousands of commuters who commute between 
the Baltimore Metropolitan Area and the Washington area. We 
have what is known as the Camden Line and the Penn Line. 
Unfortunately these lines, though they come very close 
together, there is no connector between the two, and we are 
asking your help for design and runway acquisition, $6.7 
million, so we can bring these two lines together to make it a 
much more efficient system.
    Mr. Rogers. Why is that important?
    Mr. Cardin. First of all, there is a maintenance facility 
that could be used for both lines, and right now we are 
constructing that and we can't use it for both lines unless we 
have the connector in a more efficient way. Secondly, there are 
timings because of freight traffic that we have to divert from 
one line to the other and we can't do that very well. We have 
had some problems in Orioles games where we try to bring people 
from Washington to Baltimore and we literally can't use a line. 
We get into all types of problems. We had actually people who 
have been stuck in Baltimore--although, that is not so bad--
after an Orioles game because we couldn't use the line to get 
them back to the Washington area. So we have had difficulty in 
just the flexibility of providing service to commuters because 
of the inability to have flexibility between the two lines.
    And then lastly, Mr. Chairman, if I might just mention what 
we are trying to do in the Inner Harbor of Baltimore. You have 
been to the Inner Harbor of Baltimore. You know that it is a 
beautiful area. We have lots of waterfront miles and miles of 
waterfront lead all through the metropolitan Baltimore area. We 
have a horrendous problem with commuter traffic in downtown 
Baltimore. We have beenusing nonprofit service on the 
waterways. We are asking your help to work with us in partnership to 
expand that service so we can use the waterways in a much more 
efficient way to take the pressure off of the roads in the Inner Harbor 
area itself, to remove a lot of the congestion that occurs in the Inner 
Harbor. We have now spread out dramatically for miles and we need a 
better system for transportation within the inner city itself.
    Mr. Rogers. Is there any water taxi service available now?
    Mr. Cardin. Yes, there is a nonprofit water taxi service 
currently. It has been successful. However, because of the 
equipment that it has, and the schedule, it is not reliable if 
someone wants to commute, for example, from Camden, which is 
about four miles from downtown on the water, into downtown 
Baltimore. It doesn't have a reliable schedule and the 
vehicles, although you can use them in the winter time, they 
are not comfortable for year round commute. We are trying to 
upgrade. What we are asking is to upgrade the equipment. It 
would be the type of equipment that would be used by daily 
commuters going into Baltimore and going back to their homes.
    Mr. Rogers. But are people using this system now?
    Mr. Cardin. Yes. I think it is a quarter of million people 
that use the water taxi every year. I would say currently that 
is mostly tourists. But there are people who use it on a 
regular basis. We want to expand it for Baltimoreans to use it 
as a means of transportation through the Inner Harbor. That has 
not been utilized anywhere near as much as the potential is. 
There is a lot of housing, a tremendous amount of housing being 
built on the water as far as four or five miles from downtown 
Baltimore, and we think that population would welcome the 
opportunity of being able to commute into downtown Baltimore 
without having to take their car.
    [The prepared statement of Hon. Benjamin Cardin follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. Mr. Cummings.
    Mr. Cummings. I just want to join in and echo everything 
that Mr. Cardin has said. I want to thank this Committee for 
all that you all have done for our city. You were talking about 
Nashville a little bit earlier, Mr. Chairman, and how it is 
growing and booming. Baltimore is very fortunate to be in that 
same mode. We are moving forward.
    In addition to the projects that Mr. Cardin just spoke 
about, I just want to speak about two things. We are requesting 
$5 million to study the cost and feasibility of one or more 
future additions to the Baltimore Rail System and to undertake 
the preliminary engineering for any recommended improvements. 
Baltimore City is privileged to have both light rail and subway 
to serve the city residents. However, traffic congestion in the 
area continues to grow. And rail ridership, although 
increasing, is hampered by a lack of interconnecting systems. 
The State of Maryland is examining the development of future 
rail lines circling the Baltimore area, and funding for this 
study would greatly impact the economic development of the 
city.
    Also requesting $25 million for the support of the 
expansion of local bus fleets and facilities and replacement of 
older buses throughout the State. This request is an attempt to 
increase MTA's rate of bus replacements to 100 per year, 
decreasing the average age from 9 years to 6 and 7 years. Bus 
replacement can help meet federally mandated EPA requirements, 
save millions of dollars annually in maintenance costs, and 
improve the bus service.
    So I hope the committee will support our city to make it an 
even more livable community.
    [The prepared statement of Hon. Elijah Cummings follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Well, thank you very much for your testimony, 
both of you from Maryland. Mr. Scott, of the great Commonwealth 
of Virginia.
    Mr. Scott. Thank you, Mr. Chairman, Mr. Sabo and other 
members of the committee. I appreciate the opportunity to 
testify on behalf of the southeast Virginia area. I have 
several projects that we are interested in, and I have another 
copy of my testimony but I think it has already been submitted 
for the record. And if not, I have another copy.
    Mr. Chairman, just very briefly, I am requesting $10.3 
million for the Bus and Bus Improvements Program for the 
Hampton Roads Regional Bus Project. That project will serve the 
James City County, Williamsburg, City Of Newport News, Hampton, 
Norfolk, Portsmouth, Virginia Beach, Suffolk and Chesapeake.
    I thank the Committee for funding $2.5 million to enable 
Hampton Roads to begin investments in enhancing bus service. 
The Commonwealth of Virginia has already provided 3.2 million 
in matching funds for this endeavor. The additional 10.3 
million would complete the investments. And this project has 
bipartisan regional support. Representatives Sisisky and Joanne 
Davis have asked me to mention they are in support of this 
project.
    Next, I would like to take the opportunity to share with 
you support for two projects on the other end of my 
district.Eric Cantor and I represent the City of Richmond and the 
County of Henrico, and we are in favor of projects which include 
funding for the restoration of the Main Street Train Station and the 
creation of a downtown bus transfer center in the City of Richmond. 
These two projects would cost $13 million in Federal funds.
    Implementation of the project will occur in three phases, 
each responding to market demands. The Main Street Station 
downtown, Main Street Train Station downtown, that project is 
underway. It is expected to be completed in the year 2002. The 
second phase will bring additional trains downtown and the 
third phase establishes the downtown train station as a multi-
modal transportation center. Right now the train station is out 
in the suburbs, which really makes it dysfunctional for any 
kind of downtown commute when you would expect to be going to 
the business district. This will bring it downtown, where it 
will be extremely functional and a multi-modal center where you 
will be able to transfer to buses, trains, easy shuttle to the 
airport and what not.
    So I would hope, Mr. Chairman, that we would get favorable 
consideration of these projects.
    [The prepared statement of Hon. Robert Scott follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Well, thank you very much for your fine 
testimony. We will certainly give it our consideration.
    Mr. Scott. Thank you.
    Mr. Rogers. Thank you.
    We are honored to have this morning in our midst one of the 
distinguished former members of the institution, a gentleman 
from the great State of New York. Mr. Martin is with us this 
morning, and we are honored that he's taken some of his 
valuable time to be with us.
    Now we will recognize the panel from Illinois.
                              ----------                              

                                         Wednesday, March 14, 2001.

            ILLINOIS HIGHWAY, TRANSIT, AND AIRPORT PROJECTS


                               WITNESSES

HON. DONALD A. MANZULLO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS, ACCOMPANIED BY JAMES GITZ, MAYOR OF FREEPORT, ILLINOIS
HON. MARK STEVENS KIRK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
HON. BOBBY L. RUSH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS, ACCOMPANIED BY FRANK KRUESI, CHAIRMAN, CHICAGO TRANSIT 
    AUTHORITY
    Mr. Rogers. Is Mr. Kirk or Mr. Rush present? We have with 
us Mr. Manzullo, Mr. Davis.
    Mr. Manzullo. Mr. Rogers, may I have Mayor Gitz from 
Freeport sit next to me?
    Mr. Rogers. Sure. We are honored to have you. You are 
recognized, Mr. Manzullo.
    Mr. Manzullo. Thank you very much. I want to thank you for 
the opportunity to testify this morning before the House 
Appropriation Subcommittee on Transportation and related 
agencies. Your willingness to hold these hearings demonstrates 
your commitment to improving our Nation's transportation 
infrastructure by making our airports and roadways less 
congested and more safe for the traveling public.
    I am here today to request for assistance for two major 
road projects located in the congressional district I represent 
in Northern Illinois. These are located in northeastern and 
northwestern parts of the State, and they will help relieve the 
tremendous traffic congestion and safety concerns facing the 
people in the region.
    The first project is a traffic congestion relief project 
for McHenry County, Illinois, around the clogged intersections 
of Route 31 and Route 120. Currently McHenry County is 
conducting a feasibility study to determine the best possible 
solution to improving traffic movement through the cities in 
McHenry, McCullom, McCullom Lake, Johnsburg and Ringwood along 
the concurrent section of Illinois Route 31 and Route 120. 
These two major roadways carry traffic through McHenry County, 
Kane County, Lake County, some of the fastest growing 
population areas in the Chicago metropolitan area.
    In fact, McHenry County is the fastest growing county in 
the State of Illinois and it is the sixth fastest growing 
county in the Nation. There is great need to help alleviate the 
burden of additional traffic on this road system. A study that 
is underway will assess the feasibility of the western bypass 
and approving traffic flow at the intersection of Route 31 and 
Route 120, as well as throughout the entire county and region 
of north central Illinois. I am requesting $3 million in fiscal 
year 2002 for the phase I engineering in the McHenry Route 31/
120 congestion relief bypass. It is estimated the total cost of 
construction project could reach $50 million.
    The second project for which I am requesting assistance 
from the Committee involves the construction on the final west 
segment of the U.S. 20 bypass along the city of Freeport in 
northwestern Illinois. Mayor Jim Gitz from Freeport is sitting 
next to me. This construction is located along U.S. 20. The 
Illinois Department of Transportation is currently working on a 
feasibility study to build a new four-lane Route 20 from 
Freeport to Galena, Illinois. The 50-mile stretch of two-lane 
road between Galena and Freeport to the east is becoming more 
and more congested each year. The city of Galena is the second 
most popular tourist destination in the State of Illinois. Many 
motorists travel the Route 20 corridor from the Chicago area. 
There are significant safety concerns as the number of 
accidents and fatalities continue to grow along this highway. 
The completion of a bypass along the city of Freeport is 
greatly needed to help relieve congestion along Highway 20.
    I am requesting $1.1 million in fiscal year 2002 for 
consultants and engineering to reevaluate the original 
environmental impact statement that was done in the 1980's for 
the U.S. 20 bypass around Freeport. These funds would also be 
used to prepare the contract plans for structures and roadway 
work to complete the partially constructed expressway from the 
segment of Illinois 26 to Business 20/Bolton Road northwest of 
Freeport. This is a regional project that will benefit the 
transportation needs of Illinois, Wisconsin and Iowa.
    Entire four-lane costs for a new four-lane highway 20 in 
northwestern Illinois for 50 miles is estimated to be close to 
a half billion dollars. This is a very unusual stretch of road. 
This is the last link in the Nation's interstate system and 
goes across some very ecologically sensitive terrain. It is my 
hope that an incremental approach can effectively address the 
traffic problems experienced by the travelling public as part 
of the country.
    A little over a year ago, I had the honor of hosting House 
Transportation and Infrastructrue Chairman Bud Shuster for a 
transportation meeting in our district. At that time, Chairman 
Shuster encouraged all the local State officials to band 
together and promote projects to benefit motorists throughout 
the region. That is exactly what we have done. I respectfully 
request the Committee's assistance to help in this process by 
earmarking money for those two projects in the fiscal year 2002 
Transportation Appropriations bill. With the permission of the 
Chairman, would it be possible for Mayor Gitz to address the 
Committee for a minute, or a minute and a half.
    Mr. Rogers. We would be honored.
    Mr. Gitz. Thank you, Mr. Chairman, for the honor of 
appearing before this Committee. As Congressman Manzullo has 
indicated, there is a multi-year approach needed. There is more 
than a million people that go past this stretch of road. When 
these 50 miles are completed, it will link it into the trans 
Kennedy Highway in the Midwestern belt. If we can start this 
process now, we will add significantly to safety, but we will 
also add to the transportation infrastructure of Illinois and 
help the economy of the entire region, and we have very high 
unemployment now because of many manufacturing concerns. So 
there is an economic dimension as well as a transportation and 
infrastructure dimension. Thank you.
    Mr. Rogers. Thank you, Mr. Mayor. Thank you, Mr. Manzullo, 
a very hard working member of this Congress.
    [The prepared statement of Hon. Donald Manzullo follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Now Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. Let me thank you and 
the Committee for the opportunity to appear before you and 
discuss some of the transportation needs that exist in my 
district and are of extreme importance to the residents of the 
7th district and to the State of Illinois. Transportation 
really is a bridge to economic development and community 
stability. There is no substitute for good roads, safe 
infrastructure, silent, stable and reliable transit system. The 
list of items that I have submitted for your consideration go a 
long way towards ensuring stability for those communities that 
would be served. I am requesting $1.1 million for the Museum 
Campus of Chicago. The Museum Campus of Chicago serves 
approximately 5 million people visiting the museum campus 
yearly. The campus includes the field museum and the 
planetarium and astronomy museum; they share an aquarium. The 
$1.1 million will help meet additional transportation needs 
related to increased ridership of its very popular free trolly.
    Last year we saw a tremendous increase in the attendance of 
the Museum Campus attributed to the planetarium's Hubble 
Telescope exhibition and the field museum's popular SUE 
dinosaur. I am requesting $1 million in transportation funding 
for reconstruction of the Saint Charles Road in the village of 
Berkley. Saint Charles Road is the village's main commercial 
corridor and an important regional arterial road owned by the 
State of Illinois. More than 25,000 vehicles use the road on a 
daily basis. The integrity of the road has reached the point 
where complete reconstruction is necessary.
    The total project cost is $5 million. The village of 
Berkley has secured $4 million towards the project through 
various avenues, including State initiatives and grants.
    I also take this opportunity to emphasize the tremendous 
need for continued funding for completion of the work on Wanker 
Drive, which is a major downtown Chicago artery. I am 
requesting $1 million in transportation funding to replace the 
railroad viaduct on Harlem Avenue between Central and Circle 
Avenues for the Village of River Forest. The viaduct is more 
than 70 years old, and services the Union Pacific Metro and 
Transit Authority trains. The Harlem Avenue corridor is 
considered a regional arterial route. A recent study 
constructed by the Illinois Department of Transportation 
recommended that this particular viaduct be replaced in order 
to reduce congestion and improve air quality. The total cost 
for the project including design and construction engineering 
is $8 million.
    The Village of River Forest plans to use State of Illinois 
and Village funds to complete the project. I am requesting $1 
million in transportation funding for the next phase of the Oak 
Park Multi-Modal Transit Center at Marion Street. This phase of 
the Multi-Modal Center project will create a semi enclosed 
canopy over the sidewalk for bus rides. The canopy will serve 
several services. Among them, protecting riders from the 
ravages of the weather, creating a visually attractive bus-
loading area, and physically connecting the bus loading area 
with the rest of the transit center.
    The Oak Park station is recognized as a regional and 
national model of efforts to make it easier to transfer between 
modes of transportation, transit-oriented planning and the 
promotion of public transportation. I want to thank the members 
of the committee for your past support of $1.5 million for this 
project, and finally I am requesting $1.5 million in 
transportation funding for infrastructure improvements within 
the Village of Forest Park. Specifically, the Village seeks to 
remove and reconstruct the roadway pavement between Roosevelt 
Road and Jackson Street.
    This project is necessary to ensure future growth for the 
Village. The infrastructure improvements will also assist in 
protecting residential homes and businesses from the potential 
of flooding. The total cost of this project is estimated at 
$3.5 million. And again, the village is seeking $1.5 million in 
Federal assistance for this effort.
    I thank you, Mr. Chairman, for providing me with this 
opportunity to chair with the Transportation Subcommittee my 
priorities for funding for fiscal year 2002. The villages that 
are seeking this funding have not traditionally received a 
great deal of Federal funding in the past. As a matter of fact 
some of them have never received practically anything. However, 
due to increased growth and demands on their transit systems, 
they find it necessary to seek Federal assistance, and it is my 
hope that the subcommittee will find a way to help fund these 
important projects.
    Again, I thank you so much and would certainly respond to 
any questions if there were.
    Mr. Rogers. Thank you, Mr. Davis, for your testimony.
    Now Mr. Rush.
    [The prepared statement of Hon. Danny Davis of Illinois 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rush. Good morning, Chairman Rogers and Ranking Member 
Sabo. It is a pleasure to be here with you this morning. Mr. 
Chairman, Ranking Member, I am here requesting funding for a 
project that is near and dear to my heart and is important to 
my constituents and the city of Chicago--the refurbishment of 
the 96th Street/Dan Ryan transit station. I am also here for 
support of funding of CTA's blue and brown line projects and 
Metro's three-line extensions. The 95th Street/Dan Ryan station 
was built in 1969 and is located in the median of Chicago's Dan 
Ryan Expressway, a 14-lane expressway, making it one of the 
world's widest expressways. The 95th Street station is about 30 
blocks from the city limits, and approximately 20 minutes from 
Chicago's busy downtown area known as the ``Loop.'' It is a 
major transportation hub for citizens of the south side and the 
southern suburbs.
    Mr. Chairman, on a typical day, 50,000 people pass through 
the 95th Street Dan Ryan station to enter or exit trains, 
making it Chicago's third largest and busiest transportation 
station. While the 95th Street/Dan Ryan is one of the most 
heavily used train stations in Chicago, the 31-year-old station 
is in a state of disrepair and warrants major renovations. The 
station needs new construction for bus turnaround, bridges, and 
resurfacing as well as modernized electrical equipment. 
Additionally, the stationneeds to refurbish or replace its 
decaying escalators and its elevators to be in compliance with the 
Americans with Disabilities Act.
    CTA has spent more than $4.8 million to improve the 
infrastructure and physical appearance of the station in recent 
years. However, an additional $35.7 million will be needed for 
a completed renovation of this station.
    Mr. Chairman, Ranking Member, the 95th Street/Dan Ryan 
station is a major transportation gateway for my constituents 
and the people of Chicago. Renovating this station will prepare 
it to meet the transportation needs of the 21st century and 
will undoubtedly enhance the quality of life of my 
constituents. In addition, to the 95th Street station, I want 
to reiterate my support for CTA's $245 million request for the 
reconstruction of the blue line and the $30 million request for 
the expansion of the brown line. I also support Metro's request 
for $100 million for a three line extension. As many of you 
know all of these new start projects are eligible for separate 
funding outside a new start program as a result of language, 
the speaker and the committee included in last year's 
transportation and funding bill. The Committee's continued 
support for these projects will be greatly appreciated. Mr. 
Chairman and Mr. Ranking Member, I thank you for the 
opportunity to address this subcommittee today.
    [The prepared statement of Hon. Bobby Rush follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you for being here. Let me ask you, you 
are asking $35.7 million in this year's bill for this project?
    Mr. Rush. Yes, I am.
    Mr. Rogers. That is a very large sum of money. Can that be 
spent in one year?
    Mr. Rush. Mr. Frank Kruesi, the chairman of CTA, is here. I 
am sure he can spend it, but let us ask him the question.
    Mr. Kruesi. Mr. Chairman, thank you for allowing me to be 
here. Yes, we certainly can spend it. We are set to go on the 
rebuilding of the Douglas branch of the blue line, which is the 
key element of the cost here. We will be issuing contracts and 
awarding them later this spring and in the ground at summer. We 
certainly anticipate we will be able to spend that, and I 
assure you we would not be before this subcommittee if we were 
not certain we would be able to spend all the money we are 
seeking.
    Mr. Rogers. As I understand it, the $35.7 million would be 
used to renovate the Dan Ryan station.
    Mr. Kruesi. Yes, sir for that as well, we have total needs 
that were approaching $45 million for that station alone. That 
is one of the busiest stations we have and we will also be 
prepared to go forward on that in that time frame.
    Mr. Rogers. The question I have is how can you spend $35.7 
million on that one project?
    Mr. Kruesi. It is really quite easy, because it is, again, 
one of our busiest stations, it is where we have a great number 
of bus lines as well as the terminus of our rail line.
    Mr. Rogers. I am not arguing with the need. I am asking, 
how can you do it in one year?
    Mr. Kruesi. We can do that because in terms of our total 
capital projects, that is just one project we have. We have 
several hundred million dollars going on simultaneously. We can 
certainly spend it in that time.
    Mr. Rush. If, in fact, the Committee deems it necessary, we 
could make this a multi-year project, if the Committee deems it 
necessary, and I am sure the chairman of the CTA, if we got the 
full $35.7 million, we would be able to spend it in a year, but 
if the Committee deems it necessary, we could make it a multi-
year.
    Mr. Kruesi. Yes, we are in the process of working through a 
several-year project for that. So we have already done about $8 
million in the pipeline on that station in terms of renovations 
of this particular station as well. We can certainly 
accommodate anything that you and this committee believes is 
appropriate in terms of that appropriation.
    Mr. Rogers. Thank you. Thank you, sir.
    Mr. Rogers. Mr. Sabo.
    Mr. Sabo. Mr. Chairman, this project would be eligible for 
rail modernization funding, wouldn't it?
    Mr. Kruesi. It would as well, we believe, yes.
    Mr. Sabo. How much does Chicago get in rail mod money every 
year?
    Mr. Kruesi. I don't know the number off the top of my head, 
but I will be happy to provide it to the Committee.
    Mr. Sabo. What is that used for?
    Mr. Kruesi. It is used largely for addressing the need for 
modernization, particularly of the road bed. One of the 
problems we have, the CTA and other old systems as the rail mod 
program provides, is a capital needs far in excess of what our 
capacity is. Only a few years ago before TEA-21 and the 
appropriations that came as a result of that, the CTA had met 
only identified funding for only 19 percent of its total 
capital needs for a 5-year period. We are now at 70 percent. 
There is no question that those programs are important. Things 
such as the earmarks of the sort that Congressman Rush is 
seeking here working with us in this subcommittee would allow 
us to move closer towards getting towards a state of good 
repair for this agency, and that would be one element of that.
    Mr. Sabo. Our problem is we spend as much as we do onrail 
mod as we do on new starts.
    Mr. Kruesi. Indeed.
    Mr. Sabo. The competition for that new start money, the pot 
is growing slim.
    Mr. Kruesi. Indeed, the pot for all these monies are 
growing slim, and we understand the difficulty this 
Subcommittee has in making those decisions. We have--the red 
line alone is carrying close to 50 percent of all of our rail 
customers every day, which is a total of a half a million 
customers on an average weekday. We have large numbers of 
people, enormous needs and we understand the difficulty this 
subcommittee has in balancing those needs around the country. 
We certainly look forward to working with the Subcommittee in 
its difficult decisions.
    Mr. Sabo. Thank you.
    Mr. Rogers. Thank you.
    Mr. Kruesi. Thank you very much, Mr. Chairman.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Mr. Kirk.
    Mr. Kirk. Thank you, Mr. Chairman. It is a great honor for 
me to be here having been one of the staff members sitting 
behind the members here for many years. It is great to be here.
    Mr. Rogers. If you will use a microphone.
    Mr. Kirk. What we euphemistically might call Mr. Rogers's 
neighborhood now.
    I am here to identify three key priorities. But the best 
way is to show you. And I can stand here. This is the second 
largest commuter rail system in America, Metra, 1.5 million 
Americans use this system. I am in support of the new projects 
here, which are also near and dear to the desires of many other 
members, including Mr. Crane, the speaker, et cetera. My main 
focuses in my direct right here is this new North Central line. 
For us, we have got 4,000 trains on this system, but this line 
right here is the first new commuter rail line in America in 70 
years.
    For us just last year, we had a 27 percent increase in 
ridership on this one line. And for the existing technology, we 
had one train track, two pieces of metal going from downtown 
north. The engineering work has been done, and for us what we 
would now like to do is turn it into a fully functioning 
commuter rail line with two rail lines so that trains can go 
both north and south at the same time. It is of critical 
concern.
    I will stack up the gridlock in this area next to any 
gridlock in Northern Virginia. The worst Northern Virginia 
intersection that I know of is probably at Seven Corners, which 
would be about a five-cycle light. We have several nine cycle 
lights here where you literally have to go through eight or 
nine cycles to get through an intersection, and people are 
about ready to jump out of the roof of their car at this point. 
Fully funding this line and having two tracks going north and 
south will suck tens of thousands of cars off the highways, and 
instead of a nightmarish 90-minute commute from these 
communities into Chicago, we have a 35 minute commute via this 
rail line.
    Right now we only have 4 trains a day. Four going south, 
four going north. So it is limited. Once we have double 
tracking, we have 10 to 15 trains a day and we realize the 
potential of this. This project is fully engineered, all of the 
work, right of way and zoning has been done for us. We have 
pending now a full funding agreement at the Department of 
Transportation, one of the three pending for Metro. And for us, 
I think that your approval and the $100 million request for 
Metro allows us to now continue on the work that this committee 
approved last year of $30 million to continue that project.
    I have a more complete statement. I would like unanimous 
consent to include it in the record at this point.
    Mr. Rogers. Without objection.
    Mr. Kirk. I also wanted to speak in favor of Congressman 
Rush's request for the blue brown extension for the CTA. At the 
bottom of my district, we have a CTA extension and many people 
from our district as well link to the CTA system and then out 
to O'Hare. As you know, all things at O'Hare are becoming 
rather nightmarish. Frank is right here. And we will be able to 
get the people to O'Hare directly using this north central 
line. And many people use the CTA system and we need that.
    Mr. Rogers. How close to the O'Hare will the north central 
line be?
    Mr. Kirk. Right now when you get off at the O'Hare 
transfer, there is a bus which people do not quite like. The 
mayor would like a people mover. But I will tell you that the 
people in Buffalo Grove, Wheeling and Vernon Hills, you are 
already getting rave reviews. You only have that four-train 
window in the morning of the trains heading south, so you were 
only talking about a mid morning flight that you can use this 
rail line to get to O'Hare on. But people are happy with that. 
Once we have a fully functioning line like the other lines 
where you have trains going all day long, north and south, the 
potential of O'Hare then dramatically----
    Mr. Rogers. How close is the airport to the central part?
    Mr. Kirk. It is very close, it is about an 11-minute ride.
    Mr. Rogers. On a bus?
    Mr. Kirk. Yes. So it is very close. It is used by these 
communities already in a limited fashion. One other thing I 
wanted to show you, it is not well marked here, but Palwaukee 
Airport, which is right about here, is thecorporate reliever 
for O'Hare. Right now they would like $5.5 million of airport 
improvements funds to lift their aging north/south main runway which 
has the ILS out of 100-year flood plain. As you know, with these 100-
year flood plains, it is generally a 10-year flood plain. So doing 
that, it will help us do two things, one, realize the full potential of 
Palwaukee relieving potential for the corporate aviation community also 
serving O'Hare; two, we have 16 safety waivers right now to be able to 
use that runway, and that AIP money will allow us to eliminate all but 
one of those waivers.
    Mr. Rogers. How will they lift it out of the flood plain?
    Mr. Kirk. Literally lifting the grade out of the flood 
plain both for the taxiway and the runway. I did ask, as you 
well know in the theology of transportation, the real divide is 
not between Republicans and Democrats. It is between asphalt 
and concrete. I am told the taxiway will be asphalt and the 
runway will be concrete. So we have managed to bridge that 
divide. With that, Mr. Chairman let me conclude by saying this 
is my highest priority. For us gridlock in our community is 
going to be, without funding for this, a way of the future. In 
this area right here, Lake County, we will expect in the next 
10 years, 300,000 more people to move here. And so the modern 
two way commuter rail service is critical for the future of our 
way of life.
    Mr. Rogers. The total cost of that project is $160 million?
    Mr. Kirk. Total cost--we have $30 million sunk. 
Approximately the total cost of the NCS upgrade is $144 
million.
    Mr. Rogers. Over what span of time?
    Mr. Kirk. I believe it is as much as will be funded. I do 
not have the breakout, but I can provide you that for the 
entire Metro system. It is a three-project funding request. But 
the lion's share of the funding and the $100 million I am 
asking you for is the NCS project, which is the fully 
engineered project.
    Mr. Rogers. How long will it take it? Over what period of 
time will you complete that project?
    Mr. Kirk. I don't have that, but I will get that for you.
    Mr. Rogers. Okay. Well, thank you very much.
    Mr. Kirk. Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Mark Kirk follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                         Wednesday, March 14, 2001.

           CONNECTICUT AND MAINE HIGHWAY AND TRANSIT PROJECTS


                               WITNESSES

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
HON. TOM ALLEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF MAINE
    Mr. Rogers. Now we have the Honorable Chris Shays and Mr. 
Allen, from Connecticut and Maine, respectively. Mr. Shays 
would you like to proceed.
    Mr. Shays. Mr. Chairman, I would be happy to yield to my 
colleague. He seems to be in a bigger rush than I am. Is that 
okay with you?
    Mr. Rogers. That is okay with me.
    Mr. Allen.
    Mr. Allen. I appreciate that very much. I will reciprocate 
by being as quick as I can. I really appreciate the opportunity 
to testify before this committee about Maine's transportation 
needs, and I would like to highlight just some of the projects 
that are addressed in my written testimony. Our highest 
priority is a State of Maine State-wide bus, Bus Facilities and 
Ferries Project. This money would come from FTA section 5309, 
the Capital Discretionary Program. We are looking for $8 
million.
    Maine has an aging bus fleet, and the best example of that 
is the Portland Metro system, the largest transit provider in 
the State. Metro used fiscal year 2001 funds to replace 21 
percent of its current fleet. By 2002, the entire rest of the 
fleet, the 80 percent of the rest of the fleet, will be beyond 
its useful life so we were faced with replacing the remaining 
80 percent of the fleet as quickly as we can. All of the buses 
to be replaced are past their federally established useful 
life, and aged buses are really costly to run and maintain, are 
not reliable and add air pollution. Our problem is, in part, 
that we have got the population ready to use them, but we are 
starting to have real pressure on buses that are not as 
reliable as they were in the past. Maine has established a 
geographic balanced priority system for vehicle replacement 
based on age and mileage, and our goal, and we were a long way 
from this goal, is simply to have 50 percent of transit fleet 
within 50 percent of its useful life.
    The State plans to issue a bond to match the Federal funds 
if they become available. We also have islands and from these 
same funds. We are trying to get money for a new ferry for the 
Casco Bay Island Transit District. The Island Holiday vessel, 
which serves the area now, was built in 1967 and is 25 percent 
beyond its 25-year design life span. It is not ADA compliant, 
and it is costly to run and maintain. A new vessel would allow 
the Transit District to provide safe, reliable and comfortable 
service to commuters and tourists to the six islands in the 
Casco Bay.
    The second priority is what we call the I-295 connector in 
Portland. This is a high priority for us. We are requesting $6 
million for the first phase of a $14-million effort to 
construct the connector road between I-295 and Commercial 
Street, which is the waterfront street inPortland. Now in 1998, 
$4.5 million of high priority funds were used to build the interchange 
project, which is sort of a precursor to the project I am describing 
now. What I am describing now is really phase II and phase III of a 
link between the interstate and the waterfront, where Portland 
International Marine Terminal is located, the Casco Bay Island Transit 
District is located. There is Concord Railways, a proposed Amtrak 
station, and this would really bring together the interstate with the 
waterfront. It would improve access to three large development parcels.
    It is very important because we are witnessing a real 
tremendous increase in traffic volume over the next decade. 
Just a couple of other things, we are asking for $2.2 million 
for the main intelligence transportation system. This is 
something for which we did not receive funding in 2001. It is 
being planned, this ITS project is being planned in conjunction 
with Vermont and New Hampshire, and our residents have spent a 
lot of time working on this. It will include a rural advanced 
traveler information system and a roadway weather information 
system, which would give real time information to travellers to 
help improve safety, efficiency and system capacity.
    Another project is the Maine Marine Highway Program, the 
FTA New Start program of $4 million. We are making a real 
effort to use our coast as well as our highways to move people 
around. And this, the goal here is to provide tourists and 
residents the ability to travel throughout the State really 
without automobiles. It will promote marine travel, create 
links to rail and motor coach and support downtown 
revitalization in core communities. The project was an unfunded 
earmark in TEA-21 but it did receive $2 million dollars in 
fiscal year 2001, enabling Maine to initiate the project.
    Finally I just want to mention that I will hope to explore 
with this Committee and others ways that we can deal with the 
problem created in Maine because we allow given the nature of 
our wood products and pulp and paper industry, we allow a 
hundred thousand pound limits on our highways, whereas the 
interstate system has only 85,000 pounds. The result, because 
we do not have an exemption for portions of the interstate in 
Maine, we are rushing 100,000 pound trucks onto roads that run 
through our cities and towns, we are getting lots of complaints 
from Freeport these days, and we need to figure out some way to 
deal with that particular problem. It is a major safety issue.
    With that, Mr. Chairman, I would like to submit my written 
testimony in full and I am happy to answer any questions.
    [The prepared statement of Tom Allen follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Well, your written system is made a part of the 
record. You have asked for about $75 million. We need to know 
your top priority.
    Mr. Allen. In the orders in which I gave them, the top 
priority is for the bus, no question, the Statewide Bus, Bus 
facility and Ferry money. That is really absolutely critical. 
It is hard for a State like ours to have much of a public 
transit program, and when we can't do it without some help, and 
we have real problems with the bus fleet. That is the top 
priority.
    Thank you.
    Mr. Rogers. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. I appreciate your labor 
of love here. And I would like to just speak about three basic 
projects, and first explain to you I represent a district that 
basically touches New York and is the area, it is almost like a 
funnel in which most of the traffic from south of New York 
travels to get up through all of New England. We do not have a 
major port, so products made in New England come down to get to 
port and projects that come--goods that come into port to New 
England go right through I-95 and Route 84. What I am 
interested in is to have this committee fund $20 million for 
the Bridgeport Intermodal Quarter project, 10 million for a new 
commuter rail station, in Fairfield, and two projects in 
Stamford, $5.5 million, $850,000, one for the Stamford Urban 
Transitway is the $5.5 million. In terms of my order for 
priority, the $20 million for Bridgeport is the most important. 
Given that I have voted against ISTEA, because I believed it 
was important that this committee make decision, the $20 
million allocated to me by the transportation when I spoke 
against it, it went down to ten. And when I spoke against it on 
the floor, it went down to 2\1/2\. And this $20 million that is 
the Bridgeport project is the one that has felt the challenge.
    Let me explain to you that what we have been trying to do 
is get people off cars and onto our rail line, which is the New 
Haven Rail Line Metro north, which Amtrak also uses. We have 
major cities along that corridor, Stamford, Norwalk and 
Bridgeport. We are trying to get people from Bridgeport and 
above to take the train and go into Stamford. This intermodal 
center is a connector that has ferry service, bus service, taxi 
service, airport shuttle service, and it links three 
interstates. It is right on the water. It is just ideally 
located to get people to come into.
    And we, you have allocated over $11 million to this 
project. It will take a little more to complete, but the $20 
million is what is necessary to get this on the map. And with 
that, I thank you.
    [The prepared statement of Hon. Christopher Shays follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Well thank you very much. Succinct and well 
said.
    Mr. Shays. Thank you. My statement will explain to the 
staff in a little more detail.
    Mr. Rogers. Thank you. Massachusetts members are next.
                              ----------                              

                                         Wednesday, March 14, 2001.

           MASSACHUSETTS HIGHWAY, RAIL, AND TRANSIT PROJECTS


                               WITNESSES

HON. RICHARD E. NEAL, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF MASSACHUSETTS
HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF MASSACHUSETTS
HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF MASSACHUSETTS
    Mr. Rogers. Mr. Frank.
    Mr. Frank. Yes, I will start. Listening to this, I should 
forgive me for saying that, at this year, Mr. McGovern and I 
are here for $250,000 a piece, which makes us the cheapest date 
in the room. What we have and it is Mr. McGovern and myself, 
because we share the representation of the city of Fall River, 
Massachusetts. Fall River is one of those cities like many in 
the country that after World War II, decided that water was a 
terrible thing and it should be walled off from the rest of the 
city, as did New York and Chicago and Boston and a lot of other 
places, almost San Francisco before they caught themselves. 
They built a big elevated highway between the city and the 
waterway. There is a wonderful park there, maintained with 
State and local funds.
    The center of this park in the river is the retired U.S. 
Battleship Massachusetts, which former Speaker McCormick worked 
so hard to bring to Massachusetts. And what we are trying to do 
is support the city's desire to take down the elevated highway. 
We are asking for a half million dollars to begin the process 
of design and engineering so they can, on the basis of that 
study, then decide what is the best way to go. There is no 
commitment that this will need further funding. This is a city 
which has some great potential advantages in terms of tourism. 
It is working hard on economic development. Taking down this 
highway would be enormously helpful in this regard. It will 
enhance access to the Battleship Massachusetts, a very 
important monument to our defense in World War II.
    There is one argument I want to advance in closing and that 
is this. Fall River is a community that has been hurt by 
national economic policy. Policies which were in the overall 
interest of the country had a particularly negative impact in 
the city because it was 30 years ago or more one of the centers 
of the textile and garment manufacturing in the United States. 
You will find few places in America which have been more 
negatively impacted by the trade policies which have generally 
served the country well. These are people in this city, hard 
working people who were working in a difficult job at 
relatively low wages. They were made to sacrifice for the 
general economic good.
    And what you have now is a serious effort by the mayor of 
the city and others to find replacement economic activity for 
what has been a major activity which was devastated by 
international trade, which is in the process of still being 
hurt by international trade.
    So I do think it is an appropriate situation where some of 
the wealth that this Nation has generated by the economic 
policies over the years, a fairly small part of it ought to be 
devoted to helping some of the people who lost out when most of 
us were beginning to find alternative forms of economic 
activity, and this is why we are seeking this $500,000, Mr. 
McGovern and myself.
    [The prepared statement of the Hon. Barney Frank follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Do you have any idea of the total cost of the 
project?
    Mr. Frank. It is obviously in the tens of millions. I would 
be uncertain until we had this study. I guess $20 million, Mr. 
McGovern tells me. Which by Massachusetts standards, that is a 
pretty cheap way to take down an elevated highway.
    Mr. McGovern. Did I say million? I meant billion.
    Mr. Frank. I think Mr. McGovern would go.
    Mr. Neal. If you want to do the follow up.
    Mr. Olver. Mr. Chairman, by Massachusetts standards, would 
it be safe to say that it would not be cheaper to raise Fall 
River?
    Mr. Frank. Raise Fall River? No, it would not.
    Mr. McGovern. If I could just--because, Congressman Frank's 
district, we split Fall River, but I have a lots of community 
that I split with Congressman Neal, too. Okay. One. Actually 
two, I think. Just to echo what Barney has said, this is a, 
Fall River, and this is a great credit to the mayor of Fall 
River. He is trying to find alternative ways to promote 
economic development. And looking at the models of Providence, 
Rhode Island and Hartford, Connecticut, and New Bedford, that 
have undertaken major and important and successful waterfront 
revitalization water projects, that is what we are doing here. 
We are asking for a half a million dollars to see if this is 
feasible, and whether this thing can be done and when it is we 
will come back and ask for more.
    But we just want the money to be able to assess whether 
there is a worthwhile thing to do.
    Mr. Frank. You mention that you border me and Mr. Neal, but 
you border Mr. Olver.
    Mr. Olver. You don't have a joint one with me.
    Mr. McGovern. I don't think we do, John. But I will be 
happy to work with you.
    Mr. Rogers. Will the State participate in the process?
    Mr. McGovern. If this thing is feasible that is the 
expectation.
    Mr. Frank. Let me point out that is a fair point. We should 
require that. One of the things we have done in a United Way, 
Mr. Olver, and those of us here, was to use the Federal 
Government to intervene because we had a situation where too 
much of the federal money that was going to Massachusetts was 
going into that central artery project, and not enough 
elsewhere.
    And we have here, with the cooperation of the Federal 
Highway Administration, enforced on Massachusetts a requirement 
that a certain fixed percentage of the general money that goes 
to the State be used outside the Federal artery for projects 
such as this. So we are determined to make sure that 
Massachusetts, both with its even tax revenues and with its 
share of federal funding is at the plate on this one.
    Mr. Rogers. Well, I don't need to belabor this point, but 
the central artery project has left a bad taste around here, as 
you know. And a lot of people blame the State of Massachusetts 
for not being more diligent in trying to keep that cost down.
    Mr. McGovern. If I can just say one thing. We are not going 
to argue with you over the frustration on that project, but I 
think there have been some checks and balances, but the in 
place not only in last years, Transportation Appropriations 
bill, but with federal law that I think hopefully will mean 
that this project will be run in a better more efficient 
fashion.
    Mr. Rogers. Okay.
    Mr. Frank. We hope it doesn't go badly for the foreign 
service because of the two men responsible. One wanted to be 
ambassador to Mexico, and the other wanted to be ambassador to 
Canada. So maybe NAFTA might be bailing out this project.
    Mr. Rogers. Anything further, Mr. McGovern?
    Mr. McGovern. Yes, one is we call it the Metro West 
Community Transportation Pilot Project, and this has been a 
request submitted jointly with Congressman Moakley, Markey, 
Congressman Frank and Neal, and I have joined in support of 
this.
    The purpose is to build a model of effective community-
based grass roots, participatory transportation planning that 
can address the specific needs of low income communities. The 
project will develop transportation services to low income 
communities where mass or local transit is not available.
    Again this is being billed as a pilot project. We hope if 
it is successful, it will be a model for other communities 
across the country.
    And finally another project that Congressman Neal and I are 
requesting, because we both represent Auburn, is a funding to 
help build the Veterans Memorial Corridor, which will increase 
safety along Auburn's heavily traversed Route 12 and enhance 
life in the community as well as honor the veterans of 
America's wars. We are asking for a million dollars for that. 
And the State of Massachusetts is also going to contribute to 
the project as is the town of Auburn. And those are my 
projects.
    [The prepared statement of the Hon. James McGovern 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Okay. Thank you very much.
    Mr. Neal.
    Mr. Neal. Thank you, Mr. Chairman. I recall the first time 
I ever testified in front of the Appropriations Committee, and 
of course, your colleague from Kentucky, Mr. Natcher, was the 
Chairman, and there were at least 25 people in the room waiting 
in line, and Mr. Natcher in that three-piece suit, would lean 
back and nobody really knew how much he listened to the 
statements, but at the conclusion of everybody's statements, he 
would simply say that was fine testimony, next.
    The project that I have, Mr. Chairman, is for an intermodal 
transportation facility in the city of Springfield, which I 
have had a long time interest in. It would be best called Union 
Station. And the emotional attachment that thousands of people 
in western Massachusetts and indeed central Massachusetts have 
to Union Station, like union stations everywhere is 
substantial. The significance of this project is that it has 
ample support from the private sector and a matching commitment 
statewide as well.
    The development team is led by the Telesis Corporation, 
here in Washington D.C. And Jones Lang LaSalle, two names that 
are synonymous with excellence, not only in terms of 
development but most importantly, redevelop. Anybody who has 
been to Union Station here in Washington would concludequickly 
they do spectacular work. It is an anchor in downtown Springfield. It 
would also serve as a cohost to Amtrak and private city innerbuses, as 
well as the Pioneer City Transit Authority.
    All told, some 20,000 passengers would use Union Station on 
every business day. Adaptive reuse here would call for not only 
substantial private participation, but the use of 150,000 
commercial square feet for the purpose of retail shops, 
restaurants and a challenger learning center, as well as 
cultural opportunities. The overall price tag here is estimated 
at $115 million. The private sector has stepped up the 
development team that was selected was chosen by a group that 
included the chairman of the board of Massachusetts Life 
Insurance Company and the publisher on the Springfield 
newspapers, David Star, as well.
    So my suggestion today will be that the committee has been 
very supportive of the plans and projects that I have offered 
in the past that I would hope, with the help of Mr. Sabo and 
Mr. Olver on the Democratic side as well, and the good graces 
that you have traditionally offered to projects that I have 
extended, that this would be consistent with the success of 
revitalization and renovation that has really changed the 
complexion of downtown Springfield. I would join in Congressman 
McGovern in supporting a request for $1.5 million for 
transportation community system preservation in a town that we 
do share by virtue of redistricting and use of the computer in 
Auburn. The project would widen and extend a wide stretch of 
Route 12 in Auburn, Massachusetts. It has State support and 
local support from the Chamber of Commerce .
    That project is 2 years old, and the town of Auburn is well 
on its way, and I would hope in your wisdom that you might lend 
some support and financial reinforcement to the two initiatives 
that I offered today. Mr. Olver is entirely knowledgeable about 
the Union Station project. There isn't a moment on USAir that I 
don't bend his ear about it.
    Mr. Rogers. That was mighty fine testimony.
    Mr. Neal. Thank you, Mr. Chairman.
    [The prepared statements of Hon. Richard Neal follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, March 14, 2001.

                              PENNSYLVANIA


                               WITNESSES

HON. GEORGE W. GEKAS, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF PENNSYLVANIA
HON. WILLIAM J. COYNE, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF PENNSYLVANIA
HON. MIKE DOYLE, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF 
    PENNSYLVANIA
HON. TODD RUSSELL PLATTS, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF PENNSYLVANIA
    Mr. Rogers. Thank you. Now, Pennsylvania's delegation some 
of whom are already here, I see.
    Mr. Gekas. If we go by seniority, I will sit first.
    Mr. Rogers. Mr. Gekas, you will be recognized.
    Mr. Gekas. We have a Pennsylvania set of projects that we 
would like to bring to the attention of the Committee. Our 
written statements are submitted already, and we ask to have 
them made a part of the record.
    Mr. Rogers. Without objection.
    Mr. Gekas. The two items that I want to describe to the 
Committee are one, what I would like to call Carlisle, 
Harrisburg, Lancaster, three communities in central 
Pennsylvania which have figured in the revolutionary period of 
our country, in the Civil War period of our country, and 
particularly in World War II after the transportation centers 
that those three communities represent became vital in the war 
efforts. I bring this to the attention of the committee because 
now this corridor has gained its rightful place as a 
transportation complex for the Eastern United States. Rail, 
air, truck, bus, automobile, every mode of travel is considered 
in these three communities.
    To connect them now in a commuter-type system, a commuter 
corridor on rail would alleviate all the existing congestion 
and projected congestion that is sure to come as activity 
increases throughout this region and throughout the next 
several decades.
    So the local shares have been undertaken by the entities 
that have been created for these purposes and what we need is 
is continuation of the Federal Appropriations to create this 
special corridor for commuter purposes. Once a corridor is 
connected up among Carlisle, Harrisburg and Lancaster, we 
believe that it relieves all of the interstate you travel that 
is made necessary by the new patterns of traffic. In addition 
to that, we have a project in Hershey, Pennsylvania to create 
what they call the Intermodal Center, which, again, would 
encompass every mode of travel except air, and which would 
again help to alleviate the interstate travel, which again has 
to remain as free as possible to maintain the commerce that has 
been taking place throughout the Eastern seaboard.
    Those are the two main subjects of the proposals that I 
wish to bring before the Committee. And to ask in your 
consideration in inclusion of those items.
    Mr. Rogers. Thank you, Mr. Gekas. We will take it under 
consideration.
    [The prepared statement of Hon. George Gekas follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Mr. Coyne.
    Mr. Coyne. Thank you, Mr. Chairman and Mr. Sabo and members 
of the committee. I appreciate being able to come here and 
testify on behalf of the North Shore Connector in Pittsburgh, 
and the Light Rail Transit Stage II reconstruction project, and 
new buses for the Port Authority of Allegheny County. I am here 
today to ask for your support of these important projects. 
Pittsburgh is experiencing another period of renewal and 
revitalization. Many public and private development projects 
are currently planned or underway, and as a result of all these 
activities, improvement of the city's transportation 
infrastructure is sorely needed. The city of Pittsburgh and the 
Port Authority of Allegheny County have developed the North 
Shore Connector to facilitate the flow of people through the 
city's North Shore and its central business district. This was 
authorized in TEA-21 and funding was included in the fiscal 
year 1999, 2000 and 2001 transportation appropriations bills. I 
ask that you include $25 million in the fiscal year 2002 
transportation appropriations bill for this important project.
    Today I am also requesting that you include $20 million in 
the fiscal year 2002 transportation appropriations bill for the 
Port Authority of Allegheny County Light Rail Transit Stage II 
project. The LRT Stage II project is a second and final of an 
effort to rebuild and modernize Allegheny County's light rail 
transit system. TEA-21 authorized new start funding for this 
project, and $12 million was appropriated for it over the last 
2 years. The LRT Stage II project will reduce traffic 
congestion and improve the flow of people and goods throughout 
the western Pennsylvania region.
    I will also ask that you include $20 million in bus and bus 
facility funding in the fiscal year 2002 transportation bill 
for the Port Authority of Allegheny county. This money would be 
spent--would be used to acquire approximately 80 new buses.
    Finally, I ask that this Subcommittee provide $2 million in 
fiscal year 2002 funding for the Port Authority of Allegheny 
County's access to Jobs/Reverse Commute Initiative. Our State 
and local governments have made tremendous commitments to the 
infrastructure projects I have mentioned, but Federal 
assistance is needed as well. Consequently, I ask for your 
support for these important transit requests and I ask that my 
full statement be included in the hearing record.
    Thank you once again for this opportunity to testify.
    Mr. Rogers. Thank you.
    [The prepared statement of Hon. William Coyne follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Gekas. Thank you, Mr. Chairman I would like to correct 
the record. I am not senior. Bill Coyne is senior. I hope the 
record so indicates.
    Mr. Rogers. All right. Mr. Doyle. We have a vote on the 
floor. We have 10 minutes left. There is two votes.
    Mr. Doyle. Mr. Chairman, Bill Coyne and I have the 
privilege of representing Allegheny County between the two of 
us. My statement for today, which I would like included in the 
record, just echoes all of the projects that Bill discussed. 
With the new Pittsburgh Pirates stadium, we will play ball 
there March 31 and right down the road from it, a new 
Pittsburgh Stealers stadium will be ready for fall season. The 
North Shore Connector is critical for what we are trying to do 
with our transportation efforts on the North Shore. And I just 
want to reaffirm my colleague's testimony that these are all 
projects that have been authorized that have received funding 
in prior years and would appreciate your consideration at this 
time.
    Mr. Rogers. Thank you very much. Congratulations to 
Pittsburgh on the tremendous growth and progress. I have a 
chance to visit there twice a week. I had a chance to spend a 
few hours in the city yesterday. I always marvel at what is 
going on.
    Mr. Coyle. Come see us any time.
    Mr. Rogers. I will.
    [The prepared statement of Hon. Mike Doyle follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Mr. Platts.
    Mr. Platts. Mr. Chairman, if you would like me to wait 
until after the vote.
    Mr. Rogers. It depends on how much time you need.
    Mr. Platts. I can go through quickly.
    Mr. Rogers. Let us do that.
    Mr. Platts. I appreciate the opportunity to testify as a 
new member. This is my first time testifying before any 
Committee.
    Mr. Rogers. We feel honored.
    Mr. Platts. Well, I also very quickly want to thank you. 
You were very helpful with the Inaugural Day with about 500 
ticket requests, you were generous in sharing some of yours 
with my office and I appreciate that.
    I come out of the State House where I served for 8 years 
and I was very active in transportation issues. I thank you for 
the opportunity to be before all of you. I served on the State 
House Transportation Committee, and I was also co-chair of our 
local transportation coalition and I have really thrown myself 
into issues like TEA-21 and how it impacts us on the State and 
local level.
    I represent south central Pennsylvania. It is three 
counties, York County, the very second largest populated county 
in south central PA, Adams County, Gettysburg is the best known 
town of the county and then Carlisle community, Cumberland 
County. The three are similar but very diverse from very urban 
to more rural and then suburban mix.
    The projects I would highlight for you in Cumberland County 
several major interstates transverse that county, Interstate 
81, tremendous development along that whole corridor. Exit 12 
of that interstate has been designated by local officials as 
just a tremendous problem for traffic flow, both on the 
interstate and off on the surrounding roadway.
    So I indicated about $12 million project. We are requesting 
about $3 million for engineering and design of that project. It 
will an shared cost approach. That is something that the local 
communities has identified as one of their top priorities for 
highway improvements. In York County, I will talk quickly about 
two that are school-safety related, State roads that have very 
dangerous intersections associated with them. There is local 
funding involved. There is State funding but there is still a 
shortfall funding.
    The one that serves two different school districts requires 
about $250,000 for safety improvements on a major corridor. The 
other one is about a $400,000 improvement serving four schools 
in one school district. A couple of other projects in York 
County that I would just highlight that are major are the 
transportation coalition, the MPO having working on, Loganville 
bypass, which will be a rural collector route. It is about a 
$2.5 million project. We are requesting about $400,000 in 
funds. And then improvements along Interstate 83, that again is 
a major interstate through the county, and there is already 
funds committed to it but only to get the ball rolling. We have 
a long way to go and we certainly appreciate the committee's 
consideration. One that is not in my written testimony that we 
will be supplementing concerns mass transit.
    Steve Bland, the executive director of our local mass 
transit agency, Rapid Transit, we are going to be looking for 
some bus replacements for York and Adams County about $3 
million.
    Mr. Rogers. We may have to postpone your testimony unless 
we can----
    Mr. Platts. 30 seconds. Adams County, Gettysburg, well 
known, two important projects, through the borough of 
Gettysburg, intersection improvements. It is stated in my 
written testimony and I very much appreciate the chance to just 
have you consider the requests we put forward and very much 
glad to be here before you today.
    [The prepared statement of the Hon. Todd Platts follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. We have your written testimony and we certainly 
will give it due consideration, and we appreciate your 
summarizing it for us now. We will recess for the duration of 
the vote on the floor and resume immediately until after the 
last vote.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
                              ----------                              

                                         Wednesday, March 14, 2001.

                  NEW YORK AMTRAK AND TRANSIT PROJECTS


                                WITNESS

HON. MICHAEL R. McNULTY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Rogers. Mr. McNulty, if you are ready to proceed we can 
take you out of order, and you are hereby recognized.
    Mr. McNulty. Thank you, Mr. Chairman, Ranking Member Sabo. 
Other members of the Committee will be coming in from the vote, 
especially my friends from New York, John Sweeney and Joe 
Serrano.
    I know your time is limited and you have a very busy 
schedule today, so I won't read my prepared statement that I 
have submitted. So I assume everyone has a copy of that. I will 
just summarize what is going on in my district, Mr. Chairman, 
and ask for your help and support for our future economic 
development because I believe that what you do here in this 
subcommittee is critically important to future economic 
development all over the country. I think a modern 
transportation infrastructure is absolutely vital to what we 
are trying to do to create jobs and improve the economy.
    Just to give you an idea of the area that John Sweeney and 
I represent, it had been for many, many decades an area of 
heavy manufacturing and we have lost virtually all of that over 
the last 20 years, and we have tried to readjust to the modern 
circumstances. Part of our efforts in that regard have revolved 
around trying to improve our transportation infrastructure.
    I am just going to highlight a few of the proposals that I 
have before the committee and ask for your consideration during 
your deliberations in this budget process.
    One is in my hometown of Green Island. Here is a microcosm 
of what has happened in New York State, my community of Green 
Island. Twenty years ago, the three major suppliers, who were 
the Ford Motor Company, the Bendix plant and the Manning Paper 
Company, brought 2,500 people into our little community every 
day to go to work. My community is less than one square mile 
large, 7/10th of one square mile. 2,500 jobs for the people in 
the region. That is down to 300 today. The population of my 
community is 2,500. So we doubled the population every day of 
people coming into work, and now we are down to 300.
    So the mayor, and who incidentally is my father, and the 
local officials have been working very hard to bring back the 
economy of Green Island and they have been successful in a 
number of different projects, and one of them will involve the 
need for reconstruction of Cannon Street, which is one of our 
industrial areas in the community, and that is one of the 
projects that I would request consideration for.
    I also would like you to take a look at a couple of 
projects that are being proposed by Mayor Jennings of Albany, 
our State capital. I think we made a mistake in one of the 
things we did back there the seventies, which was when we 
created our riverfront arterial we cut off the City of Albany, 
the people of the city, from the waterfront, the beautiful 
Hudson River. This is a project which is going try to reconnect 
folks with the river. It involves the construction of a 
pedestrian bridge and other amenities, and we are hoping to be 
able to help the mayor with that.
    Just a little short walk down the river is the Port of 
Albany, which is in upstate New York, which is one of the very 
much underutilized economic development tools of the capital 
region. And we now have this interesting problem: The Port of 
New York is overloaded with work and they want to send back 
business to the Port of Albany, and our infrastructure is 
unable to accept what they are offering right now. We have 
deteriorated rail ties, we have outdated switches. We need a 
new multi-purpose crane. And I have sent details on that 
proposal to the committee, and I hope you will take a look at 
that as we try to utilize that tremendous asset that we have at 
the Port of Albany.
    The Rensselaer Intermodal Facility is something that you 
have provided funds for before. We are actually nearing the 
completion of that project. It is the home of the ninth busiest 
Amtrak station in the country and it has basically been 
operating out of a shack for a long time. I want to thank you 
for the funds you have given to this project. We are just in 
the process of completing it now. Hopefully, with one more 
appropriation we will be able to complete it and hopefully it 
will be opened by the end of this year.
    And also, in connection with that, we are trying to do 
something similar, although on a smaller scale, in the City of 
Schenectady, which is not quite as busy but really has outmoded 
facilities for a bus rail and commuter rail.
    Finally, Mr. Chairman and Ranking Member Sabo, I would ask 
for continued support, and again we have received significant 
support for this in past years, for the I-90 connector project 
in Rensselaer County, which is very important to both me and to 
John Sweeney. This district has gone back and forth between the 
districts that we represent through the years and with 
redistricting coming up, I don't know who is going to represent 
it after next year. But no matter where the line is drawn, it 
is important to both of us because it has been the biggest 
producer of private jobs in the entire capital region of 
upstate New York in the last 20 years. It was the dream of RPI 
President George Lowe. A lot of people thought it was a 
pipedream. Senator Joe Bruno and I, when I was in the State 
assembly, believed in that dream. We built an exit off of I-90, 
which we were criticized for. It was called the Exit to 
Nowhere. We built it because we believed that eventually the 
tech park would come to fruition. RPI built the tech park. It 
was a vacant tract of land 20 years ago. It is now the home of 
more than 2000 new jobs. This is tremendously important for our 
future, and it is the estimate of the folks who run that park, 
Mr. Chairman and Ranking Member Sabo, not politicians like me 
or John or Joe Bruno or anybody else, that if we build this 
connector route between that exit that we built off I-90 that 
we built before, into and through the park, it will open up the 
rest of the park for development and they estimate that over 
the next 20 years they will produce 2 to 4,000 more new jobs. 
So this of course is very, very critically important to me and 
to John and to all of those who represent the capital region of 
the State of New York.
    With that, Mr. Chairman, I will conclude my remarks and 
thank you for this audience and the opportunity to get these 
issues before you. I know that you always receive more requests 
than there is funding available for. I know that will be the 
case this year. I just hope that you will take a careful look 
at each of these projects, and I hope that I can work with you 
over the next weeks and months to see to it that they are 
adequately funded.
    [The prepared statement of Hon. Michael McNulty follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. The $5 million that you are requesting for 
the--is it the connector, you call it? What does it connect?
    Mr. McNulty. It connects that exit off Interstate 90 that I 
talked to you about that Senator Bruno and I sponsored when I 
was in the State legislature to this technology park that was 
developed by the Rensselaer Institute in Troy, New York, one of 
the premier engineering universities in the country.
    Mr. Rogers. What distance would the connector cover?
    Mr. McNulty. It is just--I think the total of it is about 2 
and 3 miles.
    Mr. Rogers. Would there be State money in the project?
    Mr. McNulty. Yes, there will be some State money, and there 
has been State money and there will be substantial State money 
in that project.
    Mr. Rogers. Okay.
    Mr. McNulty. Senator Bruno, thankfully who was just my 
colleague in the Senate at the time, is now the Senate majority 
leader, and that is one of his top priorities. So he has been 
pushing that and providing substantial funds for it as well.
    Mr. Rogers. Thank you. Thank you very much for appearing.
    Mr. McNulty. Thank you. I really appreciate it.
                              ----------                              

                                         Wednesday, March 14, 2001.

                          COAST GUARD FUNDING


                 NEW JERSEY AMTRAK AND TRANSIT PROJECTS


                               WITNESSES

HON. FRANK A. LoBIONDO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
HON. STEVEN R. ROTHMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
HON. DONALD M. PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Rogers. Mr. LoBiondo, and Mr. Payne. Mr. Payne, if you 
will come forward. Mr. LoBiondo, we will recognize you. Thank 
you for being here.
    Mr. LoBiondo. Thank you, Mr. Chairman, very much. I 
certainly appreciate the opportunity to be before you today to 
discuss a number of issues that are important to the 
constituents of the Second District and to New Jersey. I have 
submitted my entire statement for the record and will try to 
briefly summarize.
    The Second District has a great deal of interest in the 
work of this committee and our region's safety and success 
depends upon our support for transportation projects and 
facilities. The FAA Technical Center is the national scientific 
test base for the FAA Research, Development and Acquisition 
Programs. The 1600 plus scientists and engineers working every 
day at the center make air travel safer and easier and will 
greatly be assisted by the $13.3 billion requested by the 
committee for FAA operations in fiscal 2002.
    As our district is bordered on three sides by water, I have 
been very interested in the ongoing funding concerns of the 
Coast Guard and U.S. Coast Guard fiscal year 2002 budget. As 
the new chair of the Coast Guard and Maritime Transportation 
Subcommittee, I want to work with you to address some very, 
very critical funding needs. I believe that we have reached a 
point where the Coast Guard's ability to defend our borders and 
protect our waterways is seriously compromised.
    Transportation and Infrastructure Chairman Don Young and I 
are committed to finding solutions to this problem as well as 
the ranking members on the committees. All Americans have an 
interest in making sure that the Coast Guard is prepared to 
stop drug smugglers, support our country's defense and respond 
to national emergencies. After years of aging equipment, 
maintenance, and dealing with retention challenges, the Coast 
Guard has reached a critical point. Like other military 
services, a shortfall this year in the Department of Defense 
health care entitlements and rising fuel costs have caused the 
Coast Guard to cut back critical missions like drug 
interdiction. They are already in a cutback at this point, Mr. 
Chairman. They look to also be facing even additional problems 
as this fiscal year continues.
    I strongly urge you to support the supplemental funding to 
address the Coast Guard's 2001 budget shortfall and any 
Department of Defense supplemental that may be considered by 
Congress later this year. It is my understanding that the Coast 
Guard's fiscal 2001 shortfall is approximately $100 million. 
The President's budget sets a strong start toward ensuring the 
fiscal health of the Coast Guard, but I believe we must add 
additional resources to the budget to avoid the destructive 
cycle of budget shortfalls, operational cuts and end-of-year 
supplemental funding bills. The Coast Guard readiness problems 
related to a sharp increase in military entitlements, personnel 
training needs, and new operational demands leave the Coast 
Guard approximately $300 million short in operating expenses 
for fiscal year 2002.
    Mr. Chairman, as you work with your committee leadership 
and other appropriations subcommittee chairs to allocate budget 
resources for the coming fiscal year, I strongly urge you to 
accommodate the additional Coast Guard requirements. We must 
place the Coast Guard on sound financial footing now so that 
the Coast Guard will be prepared to meet operational 
challenges, especially any escalation of drug smuggling.
    Thank you, Mr. Chairman, and I look forward to working with 
you on the aforementioned issues.
    [The prepared statement of Hon. Frank LoBiondo follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Chairman LoBiondo, congratulations on being the 
new Chairman of the Coast Guard and Maritime Transportation 
Subcommittee over at the authorizing committee, and certainly 
your testimony carries great weight with us and we look forward 
to a good close working relationship with you and the other 
members of that committee.
    Mr. LoBiondo. Thank you, Mr. Chairman, appreciate your 
consideration.
    Mr. Rogers. Thank you very much. Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman. Mr. Rogers, Ranking 
Member Sabo, it is a pleasure to be here before the 
subcommittee again and I would like to thank you for the 
opportunity to be here, and I am presenting this testimony on 
behalf of the mayor of the City of Newark, Mayor Sharpe James.
    The support of this Committee has been critical in the past 
and we wholeheartedly thank you for your aid on projects that 
have truly impacted on the people of the City of Newark and our 
economy. Newark's transportation infrastructure needs are vital 
to enable us to maintain our position as a regional center for 
commerce, government and entertainment. Because of time 
constraints here today, I would like to submit a more detailed 
written statement for the subcommittee's consideration.
    Let me say that there is a renewed vitality and sense of 
optimism in Newark. As the physical crossroads of the Northeast 
Corridor, the city's future economic viability is dependent on 
the continued modernization and expansion of our transportation 
system. Improvements to our road network, our rail system, and 
our port and airport facilities directly translates into jobs 
and economic prosperity for our city, State and region. The 
construction of major new facilities, including the four-year-
old New Jersey Performing Arts Center, a 2-year-old minor 
league baseball stadium and the Representative Joe G. Minish 
Passaic Riverfront Park and Historic Area, on which the Army 
Corps of Engineers is ready to begin its second phase of 
construction, are all related to the proximity and 
effectiveness of our transportation network.
    Your help on transportation funding has improved access to 
the downtown business, arts and entertainment district and also 
to the rapidly growing Newark Airport complex. The success of 
University Heights, where four institutions of higher learning 
provide educational opportunities to over 50,000 commuter 
students per day, is also directly related to the ease and 
access of our highway system.
    We are working to further capitalize on the existing 
transportation infrastructure by connecting current and 
proposed facilities with the Newark-Elizabeth Rail Link. The 
first segment will soon be under construction, thanks to your 
previous support. Right-of-way acquisition has now taken place 
and construction is expected to begin by the start of the next 
calendar year. At full buildout, the link is planned to be an 
8.8-mile, 15-station light rail transit link, linking downtown 
Newark with Newark International Airport and the City of 
Elizabeth, our sister city. The rail link is an important and 
central component of our overall transportation plan. We are 
proud that a full funding agreement for this first operational 
segment of the Newark-Elizabeth Rail Link was signed last 
summer and the administration has included funding for it in 
its budget.
    I respectfully ask the committee to add its support to the 
$20 million allocation for this. The assistance of this 
committee in funding these projects is vital. The Newark-
Elizabeth Rail Link and Penn Station and the presence of Amtrak 
facilities is a central feature of Newark's downtown riverfront 
area. The station is the last northbound stop on the Northeast 
Corridor before New York City and provides rail and bus linkage 
to the rest of New Jersey and the region beyond.
    New Jersey Transit is doing an admirable job of renovating 
and modernizing facilities to accommodate increase and demands 
at the station, but the portion of the overall rail 
infrastructure that is owned and operated by Amtrak is in great 
need of attention. The renovation of Amtrak property to better 
serve the City of Newark residents and visitors is a key factor 
in the city's economic development and transportation 
initiatives. The key property is at the south side of Penn 
Station, and improvement to it will be a worthy investment.
    I conclude, the extension of platforms at the southern end 
of Penn Station will enable passengers to exit the rail 
facility without having to navigate through passageways to exit 
through the station itself. This improvement will enable the 
connection of a pedestrian walkway to a planned economic 
development project, the new downtown sports and entertainment 
complex. The Newark Sports and Entertainment Center master plan 
includes development of approximately 1.4 million square feet 
of office space.
    I have included further detail about the project in the 
written testimony I am submitting. The estimated costs of the 
platform extension, which is part of the overall intermodal 
transportation hub, is $20 million, and I ask your support for 
funding to plan and implement this exciting undertaking. The 
assistance of this committee in funding these projects is 
vital. The Newark-Elizabeth Rail Link and the Penn Station 
Amtrak facilities improvements are critical links to Newark's 
transportation network, and your support is critical to our 
continued economical development. Your attention and 
consideration of needs of Newark, New Jersey are deeply 
appreciated, and I thank you for your time.
    [The prepared statement of Hon. Donald Payne on behalf of 
Mayor James follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. What will be the total cost of that project?
    Mr. Payne. We are still working on the numbers for that, 
and we will be able to come up with that in the near future. We 
don't have that exactly now. But I must say that, as you know, 
in 1967 there was a civil disorder in Newark and it just 
changed the whole landscape of the city. It has taken us all 
the way to the end of this century to finally stabilize our 
community and start to rebuild Newark. It is the third oldest 
city in the United States, one of the best, greatest cities in 
the country, and we really feel good that it is starting to 
return, employment for inner city people. There is a lot of 
hope, but it is all dependent on this transportation system.
    Mr. Rogers. Okay. Thank you very much. Mr. Rothman.
    Mr. Rothman. Thank you, Chairman Rogers. It is a pleasure 
to be with you, Ranking Member Sabo, Mr. Olver. Pleasure to be 
with you, especially as a new member of the House 
Appropriations Committee.
    Mr. Rogers. Congratulations.
    Mr. Rothman. Thank you kindly. I look forward to working 
with you. I am grateful for this opportunity to discuss the 
highest transportation priorities of Bergen and Hudson Counties 
in New Jersey, parts of which I represent, as well as 
priorities throughout my State. Because you will be hearing 
from many of my colleagues, I will not try to--I will try, 
rather, not to be repetitive, and I have provided written 
testimony with more specific information about the issues that 
I wish to discuss.
    Before you previously were members of the New Jersey 
delegation who share a bipartisan goal: To improve 
transportation in the most densely crowded state in the United 
States, the State of New Jersey. We have 8.4 million residents, 
more than 1,066 per square mile. Sometimes it feels like all 
8.4 million are on the same road at the same time. But 
nonetheless our 35,900 miles of roads and our 6,300 bridges are 
among the most heavily traveled in the United States, not only 
by New Jersey residents but by those traveling through New 
Jersey to get to Pennsylvania, to get to New York, or points 
along the Northeastern Corridor.
    New Jersey has turned to light rail as one of the solutions 
for our extraordinarily overburdened transportation 
infrastructure. We see light rail as the key to relieving 
congestion on our State's overburdened roads. The crown jewel 
of our light rail efforts is the Hudson-Bergen Light Rail 
Project, a 21-mile, 30-stop line along the New Jersey side of 
the Hudson River, across from New York City. The Hudson-Bergen 
Light Rail Project is the linchpin of transportation in 
northern New Jersey. It integrates commuter rail, ferry, and 
subway services, all in an effort to ease our extraordinarily 
congested roads, again in the most densely crowded State in the 
United States.
    When completed, this Hudson-Bergen Light Rail Project will 
connect the Vince Lombardi Park and Ride from Bergen down to 
the light rail network, making rail travel within New Jersey 
and into New York City easier for literally hundreds of 
thousands of northern New Jersey residents. I am proud that 
this project has earned the New Jersey Transit, the American 
Public Transportation Association's 2000 Innovation Award for 
using construction techniques that have saved an estimated $300 
million and cut 5 years off the construction time.
    I am pleased to inform this subcommittee that the 10-mile 
first segment, which serves heavily populated Hudson County, 
has already been constructed and paid dividends. What has 
spurred private sector investment in Jersey City, New Jersey by 
large corporations and other employers and has provided access 
to their employees along the Hudson is Bergen Light Rail, at 
least the first segment that has been completed. As you may 
know, the Federal Transit Administration and New Jersey Transit 
entered into a $992 million full funding grant agreement in 
1996 for this 10-mile first segment. I am requesting that the 
subcommittee support an appropriation of approximately $150 
million in fiscal year 2002, which the State of New Jersey will 
meet through a 39 percent match grant, this being the final 
payment on the 1996 full funding grant agreement, and it is 
needed. I am grateful for this subcommittee's commitment to 
this project, and I hope our partnership will continue this 
year.
    The second and the last two projects I will speak about 
today very briefly is the Newark-Elizabeth Rail Link, an 8.8-
mile extension of the Newark City Subway, which will link the 
downtowns of two of our State's largest cities, Newark and 
Elizabeth, New Jersey. It includes, by the way, a stop at 
Newark International Airport.
    In the year 2000, the Federal Transit Administration agreed 
to a $207.7 million full funding grant agreement with New 
Jersey Transit, which the state is meeting with a 31.7 percent 
match. This is for the first mile of the Newark-Elizabeth Rail 
Link. I am requesting today that the subcommittee support an 
appropriation of $20 million in fiscal year 2002. These funds 
will be used to design and begin construction of the one-mile 
segment which will connect the existing Newark City Subway at 
Newark's Penn Station and also offer intermodal transfer 
capability between Newark's two commuter rail lines at Broad 
Street and Pennsylvania Stations.
    These are the two highest transportation priorities for the 
State of New Jersey, in my opinion, the Hudson-Bergen Light 
Rail Project and the Newark-Elizabeth Rail Link. I will be 
submitting additional requests for additionalprojects, in 
particular my own pet project of Route 17 South in Bergen County, which 
is not yet ready for full funding for this committee but which I will 
be coming back to you within the months and years ahead. We will be 
submitting this information in advance of the subcommittee's April 6th 
deadline.
    I am grateful for this opportunity to brief you, however, 
on these two high priority items. My friend and colleague 
Congressman Rodney Frelinghuysen, our State's senior member of 
the House Appropriations Committee, will appear before this 
panel next week to discuss these priorities as well, and I am 
very proud and excited to join with him as a friend and 
colleague in our bipartisan effort to address these 
transportation needs for, again, the most densely crowded State 
in the United States, the State of New Jersey, and as always, I 
thank you for your courtesies and your assistance in these 
regards.
    [The prepared statement of Hon. Steven Rothman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Do I understand correctly that there is a 10-
mile first segment of the Hudson-Bergen Light Rail System that 
is in operation now?
    Mr. Rothman. It is substantially in operation. There are 
two additional phases that were a part of the plan originally 
agreed upon. They have not yet been fully funded. So the third 
phase is the phase that gets to my county, but we are going to 
complete this first phase.
    Mr. Rogers. But there is a 10-mile segment that is in 
operation now?
    Mr. Rothman. I believe it is. Yes, it is.
    Mr. Rogers. Can you tell me how it is being used?
    Mr. Rothman. It is being used--to my understanding, it is 
not in my district, nonetheless it is being well-received. It 
is helping to attract large employers to downtown Jersey City, 
which is a large urban center.
    Mr. Rogers. I am interested in the ridership.
    Mr. Rothman. We can provide those numbers to you, Mr. 
Chairman, in specifics. My understanding it is exceeding 
expectations.
    Mr. Rogers. Thank you very much.
    Mr. Olver. In keeping here, the $992 million full funding 
agreement that was reached, is that for the whole 30 miles of 
the Hudson-Bergen or is that only the amount for the first 10-
mile segment?
    Mr. Rothman. That is only for the first 10-mile segment.
    Mr. Olver. What is the cost for the whole 30?
    Mr. Rothman. My recollection is it is over $2 billion.
    Mr. Olver. Well, you may want to get better numbers on that 
or get a confirmation of that. But the $151 million that you 
are asking for, is that the way I thought I heard you describe 
that, was that was the amount under the full funding grant 
agreement that says in your testimony that this appropriations 
is critical to the completing of the construction on this 
stretch, that being the first 10 miles?
    Mr. Rothman. I understand that a portion of that 10-mile 
project is completed and is in operation. I believe that the 
rest of this money will allow the completion of the rest of 
that first phase, 10-mile program. But a portion of it is 
operational.
    Mr. Olver. Okay.
    Mr. Rothman. I was there at the ribbon cutting and I heard 
the clanging bells and saw this light rail moving through.
    Mr. Rogers. Thank you very much.
                                         Wednesday, March 14, 2001.

                 NEW YORK TRANSIT AND HIGHWAY PROJECTS


                               WITNESSES

HON. PETER T. KING, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
HON. GREGORY W. MEEKS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
HON. VITO J. FOSSELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Rogers. Okay. We have the first New York panel, Mr. 
King, Mr. Meeks, and Mr. Fossella. If you will come forward. 
And Mr. King, you are recognized.
    Mr. King. Thank you, Mr. Chairman. Mr. Chairman, I would 
ask that my statement that is in the record be read in its 
entirety. I am here on the East Side Access Project along with 
my colleague Mr. Meeks. As Congressman Sweeney well knows, 
Governor Pataki has made this his primary transportation 
project priority in New York. It is also supported by the mayor 
of New York and by the executives of Suffolk and Nassau 
Counties.
    What this would do is reduce the travel time for 179,000 
commuters. It would take approximately 12,000 cars off the 
road. It would directly connect the Long Island Railroad to 
Grand Central Station rather than require them to backtrack to 
Grand central. This project was begun in the 1980s and $2 
billion went into it, a tunnel constructed at the time which 
was partially completed. It is now in the process of ultimate 
completion. We require the tunnel, 63rd Street tunnel from 
Queens to Manhattan and another tunnel from Grand Central 
Station up to 43rd Street.
    The MTA in New York has committed $30 million over the next 
fiscal year to support the construction effort. TEA-21 
authorized, I think it was, $353 million over 5 years. Congress 
has thus far appropriated $54 million. Construction is ready to 
begin. And Congressman Meeks and I are requesting $149 million 
from that $353 million that was initially authorized. I can't 
emphasize enough the importance this would have to the entire 
downstate region. It certainly would benefit my district, but 
all of the districts on Long Island Queens, Manhattan, and the 
Governor has given it its highest priority. With all the 
meetings with the State delegation he emphasizes that. The MTA 
authority has committed an additional $530 million. And this is 
a 10-year project. The sooner we get started on this final 
phase, the better it will be for the region both economically, 
environmentally and also just the quality of life.
    So with that, Mr. Chairman, I would be glad to answer any 
questions and again stress the importance of this to the entire 
downstate region of New York.
    [The prepared statement of Hon. Peter King follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you very much. Mr. Meeks, maybe it would 
be appropriate to follow Mr. King.
    Mr. Meeks. Thank you, Mr. Chairman. Let me just agree with 
Mr. King. This project is probably one of the most important 
projects for the future, not only to my district and to my 
constituents but to our region's economy and mobility, the East 
Side Access. The reason why is it a project that on its first 
day of operation will bring some 60,000 MTA Long Island 
customers who now travel to Penn Station on the West Side of 
Manhattan as much as 20 minutes closer to their destinations by 
dropping them at the Grand Central terminal on the East Side of 
Manhattan.
    The East Side is the Nation's largest business district and 
one that continues to grow. The bottom line is that those 
individuals will save nearly 40 minutes a day roundtrip. That 
is 3 hours a week and about 18 days of productive work time a 
year. Ultimately, the project would allow for a 45 percent 
increase in the Long Island Railroad's capacity and will serve 
about 179,000 commuters daily who travel to and from Manhattan, 
Queens, Suffolk and Nassau Counties.
    Additionally, the project has a unique synergy with another 
transportation project that happens to be in my district, the 
Port Authority of New York and New Jersey's Airtrain, which is 
being constructed as we speak. Airtrain will connect the 
passenger terminals at JFK International Airport with the MTA's 
Long Island Railroad, the J, Z and E subway lines and 14 MTA 
and private bus lines in Jamaica and the A train in Howard 
Beach, New York. By hooking all of this to Grand Central 
Terminal, Airtrain will increase its efficiency by reaching the 
international business travel market.
    Aside to the benefits to the riding public, East Side 
Access, when combined with Airtrain, will not only bring with 
it many thousands of district construction jobs throughout the 
region for the life of the project, it will also help leverage 
many thousands of additional supporting jobs in terms of travel 
and hotel development throughout downtown Jamaica, which 
happens to be the heart of my district.
    As Congressman King has indicated, you know, some $54 
million in New Start earmarks from the $353 million 
authorization provided in TEA-21 has already been requested and 
therefore we are requesting the $149 million. And as indicated, 
clearly the city, the State clearly are on board and they are 
putting up a match. And I also think that you will find that 
most of the entire New York delegation is in accord with this. 
Last year alone we had some 22 members from the delegation that 
signed letters in support and we expect the same level of 
support this year.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Gregory Meeks follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. Mr. Fossella.
    Mr. Fossella. Thank you, Mr. Chairman, and congratulations 
on your new post, and members of the Committee. If I can submit 
my testimony for the record, just expand on those remarks.
    Mr. Chairman, there are priorities for Staten Island in the 
13th Congressional District, or what have been our priorities 
for the last few years: Continued funding to reconstruct the 
St. George Ferry Terminal, the continued funding to construct 
the Whitehall Ferry Terminal and funding for the major 
investment study of the North Shore Rail Line for Passenger 
Service.
    By way of background, Staten Island, if it was its own city 
of 400,000 people, would be about the sixth or seventh largest 
in the country. With its unique status as an island, we are 
sort of held hostage by being able to commute in only so many 
ways. The Verrazano Bridge is the lifeline for Staten 
Islanders, but also for so many citizens who come from New 
Jersey and throughout the region and ultimately into Manhattan. 
So therefore the lifeline for almost 60,000 people a day is the 
Staten Island Ferry, commuters and tourists alike. In fact, it 
is usually among the top tourist attractions in the City of New 
York. In 1992, on the Manhattan side there was a fire that 
practically destroyed what is known as the Whitehall Ferry 
Terminal. Since that time we have begun the process of 
reconstruction. On the Staten Island side the St. George ferry 
terminal is right in a multi-modal hub. To give you an idea, it 
handles ferries, 20 bus routes, passenger trains, taxicabs, 
passenger cars as well as pedestrians and bicycles.
    Mr. Chairman, to date, the St. George Ferry Terminal has 
received $20 million in FTA funds. $20 million was authorized 
for the project. Of that, $2.5 million has been appropriated, 
and the City of New York has committed $59 million to this. The 
project is currently near the end of the design process that 
will be bid out later this year. We request an additional 17--I 
am sorry, yeah, $17.5 million. On the Whitehall side, Manhattan 
side, this committee has been helpful in earmarking $50 million 
in FTA funds. The City of New York has committed $65 million 
towards the project. Of that $50 million in earmarked funding, 
$13.5 million has been appropriated. In order to move forward 
with construction, I am requesting an additional $10 million to 
proceed.
    On the North Shore Passenger Rail, Mr. Chairman, to 
conclude, this was a rail and freight line that was abandoned 
in the 1950s for passengers and in the 1980s for freight. 
However, since the abandonment a bi-state plan has been created 
to reactivate the line for both freight operations and 
passenger. The first two steps of this revitalization, 
purchasing the right-of-way for the line, have already been 
completed. The third remaining piece is the reconstruction of 
the remaining rail corridor for passenger service to the St. 
George Business District and Staten Island Ferry. With that, 
Mr. Chairman, I respectfully request $1.5 million for the 
Federal share of the study to complete this important project 
to Staten Island.
    [The prepared statement of Hon. Vito Fosella follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Okay. Well, thank you very much for your 
testimony, the three of you. These are expensive projects, but 
we are dealing with some expensive real estate areas. Thank you 
very much.
                              ----------                              

                                         Wednesday, March 14, 2001.

            NEW YORK HIGHWAY, TRANSIT, AND AIRPORT PROJECTS


                               WITNESSES

HON. JOHN M. McHUGH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
HON. JACK QUINN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Rogers. Mr. McHugh, Mr. Quinn.
    I don't know who is the more senior, proceed as you wish.
    Mr. McHugh. Mr. Chairman, let me add my congratulations to 
you on your new subcommittee chairmanship. I appreciate very 
much the opportunity to be here before you today and I also 
thank the other members of the subcommittee, Mr. Sweeney, my 
friend and colleague from New York, Mr. Olver. I know you have 
had a very busy schedule here today, and accordingly I would 
ask unanimous consent that my written testimony be submitted in 
its entirety for the record.
    Mr. Rogers. Without objection.
    Mr. McHugh. I would just briefly summarize that. Mr. 
Chairman, my appearance here today is really a sequel of 
testimony that I submitted last year before this very 
subcommittee under then Chairman Wolf, and in that regard let 
me begin by expressing my deepest appreciation to the 
subcommittee for their invaluable support and assistance in 
securing a $2.8 million appropriation that was ultimately 
signed into law by the President. Mr. Sweeney I know is a very 
dispassionate, unbiased member of this subcommittee, but I 
would be remiss if I didn't note that he has been a very 
valuable and valued partner in this effort. He and I share 
adjacent districts that are greatly impacted by the reason for 
my presence here this afternoon.
    The topic this year once again is a matter of great 
importance not only to our districts, the State of New York, 
but I think it is fair to say to the entire United States of 
America, and that topic is simply and very importantly the 
deteriorated and drastically, dramatically outdated customs and 
immigration facilities that are found situated at the United 
States-Canadian border in Champlain, New York and Clinton 
County. Although it is located in my district, it is a facility 
that has a very significant impact on the trade and tourism 
that occurs between those two nations.
    Mr. Chairman, as trade between the United States and Canada 
continues to expand, and that is certainly very good news, we 
have witnessed in this country the emergence of several major 
north-south trade corridors along which the bulk of trade 
between our two nations occurs, and certainly one of the most 
important of those corridors is at the Champlain-Hudson region 
on the United States Interstate Route 87 running from 
approximately New York City to the Canadian border, near 
Plattsburgh, New York and the Canadian Route 15, and in fact 
this corridor and these two routes connect two of the largest 
seaports on the Atlantic coast, that located at Montreal, 
Quebec in Canada, of course, and New York City.
    Critical to this trade and to this corridor is the land 
crossing at Champlain. This crossing is the second busiest in 
the State of New York and the fifth busiest in United States 
commercial crossings. In 1999, over 800,000 trucks carrying 
over $14 billion in international trade passed through the 
Champlain crossing. That represents over 5 percent of the 
entire trade between the United States and Canada. As I know 
the distinguished members of this subcommittee recognize, it is 
the single largest trade relationship that we have here in the 
United States. Sadly, the antiquated, outmoded and inadequate 
facilities at the crossing at Champlain are having a very 
dramatic and a very hindering effect on the trade between our 
two countries, and in spite of this subcommittee's invaluable 
support last year, the sad fact remains that the tie-ups 
involving commercial traffic at Champlain can and do stretch 
into miles and produce border crossing times for those vehicles 
that often takes several hours. Without some sort of further 
action, I am afraid that that situation will continue to erode.
    It should be noted, Mr. Chairman, that the Customs Service 
along with the Immigration and Naturalization Service have 
worked with the General Services Administration to do their 
best to address this very drastic situation. In using the 
resources that this subcommittee was so invaluable in helping 
to provide last year, they have begun what will be 
approximately a $30 million project to upgrade these facilities 
that will, if and when it is completed, allow the potential 
benefits of economic expansion that exists between the United 
States and Canada. That is something that I know you, Mr. 
Chairman, are very concerned about to be realized. And indeed, 
Customs and GSA have identified this crossing as their number 
one priority of any border crossing anywhere in America, either 
along the Canadian or Mexican border, for rehabilitation.
    That is a great plan and a great step in the right 
direction. But without the necessary funds to go forward, I am 
afraid that dream will remain a dream and, in fact, will likely 
erode into a nightmare.
    In addition, and perhaps most importantly to the very 
significant economic implications over not accelerating the 
efforts at Champlain, there is a critical safety question 
involved with this request. The backups that I cited caused by 
delays in processing trucks through the facilities have been 
responsible for numerous accidents and, most tragically, 
several fatalities, and in fact since I began preparing this 
testimony, Mr. Chairman, yet another trucker lost his life as 
he approached the border crossing at Champlain. His death 
brings to the number three those truckers who have lost their 
lives at the crossing at Champlain in just the past 18 months. 
And local officials fear, and I have no reason to doubt that 
fear, that without some sort of accelerated program here, more 
fatalities are simply inescapable.
    My request therefore is respectfully that this subcommittee 
continue the support it so clearly demonstrated last year by 
again supporting the request I am making for an additional $6 
million in funds to continue this invaluable work. A lot of 
progress has been made, progress that simply would have not 
been realized without this subcommittee's assistance, and that 
is why we are back here today. As always happens, when people 
do good things you are asked to do more, and I would 
respectfully request that.
    [The prepared statement of Hon. John McHugh follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Last year you requested and the Subcommittee 
invested $2.8 million, but you are again requesting $6 million. 
Has the project grown from last year's request?
    Mr. McHugh. No, sir. The entire project has grown, their 
cost estimates. It started, according to GSA, at about $23 
million. I use now the figure of 30 simply because the target 
figure that GSA is discussing is actually 35. I assume that 
growth is in large measure due to the increasing cost of 
construction. But this $6 million really represents an 
acceleration of the program. The $6 million would allow the 
facilities that are currently underway. There has been some 
work on a third truck lane, some parking, and off-road 
facilities for trucks have been initiated, but there is no 
further money beyond the 2.8 that this subcommittee helped to 
provide to continue that, and with, as I said, three fatalities 
in the last year and a half, one occurring a few weeks ago.
    Mr. Rogers. This is a Customs project right.
    Mr. McHugh. Customs and Immigration. It is under the 
auspices of the General Services Administration.
    Mr. Rogers. Why wouldn't the Treasury Deputy participate in 
the cost of this, the parent agency of Customs.
    Mr. McHugh. As I understand the normal course of providing 
these projects, GSA becomes the lead agency and the actual 
departments that are involved at the crossings are the ones 
that are the departmental players.
    Mr. Rogers. But Customs is not participating in the cost?
    Mr. McHugh. Well, it is a cost assessed against GSA. I 
would defer to this subcommittee and the full committee as to 
how that is structured under the Federal budget rules. It is a 
GSA-funded project, but it is a project that Customs and INS 
work with the GSA to prioritize, thus the importance of their 
saying this is their number one priority.
    Mr. Rogers. Okay. Mr. Sweeney. Questions.
    Mr. Sweeney. I just want to compliment my colleague and 
neighbor. I know the work that he has put into this. I know it 
is important economically and I am glad you emphasized the 
public safety aspect because, as you pointed out, a couple of 
weeks ago we had another fatality. It is crucial for the 
Eastern Seaboard and very crucial for our district.
    Mr. McHugh. If I may respond to the gentleman, I appreciate 
it, and again I would be remiss, my colleague from New York and 
to the south has been an invaluable usual partner. I get to sit 
behind the microphone, but without his help none of this would 
have happened. So I appreciate his support.
    Mr. Rogers. Okay. Thank you very much. Fine testimony. Mr. 
Quinn.
    Mr. Quinn. Thank you, Mr. Chairman. Without objection, I 
would like to submit my full written testimony.
    Mr. Rogers. Without objection.
    Mr. Quinn. Briefly summarize, Mr. Chairman, and add my 
congratulations to you in this new assignment. I think the 
subcommittee is aware of my career here myself. I have been on 
the Transportation Infrastructure Committee for 8 years, become 
recently chairman of the Railroad Subcommittee, and understand 
very clearly the sometimes difficult decision this subcommittee 
has to make when it comes to funding.
    Having said that and having listened to some of the 
requests already this morning, I think I should up the ante on 
some of ours. We are sort of modest here today. But it doesn't 
mean, Mr. Chairman and Mr. Sweeney, that these aren't important 
projects in Buffalo. I think the reason the amounts might be a 
little bit smaller and the request this year is because almost 
all of these five that I will summarize are in progress already 
and the subcommittee in fact has begun funding them, so we are 
very grateful for those.
    Mr. Rogers. You don't need to apologize to this 
subcommittee for a modest request.
    Mr. Quinn. I am simply highlighting, Mr. Chairman.
    Mr. Rogers. Because we have had some rather immodest 
requests.
    Mr. Quinn. One area is our harbor at Buffalo. We are trying 
to create a public-private partnership there. I am happy to 
report this year that the private part has really begun to kick 
in. Adelphia Communications has committed $250 million on the 
project on the Inner Harbor that will bring over 500 jobs to 
the area. So we are asking for $3 million from the 
Transportation and Community and System Preservation Account to 
continue some of that Inner Harbor work.
    Second is our NFTA transportation authority. The Authority 
is our regional multi-modal transportation authority. It 
operates the transit system, both airports, the harbor and 
other infrastructure. Here, Mr. Chairman, the backup 
information: We are requesting about $2.5 million from the 5309 
discretionary money for some new buses there.
    And Buffalo Niagara International Airport, the third area 
which we discussed today, is one of the best success stories we 
have going in our region, certainly in the Northeast and New 
York State. We talk about the high cost of air travel even to 
get back and forth from Washington. We have been able to 
attract five low cost carriers to our new airport there, 
including Southwest, JetBlue and Vanguard. And along with that 
success, as Mr. McHugh points out, goes more requests. We are 
requesting 20 million in discretionary AIP funding here for 
additional runway airport improvements, for safety and parking.
    Fourth, the Continental 1 Project, which is 219, a north-
south route through western New York and into Pennsylvania, 
requesting 1.7 million here to continue the project, which has 
already been funded through here.
    And last but not least, the rail project, Mr. Chairman, 
over the Buffalo River. Again there is a phased project where 
last year the first phase of the regional initiative for a 
drawbridge feasibility study was approved. And the second phase 
is the construction of that crossing, and we are requesting 
about a $1 million from the subcommittee to begin that.
    Finally, I stand ready to assist in any way we can from the 
full committee on it, and I as well as the Railroad 
Subcommittee, to assist you as you listen to these requests 
that are so important not only to our region in the Northeast 
but also to the country. Thank you.
    [The prepared statement of Hon. Jack Quinn follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you for your testimony. Congratulations 
on your new assignment, and we look forward to working with you 
and the new members of the authorization committee and the work 
we must do here. As you have said, it is really difficult to 
try to parcel out funds that can't fully fund all of the 
authorized projects. It is tough to try to pick and choose 
amongst the most worthy, because we are dealing with highly 
technical projects of enormous expense and varying equations of 
funding from local, State and Federal sources. So I thank you 
for your help. Mr. Sweeney.
    Mr. Sweeney. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you, gentlemen, for your testimony.
                                         Wednesday, March 21, 2001.

                    TESTIMONY OF MEMBERS OF CONGRESS

           JACKSONVILLE AND VOLUSIA COUNTY, FLORIDA PROJECTS

              CHATHAM COUNTY AND ATLANTA, GEORGIA PROJECTS

               SAN JUAN, PUERTO RICO, TREN URBANO PROJECT

                               WITNESSES

HON. ANDER CRENSHAW, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
HON. JACK KINGSTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    GEORGIA
HON. ANIBAL ACEVEDO-VILA, A REPRESENTATIVE IN CONGRESS FROM PUERTO RICO
    Mr. Rogers. The Committee will come to order. We are 
getting started a little late because of our hearing with 
Amtrak this morning that went over. The first panel, Mr. 
Crenshaw from Florida, Mr. Kingston from Georgia, you are both 
welcome. And we will enter your written statements into the 
record and we invite you to summarize.
    Mr. Crenshaw. Thank you, Mr. Chairman. I will summarize my 
remarks. I want to thank you and Mr. Sabo for giving me the 
opportunity to speak and talk about the needs of our 4th 
District in Florida. Your Subcommittee has consistently looked 
with favor upon my constituents' important projects. And I am 
particularly thankful as a new member of Congress to come 
before you on their behalf again.
    Let me just briefly acquaint you as you probably know with 
the district which runs from the Georgia state line about 120 
miles down beautiful coastline just where Daytona Speedway is. 
And it encompasses the city of Jacksonville which makes the 
district a center for all types of major transportation from 
rail to sea to air.
    We have got a port that has three public and more than a 
dozen private marine terminals, making it a hub of commerce. It 
is one of the nation's top import/export terminals for 
automobiles and other roll-on/roll-off cargo. The city also has 
several air terminals including the fastest growing air 
terminal in Florida, Jacksonville International. And 
finally,CSX Transportation which plays a major role in the Florida 
economy moving nearly 60 million tons of freight, 44 billion in 1990 
alone, is headquartered in Jacksonville.
    And having said that, the projects that I hope you will 
consider with funding in this year's transportation 
appropriation bill may not seem very grandiose, but they are of 
great importance to my constituents and will do a lot to 
improve the quality of life for residents and visitors of this 
area.
    As I know you will hear from many of our colleagues today 
and that some of my Florida colleagues in particular will 
discuss aspects of some of these same projects. I want to 
summarize these before you.
    Number one is a million dollars to complete a 12-mile bike 
route through the Timmuquan Ecological and Historical Preserve 
in Jacksonville. And Congress has provided funds for this 
project in each of the last two fiscal years.
    Seven million dollars for Volusia County Transit, the so-
called VoTran, to replace the old buses that have exceeded 
their useful life. In the past few years, VoTran has had to 
double its size to meet this fast-growing population. And this 
funding will be also used to purchase an integrated fleet 
operation system to assist in managing their burgeoning 
operation.
    Also, six million dollars for bus and bus-related 
facilities for the Jacksonville Transit Authority, the JTA. 
This funding would be used to purchase 12 transit coaches to 
support JTA's bus service expansion program in the growth 
areas, to construct a bus satellite facility and to purchase 
four trollies as part of a downtown trolley system.
    Three and a half million dollars for the JTA to conduct two 
studies authorized by JTA-21 pursuant to a transportation 
alternate study. One and one-half million dollars to expand 
JTA's system of automatic passenger counters which improves 
their operations and logistics. In addition to providing JTA 
with the ability to add an automatic vehicle location component 
to this system, the funding will also help JTA to test a 
delayed green signal system to reduce or eliminate transit bus 
interference with other traffic.
    One million dollars for JTA's job access and reverse 
commute program, Choice Ride, which helps former Welfare 
recipients gain access to jobs and economic self-sufficiency. 
Choice Ride has received nearly two million from the Federal 
Transportation Administration to facilitate this program 
already. One million dollars to construct a terminal for the 
Jacksonville ferry which is run daily from the village of 
Mayport to Fort George Island on the St. John's River since 
1948.
    And finally, I would appreciate the Subcommittee's 
consideration of continued funding for the Military Air Force 
Program, MAP, which is a grant set-aside within the FAA's 
airport improvement program for the purpose of converting 
former military airports to civilian use. Cecil Field at 
Jacksonville which has been a model in transitioning from 
military to civilian use is a designated MAP participant.
    I am well aware of the funding restraints under which your 
subcommittee must operate. Our historic surpluses do not 
absolve any of us from our responsibility to live within our 
means and to make the tough choices that allow us to do so. I 
am hopeful, however, that as you list your priorities, some of 
these projects which are so important to my constituents will 
be included.
    I am certain that as you delve into them, you will 
recognize their worth and help me to return some of these 
federal dollars to the tax payers of the 4th District. I 
appreciate your time here today and would be happy to answer 
any questions. Thank you, Mr. Chairman.
    [The prepared statement of Hon. Ander Crenshaw follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you, Mr. Crenshaw. That was a very fine 
statement. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman and members of the 
Committee. It is a great pleasure to be here today. I am here 
on behalf of two transit systems, one in Savannah, Georgia 
called CAT, the Chatham Area Transit Authority, then the other 
one in Atlanta, Metropolitan Atlanta Rail Transit Authority. 
Both of these have been the beneficiary of funding from this 
Committee in the past and we certainly appreciate that.
    My request today for CAT, the Chatham Area Transit System 
is for about eight million total dollars in three different 
areas. The first part of that would be to replace 22 buses 
which all have between 600,000 and 900,000 miles on them. And 
that would be for $5.6 million.
    The second area for CAT funding is $1.6 million for 
renovations of the facilities including new roofs and 
replacement of concrete pads in the parking garage. And then 
the third is for $800,000 for intelligent transportation 
systems which will permit increased savings for maintenance and 
repair. And finally, just on a philosophical basis, of course, 
we support the job access and reverse commute program. CAT 
needs about a million dollars for that. And this is more of a 
general philosophical statement. But we certainly appreciate 
your funding of that.
    The second request that I am here for, again, is the 
Atlanta one and that is the Metropolitan Atlanta Rail Transit 
Authority. They are requesting two different investments from 
the Federal Transit section 5309 appropriations. The first one 
is for the north rail extension from North Springs--to North 
Springs and passenger facilities, approximately $25 million to 
help out with financing on this regional project. This will be 
used to reimburse the cost of the project, as well as finance a 
portion of 56 new rail cars which will be needed.
    And then the second part of the MARTA request is for $14.5 
million for acquisition of clean fuel buses. And in the past, 
this would actually help purchase 63 compressed natural gas 
fuel buses. Last year, the MARTA folks requested $13 million 
and got $2 million from this Committee. So we are hoping that 
we can come through with a larger request this year.
    And I wanted to say this, also, Mr. Chairman, Mr. Sabo, Mr. 
Serrano, Mr. Clyburn. I have visited MARTA in Atlanta. It is 
outside of my district. But they really are truly running a 
very, very professional organization. Atlanta is growing in 
leaps and bounds. And they have to be very proactive to 
accommodate all the movements that they can. And they are doing 
everything they can with surface transportation. But their move 
toward mass transportation I think is one of the best in the 
country.
    Also, Savannah where I live, ditto, the same sort of thing. 
They are doing a great job. And they do not have the 
metropolitan traffic and all that Atlanta has. But they are 
being proactive to make sure we never get that. So this is not 
something that I am just politically coming in here and asking 
for. I visited with these people both in management and the 
employee side of it. And I am very impressed with their 
operations. So thank you for your consideration.
    [The prepared statement of Hon. Jack Kingston follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you, Mr. Kingston. Any questions? Thank 
you. Now we will hear from the Puerto Rican delegate. Please 
have a seat, Mr. Acevedo-Vila.
    Mr. Acevedo-Vila. Yes.
    Mr. Rogers. You are recognized.
    Mr. Acevedo-Vila. Thank you, Mr. Chairman. I would like to 
thank the Chairman and Members of the Subcommittee for this 
opportunity to testify regarding the Tren Urbano new start rail 
project in San Juan, Puerto Rico. This ambitious project will 
soon provide tremendous environmental and economic benefits to 
the residents and businesses of Puerto Rico and to the tourists 
who visit. I am well aware of the problems concerning cost 
overruns, schedule delays and compliance with the Buy American 
pact during construction of Tren Urbano.
    As Resident Commissioner, I will work with Governor 
Calderon and the new Secretary down there, Jose Izquierdo, to 
confront these issues that are representative of the San Juan 
Transit Administration, the Inspector General's Office of the 
U.S. Department of Transportation, product management and the 
contractors in Puerto Rico.
    We are committed to addressing this problem with proper 
oversight and I will work to make this important project a 
success. Construction of the 17.2-kilometer, 16-station Tren 
Urbano project began in 1996. And today, the project is 75 
percent completed. The first two pairs of our rail car fleet 
have been delivered. Phase 1 has gone from constant to 75 
percent completion in just nine years. This is an impressive 
achievement and demonstrates the effective partnership of 
Puerto Rico Highways and Transportation Authority with U.S. DOT 
and the Federal Transit Administration.
    Tren Urbano is providing significant economic and 
employment benefits during construction. The project is 
generating 10,700 person-years of employment and 1.6 billion in 
direct and indirect wages. During operations, the project will 
employ 578 workers directly and induce another 1,900 jobs. 
Direct and indirect wages during operation will be nearly 50 
million per year.
    Tren Urbano is having a positive economic effect on Puerto 
Rico. Every dollar spent on the project construction is 
generating an additional $2.15 in additional output. Tren 
Urbano construction generates $804 million in manufacturing 
activity and $233 million in service activity. Tren Urbano's 
construction will have a total output of $4.2 billion. And its 
operations will increase annual output in Puerto Rico by $110 
million.
    Congestion, a serious problem creeping into the San Juan 
metropolitan area, will be significantly reduced by the initial 
pace of Tren Urbano. Vehicle miles traveled will be cut by four 
percent and bring the transit mode share to nearly ten percent. 
The light rail project will grow transit ridership over time 
and provide an integrated, multi-modal transportation system 
with buses, publicos, water taxis, pedestrians and automobiles.
    The Commonwealth of Puerto Rico is committed to the 
successful completion of Phase 1 of Tren Urbano and the 
development of future extensions in the coming years. We 
appreciate the support given to our effort by Congress and the 
appropriations committee. I look forward to continuing this 
important partnership.
    The people of Puerto Rico elected a new Administration in 
November's election. To reiterate, Governor Calderon and myself 
are committed to the success of Tren Urbano. We are concerned 
about cost increases due to a series of claims filed by the 
design building contractor. Furthermore, we are concerned that 
the project scale has been extended by up to 16 months to 
September 2003.
    I understand that the Committee has scheduled a hearing for 
March 29, at which time, the Executive Director of the Puerto 
Rico Highway and Transportation Authority will have the 
opportunity to discuss this project status in detail. The Tren 
Urbano project is of critical importance to Puerto Rico. We are 
committed to bringing this project to completion and I will 
respond to any questions in this regard.
    So if you have any questions of a technical nature that are 
not adequately addressed in next week's hearing, I ensure that 
a thorough and prompt response will occur. Again, I thank the 
Chairman and the subcommittee for this opportunity. I look 
forward to working with you on this important issue and 
addressing any questions.
    [The prepared statement of Hon. Anibal Acevedo-Vila 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Thank you very much. We look froward to the 
hearing. And I am sure you do, too. And we will have a chance 
to confer after that. Thank you.
    Mr. Acevedo-Vila. Thank you.
                              ----------                              

                                         Wednesday, March 21, 2001.

           TEXAS HIGHWAY, MOTOR CARRIER, AND TRANSIT PROJECTS


                               WITNESSES

HON. RALPH M. HALL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
HON. RUBEN HINOJOSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
HON. SILVESTRE REYES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
HON. CHARLES A. GONZALEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF TEXAS
    Mr. Rogers. Now we have the Texas delegation, Mr. Hall, Mr. 
Hinojosa, Mr. Reyes, and Mr. Gonzalez. We will make your 
written statements a part of the record. There is no point in 
you having to read the statement. We will read it. If you would 
like to summarize it, we would appreciate that. Mr. Hall.
    Mr. Hall. Yes, Mr. Chairman and members, thank you. I will 
summarize it. You have my written statement. We have two 
requests here today, two projects that are in my district that 
are on the outskirts of Dallas. They border Dallas County. They 
are high-growth areas.
    And the first project consists of extending State Highway 
289 from State Highway 56, to form Market Road, 120 in Collin 
and Grayson County. So they are two counties that join my home 
county there. This is supported by the Texas Department of 
Transportation as well as a number of cities and has all the 
usual endorsements with no real opposition, environmentally or 
otherwise, that we know of.
    The project is eligible for federal aid funds. It is not on 
the national highway system. It would support the national 
highway system though and it is made as a relief area for U.S. 
75 that goes from Dallas North and on into the state of 
Oklahoma.
    I have another request. Actually, this request, estimated 
construction is $25 to $30 million overall. What they are 
asking for on this appropriation I believe is $5 million for 
fiscal year 2002. Now, Grayson County has committed $680,000 
for preliminary engineering. They are performing that at this 
time.
    They have also committed to the purchase of the required 
right of way. This is a highly fast-developing area out there. 
It is a hot area just north of Dallas. Dallas is sprawling over 
this area. And a lot of people are looking for gracious living 
that work in Dallas that have small estates out in this area.
    And then I have an under-privileged area that is in this 
same locale that is more in my home county and part of McKinney 
for the second request. We estimate the cost of the right of 
way to be about $2 million. They are asking for $5 million in 
this appropriation.
    They are willing to expend $2 million first for their 
highway acquisition, right of way acquisition. And they will 
adjust and change the utilities. That is estimated to be about 
$300,000. So it is a county that--and in addition to $680,000 
for preliminary, they put up a lot of money for a little county 
in a small area like this.
    My second request is for what they call the Connection. 
Now, that is a rural public transit department of the Hunt 
County Committee on Aging. That serves Hunt County which is 
just northeast of Rockwall County. And Rockwall County, my home 
county, is just northeast of Dallas. Rockwall County is the 
smallest county of the 254 counties in the state of Texas. And 
we are between Dallas and Hunt County.
    This would serve Hunt and Rockwall Counties. And it would 
provide a demand response service including rural areas of the 
counties. That is for people to have a way to go to work, for 
job training, for service or medical and consumer access. It 
is--and it is a demand for something that is continuing to 
increase. It has increased substantially, I think over 30 
percent in the year--fiscal year 2000.
    They are asking for an earmark of $11,464,048 for the 
purpose of land acquisition use, youth facility construction, 
renovation and relocation. And the reason they have to do that, 
they had some surveys made. And they found that the building, 
the old building that they are operating in now is beyond 
repair. They found out there is asbestos in it. Asbestos 
abatement is required prior to demolition.
    And that is with basically the demolition and the 
rebuilding of the facility that would serve more than just the 
organization that we have referred to here as theConnection. It 
would serve a number of other, I think the Connection Rural Public 
Transit which is the one up at Danford.
    The Texas Work Force Commission Service would work out of 
this building. Hunt County extension training classes and child 
care, local police substation, things like that would also be 
included. And I thank you and would be glad to answer any 
questions.
    [The prepared statement of Hon. Ralph Hall follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you, Mr. Hall. Next is Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Chairman Rogers and Ranking Member 
Clyburn. Thank you for giving me the opportunity to come before 
your Subcommittee today to discuss the transportation needs in 
my district. I want to say that my statement I would hope would 
become part of the record.
    And I would like to just summarize and say that these 
colorful maps were just given to me prior to coming over to the 
Committee room and would like to point out to you that the area 
that I represent from McAllen to San Antonio is an area that 
has really been growing as a result of NAFTA.
    It is an area that has from Brownsville to Laredo, right on 
the Texas border region become the area where 74 percent of 
almost all the 18-wheelers going into Mexico or coming from 
Mexico into the United States and following those routes all 
the way to the Great Lakes is the area that is just booming in 
growth. The second largest MSA is in Laredo. The third largest 
MSA in growth is in the McAllen area that I have my 
congressional office.
    All of this to say that we have grown by 60 percent from 
1990 to 2000. My congressional district is almost at 800,000 
people. And so the area that fails to get the federal 
infrastructure for its highway system is one that was not 
prepared to receive such a large number of tractor trailers 
going through our district. And as a result of that, we are in 
great need of the list that was attached to my talking point of 
requests in the priority order which earmarks plus or minus 
$110 million.
    It is an area that has a million people on the Texas side 
and two million people on the Mexican side. So that when you 
talk about the border-plex of that area within a 60-mile 
radius--or within a 100-mile radius, forgive me, we are looking 
at three million people who are trying to cross those 
international ports. And we just have a bottleneck. We are 
having to widen all the roads. We are trying to get the Highway 
281 which goes from McAllen to San Antonio to meet the 
interstate requirements for it to be an I-69 central for our 
highway system.
    And with these pieces of--you know, of highway improvements 
that are listed here, we would be able to move much faster 
towards having the international 69--or I-69 central that would 
connect us, McAllen to San Antonio and on to Houston, Dallas 
and to the Great Lakes.
    So, again, without having to read this lengthy statement, I 
want to say that our area has been replaced by a double-digit 
on employment for the last 35 years. When I came to Congress 
five years ago, we had a 20-percent unemployment rate. And it 
had reached 12 percent unemployment. And we think that it is 
because of the tremendous growth that has occurred in that 
area.
    We have created a lot of jobs. But our infrastructure is 
just inadequate. And that is why I am here to testify before 
you and hopefully answer questions as to the urgency of being 
able to increase the amount of money that goes to this region 
of the country.
    [The prepared statement of Hon. Ruben Hinojosa follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Well, thank you very much. An excellent 
statement. Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman and members 
of the subcommittee. I appreciate the opportunity of going over 
a couple of very important projects to San Antonio which I 
represent half of the city.
    The first one involves our metropolitan transit which 
provides public transportation over a 1,200-square-mile area of 
San Antonio. It is important to have decent public 
transportation. I like to brag that we are the eighth largest 
city in the nation. But we are also probably the second poorest 
largest city in the nation, with about 25 percent at poverty or 
below which really puts a strain on our public transportation 
system.
    The project that I am referring to is the 21st Century Bus 
Fleet Program. And it is the priority of our transit system 
which is to purchase and operate environmentally-friendly buses 
to its system. I also wish to stress San Antonio continues to 
maintain its status as the nation's largest city that is still 
in compliance with the Clean Air Act. But it is a close call. 
And this would go a long way with maintaining that particular 
designation.
    We are asking and requesting of the committee to provide 
support for this program under the Federal Transit 
Administration's bus and bus-related facilities program. 
Thecost for the program is $3.25 million. Additionally, we would be 
asking that you consider ITS funding to help research and development 
of new fair technologies to serve the community in a better way in that 
the existing fair system is antiquated and requires adequate updating.
    The second project, and briefly, I want to touch on this, 
is more of a local and private development that stands to add 
3,000 jobs to our market. We are losing 19,000 jobs by the 
closing of Kelly Air Force Base. Something of this proportion 
looms large in our economic future. And this is the Freeport 
Business Center in San Antonio.
    The project consists of constructing an off-ramp for the 
Loop 410 which completely, obviously, circles the city to the 
Freeport Business Center which would result in, obviously, safe 
and efficient access. Requesting the funding for this project 
was recommended by the Committee, the national quarter and 
planning and development program. The total cost is $5 million 
over three to five years, $500,000 for design and the remaining 
$4.5 million for construction.
    I do wish to emphasize that this particular project, the 
Freeport project, is the only highway construction project to 
be approved by the city's metropolitan planning organization. 
It is supported by the mayor and all the local, state and 
federally elected officials for the city of San Antonio. Again, 
thank you very much. And I will remain here if you have any 
questions.
    [The prepared statement of Hon. Charles Gonzales follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. We sure miss you at the 
Commerce State and Justice Subcommittee where you advocated and 
championed a lot of our causes for the border.
    Mr. Rogers. Well, I am still on the subcommittee. I just 
have not had a chance----
    Mr. Reyes. Boy, it is hard to schmooze around here, you 
know that. But, Mr. Chairman, we have many needs along the 
border. And I think you and I have had a number of 
conversations. Today, however, we are focused on 
transportation. There are three major areas that we submitted 
for the record. But I just want to recap them.
    We suffer in El Paso from congestion, lack of alternative 
freight routes, an aging bus fleet, deteriorating inspection 
facilities and a host of other consequences as a result of the 
success of the North American Free Trade Agreement and 
literally decades of neglect.
    Last year, we applied for funding for buses. We applied for 
$25 million and got $1 million. This year, we are back again 
with the same plea of $25 million. While we very much 
appreciated the $1 million we got last year, Mr. Chairman, 
frankly, that is nowhere near enough to replace the aging fleet 
that we have to contend with in the city of El Paso.
    In addition, I would just like to inform you that it is not 
just the city of El Paso that we are concerned with. The Sun 
Metro System has responsibility for mass transportation for the 
whole county of El Paso. And it leaves a tremendous void in the 
community that largely is impoverished and without basic 
resources for providing their own transportation and at the 
mercy of very little public transportation. So I would hope 
that this Committee would be very helpful to us this year in 
providing $25 million for this request--the request for buses.
    Second, we find ourselves in a situation where because we 
are a city of about 700,000 people on the U.S. side, Crudad 
Juarez on the Mexican city is a city of about two million 
people. And we do not have any mass transit system in between 
them. So we have proposed a fixed guideway system.
    We have--we were successful in getting the language in the 
Senate last go-around. But we are very much in need of funding 
a study that would hopefully get us on the way towards a--
towards the basic international system that would provide the 
basis for mass transit between a city of two million people and 
a city of about 700,000. It is imperative, as you know, Mr. 
Chairman.
    El Paso is a non-attainment area for air quality. We have a 
number of issues dealing with our environment. And help in the 
transportation end with buses and also the fixed guiderail 
system would be very much appreciated.
    The last thing I want to say is that we are in the process 
of putting together a number of initiatives that we will be 
introducing, part of which will involve transportation funding. 
And I would want to at some future point have an opportunity to 
come and visit with you and our distinguished ranking member to 
discuss those needs for El Paso. And I want to thank you for 
giving me this opportunity.
    [The prepared statement of Hon. Silvestre Reyes follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Well, thank you very much, Mr. Reyes. A fine 
statement. Any of the members have any questions? If not----
    Mr. Hall. Mr. Chairman, may I add that I will not be 
testifying about the Dallas request, part of Dallas is in my 
district. And I support their request that is in the Dallas 
metroplex and does not touch my part of Dallas County. But we 
are very vitally affected by it and I support them totally. 
Thank you very much.
    Mr. Rogers. Well, they were tottering on the brink until 
you said that.
    Mr. Hall. Thank you. All right. Maybe I pulled them out.
    Mr. Rogers. Thank you.
    Mr. Hall. Thank you.
                              ----------                              

                                         Wednesday, March 21, 2001.

   DENVER, COLORADO, SOUTHEAST CORRIDOR PROJECT AND HIGHWAY PROJECTS


                               WITNESSES

HON. DIANA DeGETTE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
HON. THOMAS G. TANCREDO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
    Mr. Rogers. Ms. DeGette and Mr. Tancredo from the great 
state of Colorado. Ms. DeGette, you may proceed.
    Ms. DeGette. Thank you very much, Mr. Chairman. I am glad 
to be back in front of the Subcommittee again this year to talk 
about the important transportation projects in the 1st 
Congressional District of Colorado. And I am also really 
pleased to be joined by my neighbor to the west, Mr. Tancredo, 
who has worked hard with me on these issues.
    Let me talk about a couple of projects. The main one is the 
light rail transit issue in metropolitan Denver. Mr. Chairman 
and Members of the Committee, we have had tremendous success 
with light rail transit in Denver. The Denver regional 
transportation district is one of the nation's largest 
districts. And several years ago, recognizing that incredible 
population growth, the regional transportation district 
developed a plan for light rail which will span the district 
and really begin to address some of our congestion and needs.
    We had our first transit quarter, the central quarter light 
rail, in central Denver which has been a phenomenal success. 
And building on that, all of the elected officials throughout 
the region have agreed upon a plan to build out the entire 
project.
    Last July, we opened a federally-aided 8.7-mile southwest 
light rail quarter which is primarily in Congressman Tancredo's 
district and which over the last six years, Congress 
appropriated $120 million for. That is already very, very 
successful. The combined southwest and central quarters had 
26,000 boardings on the first day of revenue service. And now 
they have surpassed their expectations with more than 32,000 
boardings per day.
    I was here testifying last year and there were some folks 
from central Florida who had lost a ballot initiative for mass 
transit. And I was pleased to report that the regional voters 
in the Denver regional area supported mass transit and the 
light rail by 66 percent in November 1999 to support the 
financing.
    Now what we are trying to work on, Mr. Chairman and members 
of the committee, is the next phase which is the southeast 
phase of the corridor. We now have a full funding agreement in 
place for $525 million for this phase of the project. Last 
year, we received, I believe, $2.9 million for acquisition of 
the right of way and for some planning. This year, we are 
actually going to start bridling the project. And so we need 
$77 million in fiscal year 2002 in order to stay on task, 
literally, to have this project completed by 2006.
    This is a citizen-endorsed proposal. And it will really 
help a lot. And I value the Committee's support of the project 
over the years and hope that we can keep this project going 
forward as we need to.
    Two other quick points that I would like to make that are 
also in my request for Denver. The first one is the rebuilding 
of the I-25, Broadway and Alameda interchange. I have a couple 
of posters right here. If you can stand up there, Paul, the 
committee can see them. We are requesting 40 million dollars to 
complete the reconstruction of the 50-year-old I-25 viaduct 
over Broadway. And you can see that right here on my right, 
your--and your right. You can see what those viaducts here look 
like and why we need to reconstruct those immediately.
    The Broadway Bridge serves more than 200,000 vehicles per 
day. And the Federal Highway Administration recently named the 
bridge as the worst bridge in the state of Colorado. One of the 
reasons this is such a problem is because I-25 is the only 
north-south bridge that runs from New Mexico, through the state 
of Colorado to Wyoming and is taking a tremendous amount of 
traffic.
    The one that you will see over here is the existing I-25 
Sante Fe straddle pier. And that kind of goes without staying 
how badly that bridge needs repair. So, again, I want to thank 
you for all of the support that the committee has given to our 
projects in the Denver metropolitan area and I hope that we can 
keep them all going on schedule. Thank you, Mr. Chairman.
    [The prepared statement of the Hon. Diana DeGette follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman. Your leadership and 
interest in the Denver southeast corridor light rail has 
already been noted and appreciated by my colleague, Ms. 
DeGette. And I want to add my appreciation to it.
    I will not go over--I will not try to be redundant here 
and--but just to suggest to you that of the funding requested 
for fiscal year 2002, more than $50 million is programmed for 
the acquisition of right of way as well as identification and 
relocation of utilities.
    Without sufficient funding for these preliminary costs, the 
Federal Government will be required to pay its share of 
increased property values and financing costs which will almost 
certainly out-pace the annual rate of inflation. If the design 
build methodology proves accurate--which is, by the way, I 
think unique. It certainly is unique on the scale that it is 
anticipated for the southeast corridor--and it proves accurate, 
completion could occur by 2006, two years earlier than 
forecasted, resulting in dramatic savings for taxpayers.
    However, if the regional transportation district does not 
receive sufficient funding from Congress, it may not be capable 
of front-loading the necessary financing to keep the project on 
schedule. I am certainly aware of the Chairman's concerns which 
I share regarding the state's capacity to finance its 47.5-
percent share of the southeast corridors project total cost 
after the passage of amendment 23 which automatically increases 
the safe education spending one percent annually by inflation.
    As you know, Colorado's revenue stream operates under a 
taxpayer's bill of rights, or what we call the ``Tabor'' 
mechanism. This allows for state budget increases based upon 
the rate of inflation plus the rate of population growth. Under 
Tabor, surplus revenues caused by Colorado's expanding economy 
must be refunded to the taxpayer in the next fiscal year.
    Unfortunately, Amendment 23, which was just passed this 
last time around and I just explained, was not properly drafted 
in time to--to time its education expenditures with the two-
year Tabor cycle. The referendum forced fiscal year 2002 
surplus Tabor revenues to be deposited in the state education 
fund in the same year rather than fiscal year 2003.
    In effect, two Tabor refunds were spent in one fiscal year. 
This caused a $212-million funding shortfall which eliminated 
the Colorado State Department of Transportation's normal 
allotment of sales tax revenues. Fortunately, CDOT's funding 
was replenished after the passage of emergency legislation HB-
1267 in the Colorado General Assembly.
    Because Amendment 23 is meant to continually draw from the 
state Tabor surplus, one naturally wonders when if the state's 
county does not provide a surplus. The state of Colorado's 
senior economist, Julie Hart, attempted to forecast such a 
scenario. In her analysis, she found that even a fairly 
significant economic downturn would create negligible results 
on CDOT's future revenue projections.
    For instance, the general fund revenue growth went down 
from 8.2 percent per year, its average rate of growth in the 
last 13-year period, to 5.8 percent which is, of course, a 
substantial degree. CDOT's allocation from state sales tax 
revenues would be expected to decrease by about two million 
dollars over the next 25 years combined.
    Therefore, if such an economic depression hit in Colorado, 
it would not impact the state's transportation budget until 
long after the southeast corridor multi-modal project is 
completed. Mr. Chairman, it is fair to assume that no multi-
modal project in our state's history has received the level of 
support and commitment from Colorado's voters, legislators and 
its governor as the project we are here to discuss today and as 
my colleague, Ms. DeGette, has indicated.
    While I hope that I have addressed any questions that may 
remain from the subcommittee regarding the financing of this 
project, I can assure you that after extensive research, I no 
longer have concerns of my own. I shared many of them at the 
outset of this deliberation. Mr. Chairman, I thank you for the 
opportunity to address the subcommittee.
    I would only enter into the discussion that as I was flying 
out here, Mr. Chairman, I took the paper with me, the Denver 
Rocky Mountain News. This was two days ago, ``Amazing Growth.'' 
It talks about Colorado is the third fastest-growing state in 
the nation and the county in which this will serve most of 
Douglas County with--and then, of course, it will be coming 
right up through Denver--is the fastest-growing county in the 
nation, I believe. Am I not correct? And the growth is 
absolutely astronomical as is indicated by this headline.
    There is no way that we can possibly deal with this without 
the construction of this particular part of the system and 
without the Federal Government quickly moving to complete its 
part of the whole funding agreement. And last year's sort of 
down-payment on it was certainly appreciated. But we definitely 
need to have the $77 million that represent sort of a catch-up 
so that we will be able to phase this thing out over the six-
year life of the full funding agreement.
    [The prepared statement of Hon. Tom Tancredo follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. All right. Thank you very much, both of you.
    Ms. DeGette. Thank you.
    Mr. Rogers. Questions? If not, thank you very much.
    Ms. DeGette. Thank you.
    Mr. Tancredo. Thank you, Mr. Chairman.
                              ----------                              

                                        Wednesday, March 21, 2001. 

                       NEBRASKA HIGHWAY PROJECTS


                               WITNESSES

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
HON. TOM OSBORNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Rogers. Now from the Nebraska delegation, Mr. Bereuter, 
Mr. Osborne, come around, please. Welcome, gentlemen. And if 
you will summarize your written statements, we will enter them 
in the record and you can verbally summarize for us if you 
would. Mr. Bereuter, you are recognized.
    Mr. Bereuter. Thank you, Chairman Rogers and Congressman 
Sabo and Members of the Subcommittee. I appreciate the 
opportunity to testify in support of funding for several 
projects and programs of interest to my constituents and the 
citizens of Nebraska. There are in three different categories 
four projects that I am providing information. And by April 
6th, with the help of the Nebraska Department of Roads, I will 
be submitting responses to the questionnaires that you are 
using this year with respect to projects.
    Additionally, I would mention that some of my Nebraska and 
Iowa colleagues will be submitting a joint request for a 
funding of the initial study elements for a two-bridge project 
across the Missouri River involving three Congressional 
districts, of course, plus the Senators from the two states.
    The first I wanted to mention specifically is the Lincoln 
Beltway or South Beltway project endorsed by the Department of 
Roads and the city of Lincoln. We have recently completed a 
construction of an expressway which leads now in to what has 
become a major arterial, Highway 2 in Lincoln. We had a traffic 
death at an intersection with a semi just two days ago and it 
makes about four now this year.
    And the South Beltway is just completing the major 
investment study and the environmental impact statement. And I 
am requesting Congressional assistance for this significant 
amount of money, $6.75 million. Additionally, I have 
information regarding a Lewisville bypass study which is a 
reversal on the part of the local citizens in that area and a 
decision to proceed with a bypass for that community, a very 
small community, but a major amount of traffic passing through 
it related to state parks.
    The next category is the intelligent transportation system, 
something this committee has--subcommittee has seen many times. 
And I am requesting five million for this Department of Roads 
in Nebraska for its intelligent transportation system. This 
funding would be used to facilitate travel efficiencies and 
increase safety within the state. And I have provided 
information about how it will be used as operation system.
    Finally, in the category of transportation and community 
and systems preservation program, TCSP projects, I am 
requesting $325,000 to assist the small community of Ponka, 
population 1,200, with a 1.7-mile trail connecting the state 
park, the Missouri National Recreation River Corridor and the 
city of Ponka. And I would like very much to see this funded 
before the Lewis and Clark bicentennial celebrations and 
ceremonies that take place.
    This is a major stop on Lewis and Clark's journey west. And 
the city of Ponka is about 1.5 miles from the bluffs of the 
Missouri River where the campsite took place and which is now 
the site of a state park. So those are the highlights. I asked, 
as suggested, that the entire statement be made a part of the 
record, Mr. Chairman. And we will submit the questionnaire 
information completely.
    [The prepared statement of Hon. Doug Bereuter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. Okay. Thank you. It will be entered as part of 
the record. And we thank you for your testimony. Coach.
    Mr. Osborne. Hello, Mr. Chairman. I would like to thank you 
for giving me this opportunity to explain some of the 
transportation issues facing Nebraska's 3rd District. This 
district is one of the largest and one of the poorest and one 
of the most rural in the country.
    I currently represent over 82 percent of the land mass in 
Nebraska or over 63,000 square-miles. I also represent four of 
the top ten poorest counties in per capita income in the 
nation. Actually, I represent the one, two, three and seven-
rated counties which is not a good top ten list to be on. For 
this reason, we have several transportation requests designated 
as sort of a widespread district and sparsely populated areas.
    Today, I would like to focus your attention on five 
initiatives for the 3rd District of Nebraska that I have 
identified and that have been endorsed by the Nebraska 
Department of Roads, Nebraska's Governor, and the communities 
that those projects affect. Additional details about these 
projects have been included in my written testimony and 
submitted for the record.
    Specifically, I am requesting that the Appropriations 
Committee approve funding for, number one, constructing a 
viaduct in Elm Creek, Nebraska at a cost of $3,650,000. 
Nebraska's is the most heavily trafficked rail corridor in the 
world. The largest rail switching station in the United States 
is located in my district.
    For this reason, railguard crossings are crucial for public 
safety issues. And Nebraska has enormous need. For example, the 
Elm Creek viaduct would replace a dangerous intersection in the 
community that has claimed five lives since 1988. Most 
recently, on February 2nd of this year, a 13-year-old girl was 
killed and less than 12 hours later, the town doctor was hit 
while driving through the intersection.
    The second request is adding two lanes, grading and 
surfacing to six miles of highway between Scott's Bluff and 
Minnitaire, Nebraska in the Nebraska panhandle through the 
borders and corridors discretionary program at a cost of 
$6,350,000. This is a heavily traveled highway and is a small 
part of the Heartland Expressway that is designed to connect 
Denver, throughout the city, South Dakota.
    Number three, constructing a viaduct in Sutherland, 
Nebraska at a railroad crossing at a cost of $3.16 million. The 
Sutherland Crossing poses the same dangers outlined previously 
in discussing the Elm Creek Crossing. Many fatalities have 
occurred at this particular juncture.
    Number four, providing an earmark of funding for a 5309 
grant to pay for a feasibility study to examine thepossibility 
of constructing a combined maintenance-storage facility for the public 
transportation fleet in use by the Reach Your Destination Easily, or 
the RYDE program, in Buffalo County, Nebraska at a cost of $75,000.
    R.Y.D.E. is the first locally brokered transportation 
system in Nebraska. Hospitals, nursing homes and churches have 
proved their vehicles to for a unique public transportation 
system serving Carney, Nebraska and the surrounding areas. And 
this facility will simply house those vehicles which now are 
sitting out in the elements and are certainly bearing some cost 
for doing that.
    And then five, as Congressman Bereuter mentioned earlier, 
building a statewide joint operation center for the intelligent 
transportation system's integration component as defined in 
Section 5208 at a cost of $5 million to be matched by non-
federal funds.
    Again, I would like to thank you for allowing me to appear 
today and sharing some of the needs of Nebraska's 3rd 
Congressional District. I might just add this, this area is 
losing population, particularly its young people. There is 
considerable economic distress throughout the district because 
of the troubled agricultural economy. And better transportation 
really is critical to economic recovery. And so I appreciate 
your willingness to listen and to help.
    Thank you.
    [The prepared statement of Hon. Tom Osborne follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. Coach, it sounds like my district. 
Thank you very much. Any questions? Thank you.
    Mr. Bereuter. Thank you, Mr. Chairman. You may not know 
that there is one item that is a duplication between the two of 
us. So we both endorse it.
                              ----------                              

                                         Wednesday, March 21, 2001.

                        OREGON TRANSIT PROJECTS


     WASHINGTON STATE HIGHWAY, MOTOR CARRIER, PIPELINE AND TRANSIT 
                        INFRASTRUCTURE PROJECTS


                               WITNESSES

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
HON. RICK LARSEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OREGON
    Mr. Rogers. Yes, noted, sir. Okay. Mr. Blumenauer and Mr. 
Larsen representing Oregon and Washington. Welcome. You have 
submitted your written statements as part of the record and we 
would invite you to quickly summarize, of course.
    Mr. Blumenauer. Thank you, Mr. Chairman and members of the 
committee, Mr. Sabo and Mr. Serrano. I appreciate the support 
that we have received from this Committee in the past for 
priority projects in the Portland metropolitan area. It has 
been invaluable and has allowed us to move forward with a 
number of critical investments.
    Our top appropriations priority for the region in the next 
fiscal year is the continuation of our interstate MAX light 
rail project. Last September the FTA granted this project a 
full-funding grant agreement which included a $70-million 
appropriation level in fiscal year 2002 from the Section 5309 
New Starts Program. I am here today in strong support of this 
recommended funding level.
    Utility relocation is currently underway with more than 
$120 million of the $350 million budget already committed. Last 
year's appropriation bill did include $7.5 million for the 
project, a significant shortfall from the $40 million requested 
by the administration. We anticipate that the shortfall in the 
2001 appropriation will be recovered in the course of the 
annual appropriations between now and the completion of the 
project currently scheduled for September 2004.
    In addition to the interstate MAX light rail project, I 
also request the Committee's assistance with the $7 million 
appropriation of the Section 5309 bus funds for the South 
Corridor transit improvement program which includes the 
construction of several transit centers in the Portland 
metropolitan regions.
    These projects will greatly enhance the quality of transit 
service and internodal connections in our metropolitan area. 
The region has several other locally-funded priority 
transportation projects underway that we are not requesting 
federal funding for this year. But I want to highlight them for 
the subcommittee because I believe they illustrate the region's 
ability and local commitment to build a comprehensive 
transportation system.
    This year, we are going to open a 5.5-mile extension of our 
light rail system to our airport. This will open in September 
of 2001. It is a project being built with a budget of $125 
million and is a very innovative public-private partnership 
that involves no federal fundingunder new starts.
    There is a street car system that will begin service in 
Portland this summer that will supplement our light rail system 
and bus service. Except for some preliminary engineering from 
HUD, there has been no federal transportation moneys used to 
construct this project, as well.
    Also, our region is moving forward on the development of a 
commuter rail program that will connect southern and western 
counties in the Portland metropolitan area to the MAX system 
for which the committee did appropriate funds in 2000 and 2001. 
And we would hope there would be some consideration in the 
future.
    I deeply appreciate the opportunity to appear before you. I 
appreciate the fact that you have a very difficult situation as 
I listen to others before you. But I hope that there will be 
some careful consideration to our requests from Portland. I 
think you have seen in the past we have made those dollars 
stretch a long, long way.
    [The prepared statement of Hon. Earl Blumenauer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Indeed. And we will give it very close 
consideration.
    Mr. Blumenauer. Thank you, sir.
    Mr. Rogers. Mr. Larsen.
    Mr. Larsen. Good afternoon, Mr. Chairman and Mr. Sabo, Mr. 
Serrano. Thank you for the opportunity to testify here before 
you this afternoon. I was just recently elected as 
representative from the 2nd District in Washington State and 
additionally been appointed to serve on the House 
Transportation and Infrastructure Committee. This assignment is 
important to my district, as well as the entire Puget Sound, 
because we do rely on a variety of transportation modes which 
directly impact our economy and our quality of life.
    I want to give a brief description of my district to give 
you a flavor of what the transportation modes mean. We are 
located north of Seattle. It starts in Everett and goes to the 
Canadian border. So border congestion is always a concern in 
the district.
    The district is also home to the Ports of Everett and 
Bellingham, of Anticordis and of Skagett County, as well as 
having a large Burlington, Northern Sante Fe Railroad present. 
As home of the San Juan Islands, three separate ferry lines 
provide crucial daily service.
    With regards to highways, as you may already know, Puget 
Sound experiences probably the third most traffic congestion in 
the country according to some studies. And much of this 
congestion is along I-5 which is one of the major north-south 
corridors in the country. So you can see, Mr. Chairman, that 
rail, highways, water transit and even aviation, of course, all 
come together in way that keeps the Puget Sound region's 
international economy moving.
    And with that, I would like to outline just a few of the 
transportation ends in the second district. The city of Everett 
located in the heart of my district is currently redeveloping 
its waterfront. And what the city of Everett needs is to 
develop and complete the Forty-first Street over-crossing 
project which is going to provide a key access point to the 
riverfront and enhance frame-ability and economic development 
in the region.
    On the north end of the district is the Guide Meridian 
Corridor in Washington County which abuts to the Canadian 
border. It is becoming increasingly congested. Increasing auto 
and truck traffic from the Guide Meridian Corridor is choking 
mobility and reducing the safety for this important corridor 
that is a national highway system route, a high accident 
corridor, part of the strategic highway network and a top 
regional priority, as well, for improvement. This route which 
carries a noble proportion of Canadian commercial traffic into 
Washington State particularly impacts small towns like the city 
of London.
    I also want to touch on another issue with regards to our 
border. With $1.2 billion in trade crossing this border every 
day and 200 million travelers crossing each year, improving the 
infrastructure and technology of the northern border is 
essential in improving safety and efficiency.
    Frequent periods of congestion at the U.S. and Canadian 
ports of entry on U.S. Interstate 5 and British Columbia 
Highway 99 corridor add significant travel time to regional and 
cross-border trips, deters significant amounts of regional 
travel and impose costs on regional residents, businesses and 
tourists. As a result, we are seeking some funding for a 
feasibility study for cross-border park and ride, one on each 
side of the border.
    Daily commuters who choose to avoid auto line-ups at 
inspection facilities would choose rather to park their car at 
a park and ride lot and then to proceed to inspection agency 
facilities for inspection and continue to nearby transit 
connection.
    There is one last point I would like to make. My district 
includes the city of Billingham. And a year and a half ago in 
Billingham, a pipeline leak occurred and an explosion occurred 
killing two ten-year-old boys and one 18-year-old man. We shall 
not address pipeline safety, improving pipeline safety in this 
country. But I would like the Subcommittee to consider funding 
to add five additional pipeline inspectors to the Office of 
Pipeline Safety so that we can have more qualified personnel 
inspecting these pipelines which run through so many 
communities across our nation including my own.
    With borders, corridors, rail, water transit, air all 
coming together in a very unique way in the Puget Sound area, I 
hope that you recognize that these are important not only for 
the region, but for the national economy. And I appreciate the 
opportunity today to address the partial needs. I will have a 
more complete letter coming to the committee within the next 
couple of weeks. Thank you, Mr. Chairman.
    [The prepared statement of Hon. Rick Larsen follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Well, thank you very much for some good 
testimony. Thank you so much, both of you. Any questions? If 
not, thank you.
    Mr. Larsen. Thank you.
                              ----------                              

                                         Wednesday, March 21, 2001.

    SOUTHERN CALIFORNIA HIGHWAY, MAGLEV, AND TRANSIT INFRASTRUCTURE 
                                PROJECTS


                               WITNESSES

HON. LORETTA SANCHEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. JOE BACA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. ADAM B. SCHIFF, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Rogers. Now we will hear from a series of California 
panels. Mr. Baca, Mr. Sherman, Ms. Sanchez, Adam Schiff are on 
the first panel. Ms. Sanchez, you are recognized. We will make 
your written statement a part of the record. We invite you to 
quickly summarize.
    Ms. Sanchez. Great. I will do off the cuff then for you, 
Mr. Chairman. And I appreciate the opportunity to testify 
before the Committee. As you know, I represent the central 
portion of Orange County. And there are a couple of projects 
that we are very interested in trying to continue to fund and 
find solutions to.
    In California, as you know, we have had a lot of rapid 
growth. Our economy has been strong. That may change with some 
of the electricity issues going on. But we have been--had a 
very strong economy. And what that has created is in some cases 
an imbalance of housing and job areas which means a 
transportation problem.
    But the two that I would like to address, the first one 
would be with respect to the city of Anaheim. In the city of 
Anaheim, we have Disneyland. And this past February, just a 
month ago, we opened up a second theme park right across the 
street from Disneyland which is another Disney facility.
    And this whole area now is called Disney downtown and the 
two Disney parks. And we have actually done a lot of creative 
things with respect to how tourists come in and what we do 
about the traffic problem. One of the things that we have done 
is some off-ramps directly into, for example, parking 
structures so that we do not bring tourists who are coming to 
these attractions right down onto our surface streets.
    And because of that, one of the things we have done is to 
start this resource area sort of transportation transit 
project. And this last year, we were able to get about $250,000 
of funding towards that. And we have another request to 
continue to help with this transit system that we have with 
clean fuel emissions, et cetera, in the vehicles and also 
electric people-type of movers going through their trolley 
ways.
    The second project that I have which is very particular to 
the central portion of Orange County but really connects a lot 
of the office areas is really one of the major backbones there, 
is the--what we call the regional freeway--the 22 Freeway. And 
we have asked for funds from the city of Garden Grove to help 
with that particular project. It is right now in the central 
portion of Orange County probably the most congested freeway.
    At any time in the day or night now, you can get on there 
and stop and go under ten miles per hour most of the time. So 
it is very, very congested. We are looking at trying to do some 
sort of car pool or HOV lanes or something of the sort to help 
the widening and give more capacity to this particular skeletal 
structure of a freeway.
    I might add in case you think that we are just coming to 
the Federal Government to ask for money, that is not the case. 
In Orange County, we have now for many years had the foresight 
of understanding that we were a mecca for transportation for 
employment on a regional basis. And so about 15 or 17 years 
ago, we actually put in measure that we have to tax ourselves 
for transportation projects.
    And so the funds that we ask are actually minimal compared 
to the type of funds that we have been spending locally to try 
to address this issue of moving people to jobs and to housing 
markets in other areas of the surrounding regional vicinity. 
Thank you, Mr. Chairman.
    [The prepared statement of Hon. Loretta Sanchez follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you, Ms. Sanchez. Mr. Baca.
    Mr. Baca. Thank you, Mr. Chair. I know that you have my 
written statement that has been submitted outlining seven pages 
of requests. I really would want to thank you and thank you for 
giving me the opportunity to testify this morning on what I 
feel is important for the Inland Empire and what is good for 
our region as we look at the majority of the growth. And I look 
forward to working on a bipartisan fashion with my colleagues 
to ask Congress to address these needs.
    The Inland Empire of southern California is one of the most 
rapidly growing and expanding regions in our country. San 
Bernandino is one of the largest and most populous counties in 
southern California. The California Department of Finance 
estimates by the year 2020 that the population in San 
Bernandino County will increase by over 60 percent. The Inland 
Empire represents the county's economic backbone and a major 
thoroughfare for the communities and commerce of southern 
California as well as for much of the state.
    Our transportation infrastructure, the interstate highway 
system and the roads and rails and the criss-cross in the 42nd 
District are no longer adequate to meet the current demands and 
much less the future growth in the Inland Empire. Highway 
gridlock is a major problem. And nearly 60 percent of all goods 
that enter San Pedro or that leave Los Angeles metro. via 
trucks or the rail systems. And in our area, weare considered 
the hub of the trucking industry in the Inland Empire.
    The forecast for the 20/20 show that trucks will consume 
the entire capacity of the State Route 60. For this reason, 
Southern California Association of Governments is requesting $5 
million for preparing of an analysis for implementation of a 
truck land on State Route 60. The Inland Empire is also seeking 
a one-time appropriation of one million to the San Bernandino 
Associated Governments for the purpose of construction of vital 
transportation improvements, rail improvement, freight 
separation, infrastructure and safety in the amount of $570 
million.
    Interstate 10 interchange improvements of $835 million, the 
Alameda Coordior which is very important. As we begin to fund 
that, we need to continue to improve funding all the way into 
the San Gabriel, into the Ontario and into the Inland Empire. 
We are requesting $1.4 billion in that area.
    It is important that the Alameda Corridor can serve all 
lanes for freight traffic from the San Bernandino area all the 
way to Mexico. We must continue to pursue funding for important 
projects. The Inland Empire continues to need federal funds to 
correct dangerous railroads, grate crossings relating to the 
Alameda Corridor East. And many of these grate crossings once 
were in the countryside. Today, these railroad crossings are 
downtown hazardous areas to people. It is about safety. It is 
about growth. And it is about creating jobs in the Inland 
Empire.
    One of my top transportation requests is $5 million for the 
city of Fontana, Cypress Avenue overpass with $2.5 million 
would be used this year and with only grate separation in an 
18-mile--it is the only one in an 18-mile area. The total cost 
for the overpass is about $12 million. I am also requesting $5 
million on behalf of the Southern California Association of 
Governors for the California MAGLEV development program. Last 
year, as you know, we requested $10 million for developing a 
75-mile MAGLEV system between Los Angeles International 
Airport, March Air Force Base and, of course, to make sure that 
it went through my district and Congressman Lewis' district via 
San Bernandino Airport.
    Although the California project was not selected as one of 
the two final MAGLEV projects for advancement to the next--for 
the next round of funding for federal funding, the Secretary of 
Transportation encouraged all of the projects to continue the 
development efforts. We ask for your support in this endeavor, 
as well. The appropriation requested enables California 
projects to continue pre-deployment and planning and 
initiatives and environment reviews.
    As I noted, I have a number of other requests that I have 
submitted which are included in the written record. These 
include many requests for the city of Colton and the city of 
Rancho, Cucamonga, the city of Rialto and the city of San 
Bernandino. And as the Lord said, ``I ask not'', but I ask for 
the 42nd Congressional District. Thank you.
    [The prepared statement of Hon. Joe Baca follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. Well, so far, you have the record 
for the total amount of your requests. I did not total them up. 
But one of them was for a billion dollars. And then that is 
only one of ten or 12 requests.
    Mr. Baca. Well, I am not shy about asking, Mr. Chairman, on 
behalf of the area that I represent.
    Mr. Rogers. More power to you.
    Mr. Baca. Thank you, Mr. Chairman.
    Mr. Rogers. Well, thank you very much for your fine 
testimony. Mr. Sherman.
    Mr. Sherman. Thank you, Chairman Rogers. I also want to 
thank the ranking member for being here. I am proud to join 
with my colleagues from the greater Los Angeles area which is 
the most congested area in the United States, I would like to 
think the most worthy of your help. I want to thank this 
Subcommittee for the support it has shown in the past, not only 
to projects in my district, but throughout the Los Angeles 
area.
    The projects I have before you today are of regional 
significance. And nothing shows that more than that the first 
project is not even in my district. Rather, it is in the 
district of my colleague, Elton Gallegly. We are building a new 
significant California State University campus in Ventura 
County. Roughly $40 million was budgeted for the transportation 
side of this 7,000-student campus. Almost all those students 
will be commuters.
    And yet they have run into some unanticipated costs, 
chiefly with a change of the seismic requirements that are 
imposed. And so they have $5 million of unanticipated costs. I 
am a lot shyer than my colleague. And accordingly, I am asking 
for $500,000 or ten percent of the amount of the unanticipated 
cost in an earmark from this Subcommittee.
    I would point out that my colleague, Elton Gallegly, is 
presently putting together his request. He is probably closer 
to Mr. Baca than myself in personality. And he may be 
requesting a greater percentage. And I would certainly join 
with him in that effort. But at this point, I am limiting my 
request to $500,000 toward this five-million-dollar 
unanticipated cost.
    The second issue I would like to bring to your attention is 
the very over-crowded Ventura Freeway, the 101 as it goes 
through the San Fernando Valley. Naturally, a number of people, 
especially those making short or moderate-length trips, have 
decided to try to stay on surface streets simply because this 
freeway is jammed for much of the day. And some of those 
surface streets are in need of help to deal with this 
additional traffic.
    The first project that I have in this area involves 
improvement to America's best named boulevard, Sherman Way, as 
it goes through the San Fernando Valley. Both from a 
transportation efficiency standpoint and also from a safety 
standpoint, we need $240,000 to be added to local funds in 
order to provide immediate and other safety improvements on 
Sherman Way.
    A second project in the same general area is to deal with 
the Balboa Boulevard and Victory Boulevard intersection which, 
again, has been impacted by the over-burdened 101 Freeway. This 
is a request for $1.82 million to improve that intersection.
    Moving away from highways, I have two requests for bicycle 
paths in my area. And the first of these is a necessary link 
that would link up a regional bicycle path system that would 
run all the way from the city of Los Angeles' border all the 
way deep into Ventura County. And the request here is for 
$500,000 to go along with $200,000 of local funding.
    The second is a request for half the cost of improving a 
bike path that goes in front of the Oak Park High School. And 
we should be getting more students to that location that are 
younger than high school because they are building the new Oak 
Park Library there.
    Finally, in the area of trails and paths is a request for 
funds to deal with new access to the Santa Monica Mountains 
National Recreation Area. This is the most used unit of the 
national park system. And the city of Gorra Hills is a gateway 
to that national recreation area. They have already invested 
substantial local funds. And providing a million dollars would 
allow us to gain easements, bicycle and horseback and hiking 
trails into the national recreation area.
    I have two other projects listed, as well. But I thank you 
for your time.
    [The prepared statement of Hon. Brad Sherman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Well, thank you, Mr. Sherman, for your fine 
statement. Mr. Schiff.
    Mr. Schiff. Mr. Chairman, ranking members, I thank you for 
the opportunity to testify. I appreciate your making the time 
for us to come and speak personally on our priorities. I would 
like to highlight several transportation projects in the 27th 
District that will make a great deal of difference to people 
that I represent, as well as people throughout the region.
    The primary one I wanted to address--and I have a letter 
from David Dreier and myself requesting financial support on 
this--involves the Blue Line light rail which will go from 
downtown Los Angeles up to Pasadena and Sierra Madre. That 
corridor is one of the heavily mass transit-dependent 
populations anywhere in L.A. County.
    The project was originally under the jurisdiction of the 
MTA, Los Angeles. They were badly mismanaging it, suspended it. 
And as a state senator, I introduced legislation to take that 
away from the MTA and establish a new joint powers agency that 
could use design build contracting and other mechanisms to 
bring the cost down which it did.
    It reduced the cost of the project in the neighborhood of 
one to $200 million less than it was budgeted for. The agency 
is doing an extremely good job in keeping that project on track 
and on budget. And what I wanted to address today were some 
things beyond the scope of the project that are I think very 
important to its full utilization.
    And I am asking the Committee's consideration along with 
Congressman Dreier for $9.1 million. That would provide $3.5 
million in bus and bus facilities, $2 million in transportation 
and community and system preservation funds, $1.5 million in 
intelligent transportation system funds and essentially would 
allow access to the light rail coordination with bus and other 
transportation systems at the light rail stations, 
predominately at the Sierra Madre and hub of that system.
    And if one of my staff members could pass this letter out 
to the committee--I am not sure you have the letter from Mr. 
Dreier and myself. But that is I think the most significant 
transportation need in the region. We are adjacent to the 
Alameda Corridor. We are a heavily congested area. And this 
light rail when completed will move tens of thousands of people 
every day very cost effectively.
    The light rail--the Blue line light rail currently from 
downtown to Long Beach has among the highest ridership in the 
nation of any light rail. And this extension shows the promise 
of even exceeding that ridership. And these additional 
augmentations will allow even greater utilization of the line 
in terms of parking structures, in terms of buses and other 
opportunities to move people in and out of the light rail 
system.
    In addition to the light rail request, I would also ask 
your consideration for $1.3 million for bus facilities for 
circulator buses for south Pasadena as well as interaction with 
the light rail system at a different point in the light rail. 
Seven hundred thousand of that would also go for compressed 
natural gas bee-line buses in the city of Glendale.
    And finally, Mr. Chair and members, I would ask for your 
consideration for funding for sound walls in a couple of the 
communities that I represent in Glendale and in Lockinyata that 
experience a real degradation in the quality of life in the 
communities adjacent to those freeways because of the high 
utilization, the high noise pollution. And I would ask for your 
consideration of $1.5 million for freeway sound walls in that 
region.
    I very much appreciate your paying attention to all of the 
needs in these communities. I know the budget constraints are 
significant this year as in every year. And the demands on your 
time and attention are also significant. I very much appreciate 
the opportunity to testify before you today.
    [The prepared statement of Hon. Adam Schiff follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Well, thank you very much. I thank all of you 
for your testimony. Any questions? Very good. Thank you.
                              ----------                              

                                         Wednesday, March 21, 2001.

       SAN DIEGO, CALIFORNIA, HIGHWAY, BORDER, RAIL, AND TRANSIT 
                        INFRASTRUCTURE PROJECTS


                               WITNESSES

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. SUSAN A. DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. DARRELL ISSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Rogers. Now we will hear from Bob Filner, Susan Davis 
and Darrell Issa from California. Mr. Filner and all of you, we 
will enter your written statements in the record and we invite 
you to briefly summarize.
    Mr. Filner. Thank you, Mr. Chairman, and thank you, Mr. 
Sabo, for being here. You have my written statement. I want to 
just speak wearing two hats. One is as a Congressman who 
happens to represent a district on an international border, 
this being Mexico, with specific infrastructure transportation 
problems caused by that location which we do not believe are 
local kinds of concerns, but are national and international 
responsibilities.
    And I want to speak briefly also as an urban Congressman in 
an area trying to wrestle with traffic congestion and new and 
innovative approaches to dealing with that.
    As a border Congressman, I represent a district that is the 
home to the biggest border crossing in the world. The most 
vehicles and people pass through my district than any other two 
nations in the world, almost 50 million vehicles a year.
    When NAFTA was passed, the truck crossings through my 
district which represent almost 40 percent of the surface trade 
between Mexico and the United States went from a few hundred 
trucks a day to 3,000. There is no interstate highway that 
connects our border crossing with our interstate highway 
system. These 3,000 trucks and all the attendant accessories to 
trade that NAFTA has stimulated goes through a city street that 
has been enlarged several times, but is still a city street.
    We have planned Route 905. That has been partially funded 
through our border infrastructure program and other federal 
grants. Also, state and local grants have been involved with 
that. It is a true partnership. We are just under 50 million 
short of completing the funding for that incredibly important 
road that would--again, we feel is a national responsibility 
brought about by national policy and national trade concerns 
and priorities. That is State Route 905.
    In addition, we have a possibility for rehabilitating an 
old railroad line which would connect San Diego and Arizona and 
give San Diego for the first time direct rail connection to the 
east to the transcontinental railroad system and would make San 
Diego for the first time--give San Diego for the first time an 
ability to be a real commercial port.
    Interestingly enough, that train was built at a time when 
the border had no real significance. And the train followed the 
topographical necessities which means that half of it is in 
Mexico and half of it is in the United States. I think that is 
a tremendous opportunity for a bi-national project that would 
open up job opportunities, thousands of job opportunities for 
people on both sides of the border. It is a trivial financial 
and a trivial technical job to rehabilitate that line.
    What we need is a bi-national cooperation which we are 
working for and then some support which I outline in my 
proposal for short line railroads which is a concern of many 
members throughout this nation to rehabilitate and revive 
certain short line railroad lines which would give both rural 
and urban centers new opportunities for jobs and 
transportation.
    My colleague, Ms. Davis, will come in on the priorities 
that our city has in rapid transit light rail. These items I 
mentioned are the top priorities of our county and city and 
regional authorities. And I speak for the whole region on those 
priorities.
    Lastly, Mr. Chairman, if I may, San Diego is embarking on a 
radically new and innovative approach toward dealing with 
traffic congestion, a vision for transportation that goes 
beyond the congested highways. Unfortunately, they do not 
operate in the same fiscal calendar as we do. And a specific 
proposal is not ready at this moment.
    But we would hope to bring to you at some point soon 
proposals that would allow the planning and the modeling, 
demonstration projects, for a new approach toward urban 
transportation involving buses that are more subway--look like 
subway cars more than buses in terms of the stations having a 
direct access to the bus at the same grade level--I guess I 
forget the exact terminology--and have multi-doors throughout 
this--like a subway car, buses going on--with a signal priority 
and certain rights of way which would allow the connection of 
job centers and urban villages as we call them in San Diego in 
ways that do not require more freeways.
    We think that is incredibly important in terms of smart 
growth and in terms or urban transportation. And we will be 
coming to you at some point with some specific proposals. And I 
thank the Chairman.
    [The prepared statement of Hon. Bob Filner follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Question. On page 6 of your written statement, 
speaking of Highway 905, you mentioned the figure $264 million. 
And then in the next paragraph, you wind up requesting $46.4 
million.
    Mr. Filner. Right.
    Mr. Rogers. Am I correct that the $46.4 million is the 
amount that would meet the full project cost?
    Mr. Filner. Yes, sir. All the moneys except for that $46.4 
million have been obtained through county, city, state and 
federal grants.
    Mr. Rogers. And so you are still $46.4 million short----
    Mr. Filner. Right.
    Mr. Rogers [continuing]. Of the $264 million.
    Mr. Filner. Exactly.
    Mr. Rogers. Okay. Got you. Thank you.
    Mr. Filner. Thank you. Thank you for clarifying.
    Mr. Rogers. Thank you very much. Now, let us see, Ms. 
Davis.
    Ms. Davis. Thank you. Thank you, Chairman Rogers and 
Ranking Member Sabo. I appreciate the opportunity to address 
you today. I am here to talk to you about three of our transit 
projects that we would love to have you partner with us and 
also two of the critical highway projects.
    Congressman Filner mentioned the first of one of the 
trolley projects and that is the San Diego Trolley, Mission 
Valley East extension. Our Federal Government, state and local 
leaders have worked very hard on this light rail system in San 
Diego. And we are looking to you to help us close the final gap 
in that project.
    This section of the trolley track would extend 5.9 miles 
and through four stations including stops at San Diego State 
University and one of our large medical centers. That $81 
million that we are requesting for fiscal year 2002 would keep 
the project on schedule and it would allow for another 2.5 
million in new annual riders using the trolley.
    This particular extension has been one of the very few new 
start projects that received a highly recommended rating from 
the FTA in their annual new starts report. So we believe it is 
highly recommended and a high priority for the region.
    The other transit project is the first phase of the Mid-
coast corridor project. It reaches our beach communities which 
you can well imagine are very congested in the city. I am 
requesting an appropriation of $5 million for the first mid-
coast phase of that which is about the light rail transit 
extension.
    And this particular appropriation would fund the final 
design of this project. And in its entirety, the Mid-coast 
corridor project would extend 10.7 miles from Old Town to North 
University City. And that would serve nine stations including 
UCSD, University of California at San Diego. This is also an 
important project to my constituents and to local businesses in 
the area.
    And the final transit project is the North Park Transit 
Village GSPP grant. And in recent years, the community of North 
Park has come together because it in many ways has been the 
victim of a number of in-fill development projects. They are 
looking to Congress to appropriate $344,000. That represents a 
slight decrease from the $425,000 that had initially been 
requested.
    The community has come up with additional funding for what 
was originally $96,000. They now have raised over $168,000 for 
the project. It is a small project. But I can assure you that 
that is something that would have consequences for the entire 
area.
    Congressman Filner mentioned Transit First. And that is a 
long-range bus transportation system that is being looked at by 
the region. And we hope to come back with you on more details 
about that. The first highway project that I would like to 
mention is that of the regional intelligent transportation 
system. And we are requesting $9.6 million for that fare card 
system for all of San Diego transit systems. It would include 
both buses and rail and would be a state of the art fare card 
system. The total funding for that is in the neighborhood of 
$25 to $30 million. And we are requesting only $9.6 million out 
of that.
    Congressman Filner mentioned that 905 State Route which is 
incredibly important to the entire region. And NAFTA, of 
course, has had a great impact on that. But we hope that we can 
fill out the additional funding for that. You asked 
specifically about the $46 million. And that $217 million is 
already available.
    So we are trying to close the gap, bringing it up to the 
$264 million. And so the fiscal year 2002 funds would be used 
to complete Phase 1 of that project between the Old Town Mesa 
port of entry and the Airway Road. Thank you very much for your 
consideration. I know you have been listening to a number of 
members today. And we appreciate your time and your attention. 
Thank you.
    [The prepared statement of Hon. Susan Davis of California 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Thank you for your time and attention. And it 
is an excellent statement. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. I respectfully ask that 
my full statement be entered into the record. I would like to 
speak both in support and to a certain extent with a different 
view than the previous two members from my area. They both 
represent urban San Diego. And the importance of filling out 
the rail system in and around San Diego will eventually lead to 
a lessening of congestion and a considerable improvement in the 
liveability within all of our districts.
    However, I represent rural districts by comparison in San 
Diego, Orange and Riverside County. None of the rail systems 
presently except one get anywhere close to us. And virtually 
all of our citizens have to drive great distances to get to 
them. As a result and due somewhat to the generosity over the 
last six to eight years and more of freeway expansion in 
southern California, I find myself with all of my high 
priorities being interchanges.
    I have talked to my regional agencies about, in fact, their 
greatest need. And in the case of San Juan Capistrana, their 
greatest one is the Otega Highway/I-5 interchange. And this is 
an area of the county in which private roads have, in fact, 
alleviated quite a bit at no cost to the Federal Government. 
But this is a very impacted area.
    The city of Temecula, home of the finest wine in southern 
California, perhaps in the world, is an area that has doubled 
during the last 15 years. And so the impact there is extreme. 
And they have made the 79 South ultimate interchange as their 
highest priority. And I believe it is the highest priority 
within my district because of the fast growth of a relatively 
rural community.
    The city of Oceanside has made the Rancho Deloro-SR-78 
interchange their highest priority. And the main reason that 
this is such a high priority is, in fact, that there are major 
industrial areas that were built and have been stifled by the 
delay of this interchange.
    Lastly, I have to report that my district has six other 
major interchanges that we are going to be coming back to in 
the future. And so I wish I could tell you that if you did this 
and funded it right away, it would all be over. But two of the 
most impacted interchanges in the entire San Diego County are 
not presently on our request. They are still in the design 
phase. And--but these are areas that come to a halt at least 
twice a day and they rank among the five worst in the county.
    So I must report that this is the tip of the iceberg. Each 
of these is extremely important to an area that is the fastest 
growing major area of San Diego. Both of my members here are 
areas that are relatively built out. They need to relieve 
stress. These are ones that absolutely are going to come to a 
halt and do nothing but waste energy unless we make at least 
some strides toward filling these in. Thank you for this 
opportunity.
    [The prepared statement of Hon. Darrell Issa follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you for your testimony. Any questions? If 
not, thank you very much.
                              ----------                              

                                         Wednesday, March 21, 2001.

      NORTHERN AND SAN FRANCISCO, CALIFORNIA, HIGHWAY AND TRANSIT 
                        INFRASTRUCTURE PROJECTS


                               WITNESSES

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. MIKE THOMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. BARBARA LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Rogers. Now we have another California panel, Nancy 
Pelosi, Mike Thompson and Barbara Lee, if you would all come 
forward. Ms. Pelosi, we will recognize you first. We will make 
your written statements part of the record and we invite you to 
briefly summarize.
    Ms. Pelosi. Thank you very much, Mr. Chairman. 
Congratulations on your chairmanship of this very important 
Subcommittee. I know we will all be served very well as we were 
in your previous chairmanship on commerce justice.
    Mr. Rogers. Thank you.
    Ms. Pelosi. And Mr. Chairman, members of the Committee, I 
am pleased to be here with my colleagues, Congresswoman Lee and 
Congressman Thompson. First, I want to thank the Subcommittee 
for always being so helpful in the San Francisco Bay area and 
supporting transportation projects that improve travel, 
commerce, safety, environment in our densely populated urban 
area. I look forward to working with the subcommittee this year 
to make further steps to continue this progress so that we can 
reduce the traffic congestion and to streamline the 
transportation overall.
    Our major issue, Mr. Chairman, as you may be aware, is 
BART. And what has happened in the San Francisco Bay area is we 
have had an all for one, one for all among those people of the 
districts around the BART area. And at this time, Mr. Sabo, 
thank you for your leadership, as well. Mr. Sabo is well 
acquainted with our requests year-in, year-out on this 
transportation issue on BART.
    I am pleased to report that the construction of the BART 
SFO extension is progressing extremely well. The project is now 
about 75 percent complete. Service to the public is scheduled 
for the fall of 2002. Last year, Congress appropriated eight 
million dollars for the BART SFO extension and fulfillment of 
the full funding grant agreement scheduled. This support has 
made it possible to maintain the accelerated pace of 
construction.
    A look at BART ridership today reflects the growing demand 
for reliable and convenient alternatives to traffic congestion. 
Average daily ridership is at an all-time high having risen 
over 50 percent over the last decade and 12 percent in the last 
year.
    This dramatic increase by commuters for such a strong 
desire for improved transportation options which BART SFO 
extension promises to bring is the status of the full circle of 
Bay Area members. I thank you again, Mr. Chairman and members 
of the subcommittee, Mr. Sabo, for your past support for the 
BART SFO extension.
    Being parochial and going to my own city of SanFrancisco, 
if I may, for a moment, I just want to call to the committee's 
attention a couple of options that would, again, promote commerce 
safety and environmental protection. One is the MUNI bus facilities 
upgrade. A replacement of MUNI's fleet is the highest priority in the 
city of San Francisco capital improvement program. It improves bus 
retrofit and diesel bus facility conversions.
    Our second priority for them is the central control 
facility. Traffic movement and safety make it imperative to 
update the current central control facility which monitors and 
directs all transit operated in the city. A third priority is 
similar to that central control communication system at the 
main--at the transportation--intelligent transportation's 
account in this report. It is self-explanatory. In the interest 
of the Committee's time, I will not go completely into it.
    And then one additional one is the Treasure Island ferry 
service. Ferry service is essential to the re-development of 
Treasure Island, the former Navy base in San Francisco where 
the daytime population is approximately 5,000 people. The state 
has provided $5 million and we were looking for $5 million 
federally for that.
    And one more issue is the issue of the Presidio which is in 
the--this project--the Presidio section of San Francisco. It 
would allow development of an alternate fuel internal shut-off 
system within the Presidio. Again, a fuller account of that in 
my written statement which I submit to the committee for your 
consideration with thanks and appreciation for your past 
attention and generosity to our concerns. Thank you, Mr. 
Chairman. Thank you, Mr. Sabo.
    [The prepared statement of the Hon. Nancy Pelosi follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you, Ms. Pelosi, a very valued member of 
our committee. Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman, Mr. Sabo. I 
appreciate the opportunity to come here today and testify 
before the Committee to call your attention to some of the 
important transportation needs in my part of California. First, 
I would just like to mention that the 1st District of 
California covers seven counties. It runs from the northern 
part of San Francisco Bay all the way up to the Oregon border. 
It is one of the largest districts in California.
    And it takes roughly if you abide by the speed limit nine 
hours to drive from one end to the other. So you can understand 
how important transportation projects are in this part of 
California.
    Our industries in this part of California are fairly 
diverse. We have timber, commercial fishing. It is the heart of 
California's wine industry and Napa, Sonoma, Mendocino and Lake 
Counties. And irrespective of what Mr. Issa testified about 
Temecula, this is the heart of the nation's wine industry. And 
it is the West Coast hub of the nation's air mobility command 
at Travis Air Force Base.
    And all of these industries are dependent upon reliable 
transportation infrastructure. And further compounding 
transportation problems in our area is the ever-growing cost of 
property and housing in California. More and more working 
families are having to commute further and further in order to 
get to work to make the California economy as strong as it is 
which helps the entire--not only the entire state, but the 
entire nation.
    My transportation appropriate requests are influenced by 
these factors. And they are critically important to the entire 
state of California and to our entire economy. First, I would 
like to mention a major regional congestion problem which 
exists at the intersection of Interstates 80 and 680, the 
Salano County part of the district.
    Now, Interstate 80 is the major east-west corridor in 
northern California and connects San Francisco with all points 
to the east. Currently, this interchange is old. It is in 
terrible need of repair. And it is inadequate to handle the 
traffic passes through there every day, about 180,000 vehicles 
a day. And in the next five years, it is expected to go up to 
nearly 250,000 vehicles a day.
    And many times during the day, traffic comes to a virtual 
standstill which is impacting not only commerce, but air 
quality in the region. And I just want to reiterate the fact 
that it is important for Travis Air Force Base which is an 
integral part of our nation's air mobility capability.
    Eleven members of Congress last year signed a regional 
letter asking for this support. And I am certain that the same 
members will come forward this year. And we are asking for $12 
million for this very important project.
    Second, I am asking that we fund two innovative 
transportation facilities, one in Napa and Mendocino Counties 
where they intend to build internodal transportation 
facilities. These facilities will provide an important 
opportunity to reduce traffic by bringing together all 
transportation under one roof. Rail service, ferry service, 
transit buses and park and ride services would be brought 
together. Napa needs $12 million, Mendocino needs $600,000.
    Next is a request for $2 million to construct a natural gas 
pipeline and processing plant in Sonoma County. This is a 
fairly innovative project, as well. There is currently excess 
supply of landfill gas in this West Coast county. And they are 
able to take this gas off and use it to provide a cleaner 
alternative to petroleum-based fuels which will help, amongst 
other things, ease the current West Coast energy crisis.
    And finally, I am asking for $3.5 million in funding for a 
similar project in Humboldt County, the northern part of my 
district. And these funds will be used to complete an 
alternative fueling station which will be equipped with two 
liquified natural gas dispensing units and a natural gas 
conversion unit and dispensers. The fuel stations will be 
utilized by transit authority, local school buses and other 
vehicles.
    I appreciate the work that you are putting in and would 
really appreciate the help on these projects. And I am prepared 
to answer any questions that you might have. Thank you.
    [The prepared statement of Hon. Mike Thompson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you. Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman, and good afternoon. I 
also want to thank Mr. Sabo and the Members of this 
Subcommittee with regard to what we are doing here today. And I 
want to also mention with regard to transportation issues, I am 
delighted to be here with my colleagues because there are such 
reasonable issues in our area. I represent Oakland, Berkeley, 
Alameda, Piedmont, Emeryville, Albany and Alameda. And they are 
located actually along the east side of the San Francisco Bay.
    Today, I am here to testify on the behalf of the Alameda 
Transit District, or AC Transit, the city of Oakland, the city 
of Emeryville and the West Alameda Business District. First let 
me just thank you very much for your generosity in helping us 
to secure the funds for the AC Transit project in fiscal year 
2001 appropriations. Among other things, last year's funding 
actually helped establish a pioneering fuel cells demonstration 
project.
    This will help bring about the nation's first large-scale 
urban system demonstration of a zero emissions bus which could 
fundamentally alter our transit landscape in just a few years 
from now. AC Transit buses, excuse me, transport 230,000 
persons every day throughout a 390-mile corridor--square-mile 
corridor in addition to taking actually 60,000 children to 
school. Its service includes 750 buses serving over 145 bus 
lines in 13 cities and two counties.
    In addition, AC Transit has seen its ridership climb by 
over two million in the last two years. It is also the lifeline 
for many of our residents, many of whom are senior citizens. AC 
transit provides transportation to thousands of individuals who 
formerly received Welfare and are now employed. We know that 
one of the main impediments to full-time employment for those 
near the bottom of our economic ladder is transportation as 
those seeking work are newly employed and often do not possess 
the financial resources to maintain private transportation.
    With this in mind, AC Transit requests $2 million under the 
Job Access and Reverse Commute Program with funds designated to 
supplement current Welfare-to-work activities in Oakland. AC 
Transit's expansion of service in several areas has been highly 
successful in bringing Cal Works recipients to new jobs. And we 
wish to build upon that success.
    A.C. Transit is also requesting three million in six 
guideway system funds to complete Phase 2 of a major investment 
study of the heavily traveled Berkeley-Oakland-San Leandro 
Corridor which is one of the Bay Area's most heavily traveled 
transit routes. This study is examining the most efficient 
future actions for this 15-mile corridor to ensure that transit 
options remain effective and adaptable.
    Over the past several years, we have worked to forge a 
relationship between the business community and the education 
community and to expand this relationship to actually include 
our transportation partners. With this regard, Oakland is 
seeking to establish a public express shuttle which is called 
the Explore Loop Shuttle. And this is an approximate $2 million 
request. It would connect major mass transit, education and 
tourist centers.
    The economic impact of this shuttle service for my district 
will be tremendous and it will also help alleviate stress on 
heavy surface traffic in Oakland and the East Bay. The city of 
Oakland is also seeking five million to install a new city-wide 
traffic management system. This system will enable two-way 
communication between 500 signals throughout Oakland and the 
city's new centralized computer system.
    When complete, this project will enable staff to monitor 
and continuously adjust signal timing plans and signal offsets 
throughout Oakland and the city's downtown traffic engineering 
office.
    Now, the city of Emeryville is requesting $5 million to 
build a pedestrian crossway at Union Pacific Railroad Tracks. 
This crossing will provide much needed and safe pedestrian 
access between two sections in Emeryville to have recently 
experienced an increased economic and residential expansion and 
subsequently have increased foot traffic. Currently, there is 
not an adequate route for pedestrians in that area.
    Finally, the West Alameda Business Association is seeking 
$1.94 million to establish an environmentally-friendly elective 
shuttle bus linking key locations in Alameda and the East Bay 
regions that are currently not served. The electric shuttle 
project is a key element in an area-wide plan for former 
military base re-use and revitalization of historical downtown 
areas.
    So in the coming weeks, I along with Representatives 
Miller, Tauscher and Stark will formally communicate to you the 
high priority that we place on each of AC Transits fiscal year 
2002 requests. We look forward to working with members of the 
committee and its excellent bipartisan staff to address the 
needs of the residents of the East Bay.
    If you have any questions, Mr. Chairman, I am here to 
answer them on your behalf. And let me ask you, also, that--or 
let me mention that we hope that the responses in writing that 
we presented fulfills some answers that you requested to 
complete our complete presentation. Thank you very much.
    [The prepared statement of Hon. Barbara Lee follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you very much. You have all done good 
with your statements. Any questions? Thank you very much.
    Ms. Lee. Thank you very much.
                              ----------                              

                                         Wednesday, March 21, 2001.

           NEW JERSEY AVIATION, TRANSIT, AND HIGHWAY PROJECTS


                               WITNESSES

HON. RODNEY P. FELINGHUYSEN, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF NEW JERSEY
HON. MIKE FERGUSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Rogers. Thank you. Mr. Frelinghuysen and Mr. Ferguson, 
from New Jersey. Mr. Frelinghuysen, you will be recognized 
first. We will make your written statements part of the record.
    Mr. Frelinghuysen. Actually, I brought some food for you 
just in case. I know we can put those away for a rainy day. We 
admire intestinal fortitude. One of the benefits of 
representing Nabisco is we can bring things to sweeten you up.
    Mr. Rogers. All right.
    Mr.  Frelinghuysen. Mr. Chairman, I want to thank you for 
giving me the opportunity to testify before your Subcommittee 
today. Both Mr. Ferguson and I regret we were not able to be 
here last week. But we are pleased to be here today. First of 
all, congratulations on your new assignment. We know you will 
do a fantastic job as Chairman of that Committee because every 
other committee you have chaired you have been fantastic to 
work with.
    Mr. Rogers. Thank you.
    Mr.  Frelinghuysen. I do not want to duplicate the 
testimony of my New Jersey colleagues who spoke last week. But 
I do want to ask first and foremost that the full funding of 
$151 million for the Hudson-Bergen light rail and $20 million 
for the Newark-Elizabeth rail may be included in the fiscal 
year 2002 appropriations bill. They are our state's most 
important mass transportation project.
    As you have heard, New Jersey is the nation's most densely 
populated state. New Jersey has been forced to think of 
innovative ways to reduce traffic congestion, all the while 
moving commuters about the state safety and on time. The 
Hudson-Bergen light rail in Newark, the Elizabeth rail meet 
these goals while providing New Jersey with the means to handle 
increased traffic, alleviate congestion and meet the standards 
mandated by the Federal Clean Air Act.
    The light rail technology being applied to the Hudson-
Bergen will result in a 21-mile, 30-station project and will 
ease congestion in Hudson County, our nation's sixth most 
densely populated county. In addition, this light rail will 
serve as a feeder connecting commuters with vital 
transportation arteries such as commuter rail subway and ferry 
service in and out of New York City.
    On a similar note, the Newark-Elizabeth rail link will be 
an 8.8-mile light rail system connecting the Newark City subway 
with downtown Newark and Elizabeth. The first leg will connect 
Newark to revitalize downtown attractions as well as provide a 
connection between Newark commuter rail stations, broad street 
and Newark Penn Station.
    Mr. Chairman, I come before you today to ask for your 
continued support of these two projects. Furthermore, providing 
this funding will honor an earlier commitment. New Jersey 
Transit entered into a full funding grant agreement with the 
Federal Transit Administration in 1996 for the Hudson-Bergen 
project and last year for Newark-Elizabeth. One hundred and 
fifty-one million for the Hudson-Bergen light rail marks the 
final installation--installment needed to complete Phase 1 of 
this project.
    On aviation issues, I would also like to ask that the FAA 
be directed to expedite the air space redesign process. They 
are currently conducting, as I said to committees--to this 
committee in the past, redesigning the air space in the New 
York-New Jersey metropolitan area is critical to the ongoing 
efforts to reduce congestion at our nation's busiest airport to 
maintain the passenger safety. And most important to some is to 
alleviate the burden of aircraft noise to residents.
    Last year, the Subcommittee generously provided $8.5 
million in the fiscal year 2001 budget for the redesign process 
at my request. And while the details of the present budget are 
not finalized, I know that the New York-New Jersey air space 
redesign will need additional resources and greater leadership 
by the FAA itself.
    In that regard, I request that you continue to provide 
critical funding for the New York-New Jersey metropolitan air 
space redesign in your fiscal 2000 transportation appropriation 
bill. Once our regional air space redesign is completed, the 
lessons learned could be applied to other airports and air 
spaces around the nation.
    Mr. Chairman, I want to thank you for this opportunity to 
speak briefly on air space redesign money, but most 
importantly, for our two mass transportation projects. And I 
would like to introduce our newest member from New Jersey, 
Congressman Mike Ferguson who is a member of the Transportation 
and Infrastructure Committee.
    [The prepared statement of Hon. Rodney Frelinghuysen 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Thank you very much, Mr. Frelinghuysen. You are 
a very valued member of our full committee and we cherish your 
friendship. Mr. Ferguson.
    Mr. Ferguson. Thank you, Mr. Chairman. Thank you, 
Congressman Frelinghuysen. And I would like to thank the 
Chairman and the ranking member and the members of the 
subcommittee for the opportunity to be here today. I would like 
to specifically commend this Subcommittee and your Members for 
the work that you do. Legislation approved by this Subcommittee 
supports the continued economic growth of our nation.
    And particularly in my northern New Jersey district, it is 
so important for the efficient and expanding transportation 
needs and infrastructure needs which permit goods and services 
to be delivered to consumers, but also enable our commuters and 
residents to reach their jobs and their families.
    I would also like to thank one of your colleagues on the 
Committee and a good friend of mine, Congressman Frelinghuysen. 
We and his staff have been generous with their time and their 
counsel particularly to me as a freshman. I appreciate Mr. 
Frelinghuysen's advice and experience. And on behalf of New 
Jersey, I thank him for his leadership in ensuring that our 
state receives its fair share of federal assistance.
    New Jersey, as it has been mentioned, is the most densely 
populated state in our country. Our highways experience chronic 
and extensive traffic congestion. New Jersey views construction 
of transit infrastructure of one of the solutions to our 
state's congestion problem.
    Accordingly, funding for the Hudson-Bergen light rail and 
the Newark-Elizabeth light rail are very important to New 
Jersey as has been stated. And at the risk of being somewhat 
repetitious, I will just mention them once again. These lines 
are not in the 7th District, in my district. But they are very, 
very important to my constituents and to northern New Jersey. 
These light rail projects will allow commuters to travel in a 
time-efficient manner, avoid congestion and to promote 
environmental consciousness.
    These projects are not only vital to the economy and the 
health of our region. They are projects that will enable 
parents to get home to watch their child's soccer game or to 
eat dinner with their family. Without these additional forums 
of public transportation in my district as well as one of the 
most important transportation hubs in the country, we will 
perhaps continue to be mired in gridlock.
    Congressman Frelinghuysen has spoken about most of these 
projects. I will just mention our delegation is seeking 151 
million for the New Jersey Transit in discretionary funding 
under Section 5309, New Starts, to continue construction of the 
minimum operating segment of the Hudson-Bergen light rail. We 
are also requesting $20 million for New Jersey Transit 
discretionary funding for the Newark-Elizabeth rail link. The 
total cost of the MOS there is $207.7 million.
    The $20 million is the second under the full funding grant 
agreement signed by New Jersey Transit and the FTA in the year 
2000. These projects mentioned are two of the most important 
priorities in this year for New Jersey when it comes to 
transportation funding. And I would like to mention projects 
which are also more specific to my district. I will be 
submitting these projects in my April 6th request letter and I 
will have more details on these projects available then.
    The first is air space redesign. Two years ago, the FAA 
began the four or five-year project to redesign the nation's 
air space. I would like to include a provision in the fiscal 
year 2002 Transportation Appropriations Act that requests an 
expedited air space redesign project to include mitigation of 
airplane noise over New Jersey.
    The second is the Route 1 and 9 production way to East 
Lincoln Avenue. Rehabilitation for the existing Railway River 
Bridge will provide new ramp connections between Routes 1 and 9 
and Randolph Avenue, widening Route 1 to include auxiliary 
lanes and shoulders and intersection improvement. This project 
will complete the overall improvement initiated with the new 
bridge over the Railway River.
    The third project is the Route 1--Pierson Avenue to the 
Garden State Parkway South. This project will provide a 
widening from two lanes to three lanes in each direction, 
bridge rehabilitation and intersection improvement.
    The fourth project is the rehabilitation of Route 9--Edison 
Bridge. This project will include deck replacement and 
rehabilitation for the existing Route 9--Edison Bridge. At the 
completion, the rehabilitated Edison Bridge will provide three 
north-bound lanes and new bridge constructed under a separate 
contract over the river will provide three south-bound lanes.
    The final project is the Route 1--Conrail Bridge 
replacement and roadway widening. The existing bridge over 
Conrail is functionally obsolete and in poor condition. The 
existing structure carries four, ten-and-a-half-foot travel 
lanes with no shoulders. The new structure will carry six, 12-
foot travel lanes and two, 12-foot shoulders. The roadway will 
be widened to provide three, 12-foot through-lanes and 12-foot 
shoulder auxiliary lanes in each direction as well as 
intersection improvements at Gills Lane-Woodbridge Center 
Drive.
    As a freshman member of the Transportation and 
Infrastructure Committee, these projects are very important to 
me personally as well as to my constituents. But I am not here 
simply representing my district and my constituents. I feel 
these projects reflect vital needs for our entire northeast 
region. I thank you very much for your consideration of these 
projects. And I would certainly be happy to answer any 
questions if there are any. Thank you, Mr. Chairman.
    [The prepared statement of Hon. Mike Ferguson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you very much for a fine statement. I do 
not think we have any questions. Thank you so much for your 
testimony.
    Mr. Ferguson. Thank you. Thanks very much.
    Mr. Rogers. The Committee will stand adjourned.
    [Additional statements of Members of Congress and other 
public witnesses follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Acevedo-Vila, Hon. Anibal........................................   223
Allen, Hon. Tom..................................................   114
Anthes, R.A......................................................   464
Austin, J.M......................................................   786
Baca, Hon. Joe...................................................   298
Barclay, Charles.................................................   484
Bereuter, Hon. Doug..............................................   273
Beukers, John....................................................   466
Bilirakis, Hon. Michael..........................................   398
Birkinshaw, Kelly................................................   649
Blumenauer, Hon. Earl............................................   290
Boese, Mark......................................................   649
Brown, Kirk......................................................   686
Burke, Julian....................................................   738
Burke, Y.B.......................................................   754
Buyer, Eric......................................................    35
Calkins, C.L.....................................................   532
Capon, R.B.......................................................   564
Cardenas, Tony...................................................   756
Cardin, Hon. B.L.................................................    59
Chaco, W.M.......................................................   393
Clark, Les.......................................................   649
Clement, Hon. Bob................................................    35
Coyne, Hon. W.J..................................................   137
Crenshaw, Hon. Ander.............................................   223
Cummings, Hon. E.E...............................................    59
Cunha, Manuel, Jr................................................   649
Davis, Hon. D.K..................................................    78
Davis, Hon. S.A..................................................   326
Dean, Howard.....................................................   583
DeGette, Hon. Diana..............................................   258
Delaney, Paula...................................................   617
Dexter, Jennifer.................................................   587
Dorn, Roosevelt..................................................   717
Doyle, Hon. Mike.................................................   137
DuPree, D.M......................................................   392
Ethridge, Linda..................................................   782
Felinghuysen, Hon. R.P...........................................   366
Ferguson, Hon. Mike..............................................   366
Filner, Hon. Bob.................................................   326
Firebaugh, Marco.................................................   756
Fossella, Hon. V.J...............................................   191
Frank, Hon. Barney...............................................   117
Ganim, J.P.......................................................   458
Gekas, Hon. G.W..................................................   137
Gitz, James......................................................    78
Giulietti, Joseph................................................   644
Goldberg, Jackie.................................................   756
Gonzalez, Hon. C.A...............................................   239
Gordon, Hon. Bart................................................    35
Hall, Hon. R.M...................................................   239
Hertzberg, Robert................................................   756
Hilton, Cynthia..................................................   474
Hinojosa, Hon. Ruben.............................................   239
Houchen, P.J.....................................................   711
Hunter, Hon. Duncan..............................................   416
Hutchinson, Frannie..............................................   460
Issa, Hon. Darrell...............................................   326
James, Sharpe....................................................   624
Johnson, Terry...................................................   715
Jones, Hon. S.T..................................................    35
Judge. P.R.......................................................   604
Karnette, Betty..................................................   756
Kasdin, Neisen...................................................   613
Keller, B.C......................................................   655
Keller, Hon. Ric.................................................   452
Kerns, Hon. Brian................................................    19
King, Hon. P.T...................................................   191
Kingston, Hon. Jack..............................................   223
Kirk, Hon. M.S...................................................    78
Koretz, Paul.....................................................   756
Kruesi, Frank....................................................    78
Kucinich, Hon. D.J...............................................    35
Kuehl, S.J.......................................................   756
Lansing, Scott...................................................   736
Lantos, Hon. Tom.................................................   405
Larsen, Hon. Rick................................................   290
Lee, Hon. Barbara................................................   347
Lewis, Hon. Ron..................................................     1
Liu, Carol.......................................................   756
Lloyd, A.C.......................................................   649
LoBiondo, Hon. F.A...............................................   176
Lucas, Hon. Ken..................................................     1
Manzullo, Hon. D.A...............................................    78
Margett, Bob.....................................................   756
Mauderly, J.L....................................................   525
McGovern, Hon. J.P...............................................   117
McHugh, Hon. J.M.................................................   203
McKinney, Hon. Cynthia...........................................   389
McNulty, Hon. M.R................................................   156
Meckler, L.M.....................................................   652
Meeks, Hon. G.W..................................................   191
Mica, Hon. J.L...................................................   376
Miller, R.D......................................................   726
Moore, Roy.......................................................   719
Morella, Hon. C.A................................................   378
Murray, Kevin....................................................   756
Nadler, Hon. Jerrold.............................................   400
Neal, Hon. R.E...................................................   117
Nygaard, Julianne................................................   776
Oropeza, Jenny...................................................   756
Ortiz, Hon. S.P..................................................   406
Osborne, Hon. Tom................................................   273
Pacheco, Robert..................................................   756
Pallone, Hon. Frank, Jr..........................................   381
Parcells, Harriet................................................   574
Pataki, G.E......................................................   583
Patrick, Barabara................................................   649
Patton, C.V......................................................   395
Payne, Hon. D.M..................................................   176
Pelosi, Hon. Nancy...............................................   347
Pike, W.W. (Wally)...............................................   469
Platts, Hon. T.R.................................................   137
Polanco, Richard.................................................   756
Pulido, M.A......................................................   713
Quinn, Hon. Jack.................................................   203
Reheis, C.H......................................................   649
Eyes, Hon. Silvestre.............................................   239
Riley, D.J.......................................................   707
Riordan, R.J.....................................................   750
Roemer, Hon. Tim.................................................    19
Rothman, Hon. S.R................................................   176
Rush, Hon. B.L...................................................    78
Sanchez, Hon. Loretta............................................   298
Saxton, Hon. Jim.................................................   409
Schiff, Hon. A.B.................................................   298
Scott, Hon. R.C. (Bobby).........................................    59
Scott, Jack......................................................   756
Shays, Hon. Christopher..........................................   104
Sherman, Duane, Sr...............................................   585
Sherman, Hon. Brad...............................................   298
Siegel, Dr. Bernie...............................................   628
Solis, Hon. Hilda................................................   449
Stupak, Hon. Bart................................................   385
Tancredo, Hon. T.G...............................................   258
Tanrikulu, Saffet................................................   649
Terry, Lynn......................................................   649
Thomas, Hon. W.M.................................................   415
Thompson, Hon. Mike..............................................   347
Tucker, R.H., Jr.................................................   592
Valazquez, Hon. N.M..............................................   456
Vincent, Edward..................................................   756
Visclosky, Hon. P.J..............................................    19
Washington, Carl.................................................   756
Watkins, Hon. Wes................................................   413
Wesson, H.J., Jr.................................................   756
White. T.P.......................................................   460
Whitfield, Hon. Ed...............................................     1
Wiley, J.W.......................................................   569
Williams, Leon...................................................   771
Williams, S.A....................................................   392
Wilson, Mike.....................................................   547
Wolff, Liesel....................................................   630
Wright, R.D......................................................   756


                               I N D E X

                              ----------                              --
--------
                                                                   Page
United States Coast Guard:
    Calkins, Charles L., Fleet Reserve Association...............   532
    Center for Marine Conservation...............................   544
    Coast Guard Funding, New Jersey Amtrak and Transit Projects..   176
    Fleet Reserve Association....................................   532
    National Association of State Boating Law Administrators 
      (NASBLA)...................................................   547
    Saxton, Hon. Jim, Representative from NJ.....................   409
    Upper Mississippi River Basin Association....................   529
    Wilson, Mike, AR Boating Law Administrator and President, 
      NASBLA.....................................................   547
Research and Special Programs Administration:
    Blumenauer, Hon. Earl, Representative from OR..............290, 292
    Larsen, Hon. Rick, Representative from OR..................290, 296
    Washington State Highway, Motor Carrier, Pipeline and Transit 
      Infrastructure Projects....................................   290
Federal Aviation Administration:
    Air Traffic Control Association..............................   491
    Anthes, Richard A., President, University Corporation for 
      Atmospheric Research.......................................   464
    Barclay, Charles, President, American Association of Airport 
      Executives.................................................   484
    Beukers, John, President, International Loran Association....   466
    Davis, Hon. Danny K., Representative from IL.................78, 86
    Felinghuysen, Hon. Rodney P., Representative from NJ.......366, 368
    Ferguson, Hon. Mike, Representative from NJ................366, 372
    Greater Orlando Aviation Authority...........................   499
    Hutchinson, Frannie, Chair, St. Lucie Board of County 
      Commissioners, Ft. Pierce, FL..............................   460
    Illinois Highway, Transit, and Airport Projects..............    78
    Indiana Highway, Aviation, and Transit Projects..............    19
    Keller, Hon. Rice, Representative from FL....................   452
    Kentucky Highway, Transit, and Aviation......................     1
    Kerns, Hon. Brian, Representative from IN....................19, 26
    Kirk, Hon. Mark S., Representative from IL..................78, 102
    Lantos, Hon. Tom, Representative from CA.....................   405
    Lewis, Hon. Ron, Representative from KY......................  1, 4
    Lucas, Hon. Ken, Representative from KY...................... 1, 10
    Manzullo, Hon. Donald A., Representative from IL.............78, 81
    McHugh, Hon. John M., Representative from NY...............203, 206
    New Jersey Aviation, Transit, and Highway Projects...........   366
    New York Highway, Transit and Airport Projects...............   203
    Pike, Walter W., President, National Association of Air 
      Traffic Specialists........................................   469
    Plavin, David Z., President, Airports Council International-
      North America..............................................   484
    Professional Airways Systems Specialists.....................   494
    Quinn, Hon. Jack, Representative from NY...................203, 216
    Roemer, Hon. Tim, Representative from IN.....................19, 33
    Rush, Hon. Bobby L., Representative from IL..................78, 90
    Thomas, Hon. William M., Representative from CA..............   415
    Visclosky, Hon. Peter, Representative from IN................19, 20
    Watkins, Hon. Wes, Representative from OK....................   413
    White, Hon. Thomas P., Mayor, City of Vero Beach, FL.........   460
    Whitfield, Hon. Ed, Representative from KY................... 1, 16
Federal Highway Administration:
    Allen, Hon. Tom, Representative from ME....................104, 106
    Baca, Hon. Joe, Representative from CA.....................298, 305
    Bereuter, Hon. Doug, Representative from NE................273, 275
    Blumenauer, Hon. Earl, Representative from OR..............290, 292
    Buyer, Eric, Executive Director, Nashville Regional Transit 
      Authority..................................................    38
    Clement, Hon. Bob, Representative from TN....................35, 53
    Davis, Hon. Danny K., Representative from IL.................78, 86
    Davis, Hon. Susan A., Representatives from CA..............326, 339
    DeGette, Hon. Diana, Representatives from CO...............258, 260
    Denver, CO, Southeast Corridor Project and Highway Projects..   258
    Dorn, Hon. Roosevelt, Mayor of Inglewood CA..................   717
    Felinghuysen, Hon. Mike, Representative from NJ............366, 368
    Ferguson, Hon. Mike, Representative from NJ................366, 372
    Filner, Hon. Bob, Representative from CA...................326, 328
    Fossella, Hon. Vito J., Representative from NY.............190, 200
    Frank, Hon. Barney, Representative from MA.................117, 119
    Gonzalez, Hon. Charles, Representatives from TX............239, 249
    Gordon, Hon. Bart, Representative from TN....................35, 56
    Hall, Hon. Ralph M., Representative from TX................239, 241
    Hinojosa, Hon. Ruben, TX...................................239, 244
    Illinois Highway, Transit, and Airport Projects..............    78
    Indiana Highway, Aviation, and Transit Projects..............    19
    Issa, Hon. Darrell, Representative from CA.................326, 344
    Johnson, Hon. Terry, Mayor of Oceanside, CA..................   715
    Jones, Hon. Stephanie, T., Representative from OH............35, 42
    Kentucky Highway, Transit, and Aviation......................     1
    Kerns, Hon. Brian, Representative from IN....................19, 26
    King, Hon. Peter T., Representative from NY................190, 192
    Kirt, Hon. Mark S., Representative from IL..................78, 102
    Kucinich, Hon. Dennis J., Representative from OH.............35, 37
    Larsen, Hon. Rick, Representative from OR..................290, 296
    Lee, Hon. Barbara, Representative from CA..................347, 363
    Lewis, Hon. Ron, Representative from KY......................  1, 4
    Lucas, Hon. Ken, Representative from KY...................... 1, 10
    Manzullo, Hon. Donald A., Representative from IL.............78, 81
    Massachusetts Highway, Rail, and Transit Projects............   117
    McGovern, James P, Representative from MA..................117, 122
    McHugh, Hon. John M., Representative from NY...............203, 206
    Meeks, Hon. Gregory W., Representative from NY.............190, 196
    Moore, Hon. Roy, Mayor of Brea, CA...........................   719
    Nebraska Highway Projects....................................   273
    Neal, Hon. Richard E., Representative from MA..............117, 130
    New Jersey Aviation, Transit, and Highway Projects...........   366
    New York Highway, Transit and Airport Projects...............   203
    Northern and San Francisco, California, Highway and Transit 
      Infrastructure Projects....................................   347
    Ohio and Tennessee Rail, Highway, and Transit Projects.......    35
    Ortiz, Hon. Solomon P., Representative from TX...............   406
    Osborne, Hon. Tom, Representative from NE..................273, 280
    Pedestrain/Bicycle Trail Development.........................   719
    Pelosi, Hon. Nancy, Representative from CA.................347, 349
    Pulido, Hon. Miguel A., Mayor of Santa Ana, CA...............   713
    Quinn, Hon. Jack, Representative from NY...................203, 216
    Reyes, Hon. Silvestre, Representative from TX..............239, 256
    Roemer, Hon. Tim Representative from IN......................19, 33
    Rush, Hon. Bobby L., Representative from IL..................78, 90
    Sanchez, Hon. Loretta, Representative from CA..............298, 300
    San Diego, California, Highway, Border, Rail and Transit 
      Infrastructure Projects....................................   326
    Schiff, Hon. Adam B., Representative from CA...............298, 321
    Shays, Hon. Christopher, Representative from CT.......104, 112, 400
    Sherman, Hon. Brad, Representative from CA.................298, 314
    Southern California Highway, MAGLEV, and South LaBrea Avenue 
      and Imperial Highway Improvements..........................   717
    Tancredo, Hon. Thomas, Representative from TX..............258, 268
    Thompson, Hon. Mike, Representative from CA................347, 356
    Transit Infrastructure Projects..............................   298
    Visclosky, Hon. Peter, Representative from IN................19, 20
    Washington State Highway, Motor Carrier, Pipeline and Transit 
      Infrastructure Projects....................................   290
    Whitfield, Hon. Ed, Representative from KY................... 1, 16
Federal Motor Carrier Safety Administration:
    Blumenauer, Hon. Earl, Representative from OR..............290, 292
    Davis, Hon. Susan A., Representative from CA...............326, 339
    Filner, Hon. Bob, Representative from CA...................326, 328
    Gonzalez, Hon. Charles, Representative from TX.............239, 249
    Hall, Hon. Ralph M., Representative from TX................239, 241
    Hinojosa, Hon. Ruben, Representative from TX...............239, 244
    Issa, Hon. Darrell, Representative from CA.................326, 344
    Larsen, Hon. Rick, Representative from OR..................290, 296
    San Diego, California, Highway, Border, Rail and Transit 
      Infrastructure Projects....................................   326
    Reyes, Hon. Silvestre, Representative from TX..............239, 256
    Texas Highway, Motor Carrier, and Transit Projects...........   239
    Washington State Highway, Motor Carrier, Pipeline and Transit 
      Infrastructure Projects....................................   290
Federal Railroad Administration:
    Amtrak's Mayors Advisory Council.............................   569
    American Passenger Rail Coalition............................   574
    Baca, Hon. Joe, Representative from CA.....................298, 305
    Buyer, Eric, Executive Director, Nashville Regional Transit 
      Authority..................................................    35
    Capon, Ross B., Executive Director, National Association of 
      Railroad Passengers........................................   564
    Cardin, Hon. Benjamin L., Representative from MD.............59, 62
    Clement, Hon. Bob, Representative from TN....................35, 53
    Coast Guard Funding, New Jersey Amtrak and Transit Projects..   176
    Cummings, Hon. Elijah, Representative from MD................59, 66
    Davis, Hon. Susan A., Representative from CA...............326, 339
    Filner, Hon. Bob, Representative from CA...................326, 328
    Frank, Hon. Barney, Representative from MA.................117, 119
    Gordon, Hon. Bart, Representative from TN....................35, 56
    High Speed Ground Transportation Association.................   558
    Issa, Hon. Darrell, Representative from CA.................326, 344
    James, Hon. Sharpe, Mayor, City of Newark, NJ................   624
    Jones, Hon. Stephanie T., Representative from OH.............35, 42
    Kucinich, Hon. Denis J., Representative from OH..............35, 37
    LoBiondo, Hon. Frank, Representative from NJ...............176, 178
    Maryland and Virginia Transit and Maglev Projects............    59
    Massachusetts Highway, Rail, and Transit Projects............   117
    McGovern, James P., Representative from MA.................117, 122
    McNulty, Michael R., Representative from NY................156, 159
    Nadler, Hon. Jerrold, Representative from NY.................   400
    National Association of Railroad Passengers..................   564
    Neal, Hon. Richard E., Representative from MA..............117, 130
    New York Amtrak and Transit Projects.........................   156
    Ohio and Tennessee Rail, Highway, and Transit Projects.......    35
    Pallone, Hon. Frank, Representative from NJ................176, 381
    Parcells, Harriet, Executive Director, American Passenger 
      Rail Coalition.............................................   574
    Payne, Hon. Donald M., Representative from NJ..............176, 183
    Rothman, Hon. Steven R., Representative from NJ............176, 188
    Sanchez, Hon. Loretta, Representative from CA..............298, 300
    San Diego, CA, Highway, Border, Rail and Transit 
      Infrastructure Projects....................................   326
    Schiff, Hon. Adam B., Representative from CA...............298, 321
    Scott, Hon. Robert C., Representative from VA................59, 70
    Shays, Hon. Christopher, Representative from CT.......104, 112, 400
    Sherman, Hon. Brad, Representative from CA.................298, 314
    Southern California Highway, MAGLEV, and Transit 
      Infrastructure Projects....................................   298
    Wiley, J. Warner, Mayor, City of Beech Grove, IN.............   569
Federal Transit Administration:
    Acevedo-Vila, Hon. Anibal, Representative from PR..........223, 236
    Allen, Hon. Tom, Representative from ME....................104, 106
    American Public Transportation Association...................   577
    Austin, Julie, Executive Director, Foothill Transit..........   786
    Baca, Hon. Joe, Representative from CA.....................298, 305
    Blumenauer, Hon. Earl, Representative from OR..............290, 292
    Burke, Julian, Chief Executive Officer, Los Angeles County 
      Metropolitan Transportation Authority......................   738
    Buyer, Eric, Executive Director, Nashville Regional Transit 
      Authority..................................................    35
    CA Northern and San Francisco Highway and Transit 
      infrastructure projects....................................   347
    Cardin, Hon. Benjamin L., Representative from MD.............59, 62
    Clement, Hon. Bob, Representative from TN....................35, 53
    Coast Guard Funding, New Jersey Amtrak and Transit Projects..   176
    Crenshaw, Hon. Ander, Representative from FL...............223, 226
    Cummings, Hon. Elijah, Representative from MD................59, 66
    Davis, Hon. Danny K., Representative from IL.................78, 86
    Davis, Hon. Susan A., Representative from CA...............326, 339
    Delaney, Hon. Paula, Mayor, City of Gainesville, FL..........   617
    Electric Vehicle Association of Transportation Programs......   554
    Electrowave Facility/Intermodal Transit Center...............   613
    Etheridge, Hon Linda, Mayor, City of Waco, TX................   782
    Ferguson, Hon. Mike, Representative from NJ................366, 372
    Filner, Hon. Bob, Representative from CA...................326, 328
    Foothill Transit.............................................   786
    Fossella, Hon. Vito J., Representative from NY.............190, 200
    Frank, Hon. Barney, Representative from MA.................117, 119
    Frelinghuysen, Hon. Rodney P., Representative from NJ......366, 368
    Gainesville, FL Public Transportation Acquisition Project....   617
    Ganim, Joseph, Mayor of Bridgeport, CT.......................   458
    Giulietti, Joseph, Executive Director, Tri-Rail..............   644
    Gonzalez, Hon. Charles, Representative from TX.............239, 249
    Gordon, Hon. Bart, Representative from TN....................35, 56
    Hall, Hon. Ralph M., Representative from TX................239, 241
    Hinojosa, Hon. Ruben, Representative from TX...............239, 244
    Illinois Highway, Transit, and Airport Projects..............    78
    Indiana Highway, Aviation, and Transit Projects..............    19
    Issa, Hon. Darrell, Representative from CA.................326, 344
    Jones, Hon. Stephanie T., Representative from OH.............35, 42
    Judge, Patrick, President, Louisiana Public Transit..........   604
    Kasdin, Hon. Neisen, Mayor, City of Miami Beach, FL..........   613
    Kentucky Highway, Transit, and Aviation......................     1
    Kerns, Hon. Brian, Representative from IN....................19, 26
    King, Hon. Peter T., Representative from NY................190, 192
    Kingston, Hon. Jack, Representative from GA................223, 232
    Kirk, Hon. Mark S., Representative from IL..................78, 102
    Kucinich, Hon. Dennis J., Representative from OH.............35, 37
    Larsen, Hon. Rick, Representative from OR..................290, 296
    Lee, Hon. Barbara, Representative from CA..................347, 363
    Lewis, Hon. Ron, Representative from KY......................  1, 4
    LoBiondo, Hon. Frank, Representative from NJ...............176, 178
    Louisiana Public Transit Association.........................   604
    Lucas, Hon. Ken, Representative from KY...................... 1, 10
    Manzullo, Hon. Donald A., Representative from IL.............78, 81
    Maryland and Virginia Transit and Maglev Projects............    59
    Massachusetts Highway, Rail, and Transit Projects............   117
    McGovern, James P., Representative from MA.................117, 122
    McHugh, Hon. John M., Representative from NY...............203, 206
    McKinney, Hon. Cynthia, Representative from GA...............   389
    McNulty, Michael R., Representative from NY................156, 159
    Meckler, Lawrence M., Executive Director, Niagara Frontier 
      Transportation Authority...................................   652
    Meeks, Hon. Gregory W., Representative from NY.............190, 196
    Metropolitan Atlanta Rapid Transit Authority, GA.............   791
    Metropolitan Transit Authority of Harris County, TX..........   726
    Miami Beach, FL, Electrowave Facility/Intermodal Transit 
      Center.....................................................   613
    Miller, Robert D., Chairman, Metropolitan Transit Authority 
      of Harris County, TX.......................................   726
    Morella, Hon. Constance, Representative from MD..............   378
    Neal, Hon. Richard E., Representative from MA..............117, 130
    New Jersey Aviation, Transit, and Highway Projects...........   366
    New York Amtrak and Transit Projects.........................   156
    New York Highway, Transit and Airport Projects...............   203
    North San Diego County Transit Development Board.............   776
    Nygaard, Julianne, Chairwoman, North San Diego County Transit 
      Development Board..........................................   776
    Ohio and Tennessee Rail, Highway, and Transit Projects.......    35
    Oregon Transit Projects......................................   290
    Pallone, Hon. Frank, Representative from NJ................176, 381
    Payne, Hon. Donald M., Representative from NJ..............176, 183
    Pelosi, Hon. Nancy, Representative from CA.................347, 349
    Quinn, Hon. Jack, Representative from NY...................203, 216
    Louisiana Regional Transit Authority.........................   592
    Reyes, Hon. Silvestre, Representative from TX..............239, 256
    Riley, Donald, Chief Executive Officer, Rochester-Genesee 
      Regional Transportation Authority..........................   707
    Rochester-Genesee, NY, Regional Transportation Authority.....   707
    Roemer, Hon. Tim, Representative from IN.....................19, 33
    Rothman, Hon. Steven R., Representative from NJ............176, 188
    Rush, Hon. Bobby L., Representative from IL..................78, 90
    Sanchez, Hon. Loretta, Representative from CA..............298, 300
    San Diego, CA, Highway, Border, Rail and Transit 
      infrastructure projects....................................   326
    San Diego, CA, Metropolitan Transit Development Board........   771
    San Juan, Puerto Rico, Tren Urbano...........................   223
    Schiff, Hon. Adam B., Representative from CA...............298, 321
    Scott, Hon. Robert C., Representative from VA................59, 70
    Shannon, Charles, Chair, VIA Metropolitan Transit, San 
      Antonio, TX................................................   252
    Shays, Hon. Christopher, Representative from CT.......104, 112, 400
    Sherman, Hon. Brad, Representative from CA.................298, 314
    Southern California Highway, MAGLEV, and Transit 
      Infrastructure Projects....................................   298
    Thompson, Hon. Mike, Representative from CA................347, 356
    Tri-County Commuter Rail Authority, FL.......................   644
    Tucker, Robert H., Chairman, Louisiana Regional Transit 
      Authority..................................................   592
    Velazquez, Hon. Nydia M., Representative from NY.............   456
    Visclosky, Hon. Peter, Representative from IN................19, 20
    Waco, TX, Transit Maintenance and Administration Facility....   782
    Washington State Highways, Motor Carrier, Pipeline and 
      Transit Infrastructure Projects............................   690
    Whitfield, Hon. Ed, Representative from KY................... 1, 16
    Williams, Leon, Chairman, San Diego, CA, Metropolitan Transit 
      Development Board..........................................   771
National Highway Traffic Safety Administration:
    Ciren Center for Motor Vehicle Crash Study at NJMS:UMDNJ.....   628
    Siegel, Bernie, University of Medicine and Dentistry of NJ...   628
Transportation Issues:
    Acevedo-Vila, Hon. Anibal, Representative from PR..........223, 236
    American Public Transportation Association...................   577
    Atlantic Corridor Greenway Network, FL.......................   613
    Bilirakis, Hon. Michael, Representatives from FL.............   398
    Bristol Street Widening Project, Santa Ana, CA...............   713
    Brown, Hon. Kirk, Secretary, Illinois Department of 
      Transportation.............................................   686
    Central California Ozone Study (CCOS) Coalition..............   649
    Chatham County and Atlanta, GA Projects......................   223
    City of Brea, CA.............................................   719
    City of Huntington Beach, CA.................................   711
    City of Inglewood, CA........................................   717
    City of Newark, NJ...........................................   624
    City of Santa Ana, CA........................................   713
    City of Waco, TX.............................................   782
    Colonial Williamsburg Foundation, VA.........................   621
    Coyne, William J., Representative from PA..................137, 145
    Crenshaw, Hon. Ander, Representative from FL...............223, 226
    Dorn, Roosevelt, Mayor, City of Inglewood, CA................   717
    Downtown to Depot Revitalization Initiative, FL..............   617
    Doyle, Hon. Mike, Representative from PA...................137, 148
    Easter Seals.................................................   587
    Edinger Corridor Improvements, Huntington Beach, CA..........   711
    Electrowave Facility/Intermodal Transit Center, Miami Beach, 
      FL.........................................................   613
    Gekas, Hon. George, Representative from PA.................137, 139
    Hoopa Valley Tribe of California.............................   585
    Houchen, Pam Julien, Mayor of Huntington Beach, CA...........   711
    Hunter, Hon. Duncan, Representative from CA..................   416
    Illinois Department of Transportation........................   686
    Jacksonville and Volusia County, FL Projects.................   223
    James, Sharpe, Hon., Mayor of Newark, NJ.....................   183
    Johnson, Terry, Mayor, City of Oceanside, CA.................   715
    Kingston, Hon. Jack, Representative from GA................223, 232
    Los Angeles County, CA, Metropolitan Transportation Authority   738
    Lovelace Respiratory Research Institute, NM..................   525
    Miami-Dade County, FL........................................   721
    Mica, Hon. John L., Representative from FL...................   376
    Moore, Roy, Mayor, City of Brea, CA..........................   719
    New York State Department of Transportation..................   731
    Niagra Frontier Transportation Authority, NY.................   652
    Pallone, Hon. Frank, Representative from NJ..................   381
    Pennsylvania projects........................................   137
    People for the Ethical Treatment for Animals, Norfolk, VA....   630
    Platts, Hon. Todd R., Representative from PA...............137, 151
    Public Transportation Acquisition Project, Gainesville, FL...   617
    Pulido, Miguel A., Mayor, City of Santa Ana, CA..............   713
    Regional Transportation Commission...........................   633
    Riordan, Richard J., Mayor, City of Los Angeles, CA..........   750
    San Juan, Puerto Rico, Tren Urbano project...................   223
    Shays, Hon. Christopher, Representative from CT.......104, 112, 400
    Sherman, Duane, Sr., Chairman, Hoopa Valley Tribe of 
      California.................................................   585
    Solis, Hon. Hilda, Representative from CA....................   449
    Stupak, Hon. Bart, Representative from MI....................   385



</pre></body></html>
